<html>
<title> - PREPARING FOR THE WAR ON TERRORISM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                   PREPARING FOR THE WAR ON TERRORISM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2001

                               __________

                           Serial No. 107-37

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _______


                  U.S. GOVERNMENT PRINTING OFFICE
77-229                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Tennessee            BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2001...............................     1
Statement of:
    Netanyahu, Benjamin, former Prime Minister of Israel.........    65
    Zinni, General Anthony, U.S. Marines, retired; Dr. 
      Christopher Harmon, professor, U.S. Marine Corps Command 
      and Staff College; and Dr. Jessica Stern, Harvard 
      University.................................................   111
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................    45
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    53
    Harmon, Dr. Christopher, professor, U.S. Marine Corps Command 
      and Staff College, prepared statement of...................   113
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California:
        Article dated September 19, 2001.........................    94
        Prepared statement of....................................     6
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    35
    Netanyahu, Benjamin, former Prime Minister of Israel, 
      prepared statement of......................................    73
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................    24
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................    15
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    63
    Stern, Dr. Jessica, Harvard University, prepared statement of   127
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of Calilfornia, prepared statement of................   169
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    59
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, prepared statement of....................    32

 
                   PREPARING FOR THE WAR ON TERRORISM

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2001

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 a.m., in room 
2154, Rayburn House Office Building, Hon. Dan Burton (chairman 
of the committee) presiding.
    Present: Representatives Burton, Barr, Gilman, Morella, 
Shays, Ros-Lehtinen, Horn, Mica, Tom Davis of Virginia, Ose, 
Lewis, Jo Ann Davis of Virginia, Platts, Weldon, Cannon, 
Putnam, Otter, Schrock, Duncan, Waxman, Lantos, Owens, 
Kanjorski, Mink, Sanders, Maloney, Norton, Cummings, Kucinich, 
Blagojevich, Davis of Illinois, Tierney, Turner, Schakowsky, 
Clay, and Watson.
    Also present: Representative Jones of North Carolina.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; James C. Wilson, chief counsel; 
David A. Kass, deputy chief counsel; Mark Corallo, director of 
communications; M. Scott Billingsley, Chad Bungard, John 
Callendar, Pablo Carrillo, and Randall Kaplan, counsels; Thomas 
Bowman and Marc Chretien, senior counsels; S. Elizabeth Clay, 
Caroline Katzin, Gil Macklin, and John Rowe, professional staff 
members; Robert A. Briggs, chief clerk; Robin Butler, office 
manager; Josie Duckett, deputy communications director; Toni 
Lightle, legislative assistant; Leneal Scott, computer systems 
manager; Danleigh Halfast, assistant to chief counsel; Corinne 
Zaccagnini, systems administrator; Michael Layman, staff 
assistant; Joshua E. Gillespie, deputy chief clerk; Elizabeth 
Crane, legislative aide; Phil Schiliro, minority staff 
director; Phil Barnett, minority chief counsel; Kristin 
Amerling and Michael Yeager, minority deputy chief counsels; 
David Rapallo, minority counsel; Ellen Rayner, minority chief 
clerk; Jean Gosa and Earley Green, minority assistant clerks; 
Kate Harrington, minority staff assistant; and Nancy Scola, 
minority computer information manager.
    Mr. Burton. Good morning. A quorum being present, the 
committee will come to order.
    Let me start off by saying former Prime Minister Benjamin 
Netanyahu is on his way. He probably won't be here for about 45 
minutes or so, so what we are going to do is we are going to go 
ahead and start with our opening statements and have that 
completed and then, when he gets here, we will go right to 
former Prime Minister Netanyahu.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record; and, 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record; and, without objection, so ordered.
    Before our opening statements, I also wanted to have the 
committee fill the vacant chairmanship of the Civil Service and 
Agency Organization Subcommittee. As you know, our colleague, 
Joe Scarborough, retired on September 6th of this year. The 
vice chairman of the subcommittee, Dr. David Weldon, has agreed 
to serve as chairman of the subcommittee, and we are looking 
forward to having you chair that subcommittee, Dr. Weldon. 
Therefore, I ask unanimous consent that Congressman Weldon be 
appointed as chairman of the Subcommittee on Civil Service and 
Agency Organization; and, without objection, so ordered.
    We will now start with opening statements, and we will 
recognize the chairman emeritus of the Foreign Affairs 
Committee, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to thank Chairman Burton for conducting this very 
timely hearing. As you know, we had a prior terrorism hearing 
under Mr. Shays' chairmanship in our subcommittee, and I think 
that was appropriate at that time, and I hope we will take 
another look at the testimony of that hearing.
    As the dean of New York delegation in my congressional 
district adjoining New York City, I personally witnessed the 
horrible devastation of the recent barbaric terrorist attacks 
first hand. In my congressional district just north of New York 
City, more than 86 Americans are missing, many of whom are 
firemen and police officers.
    While there has been an unprecedented outpouring of 
charitable donations by our fellow Americans and our community 
organizations and our corporations and a tremendous outpouring 
of volunteer work in both the Pentagon and the World Trade 
Center and with the Congress and our Nation standing united in 
support of the victims and their families and our President, 
regrettably, we are all well aware that on last Tuesday, 
September 11th, our lives have changed. Terrorism has become a 
common enemy of the entire civilized world.
    Few world leaders have more experience in dealing with 
international terrorism than today's leading witness, former 
Israeli Prime Minister Bibi Netanyahu, and we look forward to 
his testimony. Before thinking systematically about terrorism, 
as was current, he wrote the text, Terrorism, How the West Can 
Win. More recently, he wrote, ``Fighting Terrorism, How 
Democracies Can Defeat Domestic and International Terrorists.'' 
I recommend this book as good, important reading for our entire 
committee.
    Moreover, Bibi Netanyahu carried on that fight for his own 
nation and collaterally for the rest of the civilized world 
when he was Israeli prime minister.
    These recent attacks on our own Nation were targeted, 
coordinated acts of terrorism and were of a character beyond 
what Prime Minister Netanyahu had to deal with. The devastating 
kind of terrorism attack that a well-educated country can plan 
over the course of years with the explicit intention of 
committing suicide after living in the target country for years 
is something that is hard for us to believe, and we have not 
seen it before.
    Our traditional profiles of suicide bombers are no longer 
reliable. In fact, even Israelis were recently shocked when an 
older married man with children, a Palestinian Israeli citizen, 
blew himself up in a marketplace. The fact that suicide bombers 
are coming from different sectors of society makes it even more 
difficult to defend against such attacks, even in the State of 
Israel.
    In a broader sense, I know that neither Israel nor our own 
Nation is inclined to making our war on terrorism a war between 
cultures. Not a war between Islam and the West. Nor is this 
necessarily a war between democracies and nondemocracies. Even 
people living under authoritarian regimes have the right to be 
free of terror, and even authoritarian regimes can be recruited 
to help stamp out terrorism. Mr. Netanyahu, I am certain, 
shares our views that the appropriate characterization of our 
struggle is a war between civilization and barbarianism and not 
one against my religion or any ethnicity.
    We look forward to hearing the witnesses' thoughts today 
and particularly Mr. Netanyahu's thoughts on how we can reach 
the men on the street among whom terrorists operate and 
encourage vigilance on their part. How can we deal with the 
hatred of the West and what kind of compromises can we accept 
on our freedom of movement today and what can we do about the 
state's and powerful private sources that provide assistance to 
terrorist organizations? We look forward to hearing our 
witnesses today on these most important topics.
    So, again, I thank you, Mr. Chairman, for conducting this 
very timely hearing.
    Mr. Burton. Thank you, Mr. Gilman.
    I think it is extremely important that the American people 
really have a thorough knowledge of what we are up against, and 
that is why it is so important that we have these experts here 
today.
    We will pass on Mr. Waxman right now. We will give his 
opening statement, along with Mr. Shays, myself a little bit 
later.
    I now recognize the gentleman who knows a little bit about 
war firsthand, Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. I think it 
is important that we hold this hearing today, and you put 
together a stellar list of witnesses.
    A week ago, Mr. Chairman, our Nation lost its innocence, 
but it has found a new sense of unity and purpose. This new 
sense of unity comes from the sudden realization that our 
democratic way of life is under attack. It must be and it will 
be defended. This awakening came at a terrible cost--the 
devastation of thousands of innocent American lives and the 
destruction of our national symbols of strength and prosperity.
    It is precisely because we paid such a heavy price for this 
awakening that it is so valuable. We are at the hinge of 
history. We can bemoan the tragedy, or we can draw the 
appropriate lessons from it and move forward. I believe it is 
critical we learn from the tragic experience, not only to 
ensure that such events don't happen again but that we take 
intelligent and thoughtful and sweeping actions to deal with 
the crisis.
    It is also critical of Prime Minister Netanyahu's 
appearance that we learn from those such as our friend and 
ally, the State of Israel, who have been confronting terrorism 
on a daily basis and who have succeeded in reconciling security 
with democracy.
    The world is watching, Mr. Chairman, our Nation's military 
preparations and the deliberations here in Congress; and it is 
asking, is the United States up to the challenge? Are we, the 
greatest democracy on Earth, capable of mounting a sustained, 
costly and concerted global campaign against international 
terror?
    Mr. Chairman, I am confident that we are. Throughout our 
history the American people have risen to the challenge of 
coming together and mobilizing all of our Nation's strength, 
our formidable military might, our dynamic economy and our 
indomitable spirit, and we will do so again this time. But in 
committing to this fight, Mr. Chairman, let us not delude 
ourselves. We are embarking on a costly, painful, difficult 
struggle like none other in our Nation's history. It will 
demand resolve. It will demand patience, and it will demand 
sacrifice.
    On the subject of sacrifice, allow me to expand on this a 
bit. For many years now we have been conducting military 
operations with a firm commitment to have zero casualties. That 
is a noble goal, but the events of September 11 demonstrate 
that debate is now behind us. We will have had probably over 
6,000 casualties, and I think the Vietnam syndrome with respect 
to casualties will have to be rethought. Every single American 
life is precious beyond words, but it is absurd for a society 
to tolerate thousands of civilian casualties and still believe, 
as we did in the Kosovo engagement, that no military casualties 
can be accepted. This issue will be a subject of protracted and 
serious debate, but those who claim that no casualty is 
acceptable better talk to the families of the 6,000 innocent 
Americans who were casualties just this past week. This debate 
is over, and the price we paid is over 6,000 innocent lives. It 
is a return to the reality of living in a dangerous world.
    Mr. Chairman, in this struggle, we are not alone. All 
Americans deeply appreciate the many expressions of sympathy 
and support from our friends and allies across the globe. We 
trust that now these words will be translated into action. I 
welcome our European friends' expressions of sympathy. I look 
forward to our European friends' actions vis-a-vis their 
policies of trade and investment in Iran, Libya and elsewhere. 
We have been debating these issues in this Congress in a very 
lonely fashion, and it is long overdue that our European 
friends who are so strong in their expressions of condolences 
should be equally strong in falling in line with respect to 
policies.
    In this fight against international terrorism there can be 
no neutrals. Those who are not with us are against us, and I 
welcome the decision of Pakistan in this moment of historic 
crisis, that they have chosen to be with us. This will serve 
them well.
    As our military commanders and the brave servicemen and 
women they lead prepare to wage war against the perpetrators of 
last week's terrorist strikes, our sights are trained on Osama 
bin Laden and his Taliban protectors and with good reason. But 
I think it is critical that we don't personalize and trivialize 
this war. If Osama bin Laden is turned over tomorrow morning, 
the international war against terrorism must continue unabated. 
Defeating or capturing or eliminating Osama bin Laden will not 
spell the defeat of terrorism unless we broaden our efforts and 
eradicate terrorism wherever it lurks. If we personalize and 
trivialize this struggle and limit our focus to the 
perpetrators of these acts, we may win some battles, but we 
risk losing the war.
    I am encouraged, Mr. Chairman, by the administration's 
efforts to target not just Osama bin Laden but terrorists 
throughout the Middle East and beyond. I applaud Secretary 
Powell's efforts in the midst of this week's war planning to 
pressure Syria and Lebanon to surrender Hezbollah terrorists 
operating in their territories, a policy I recommended in 
sanctions legislation that was adopted by this body by a vote 
of 216 to 212 just a few months ago. As my friends will recall, 
at that time the State Department issued two letters opposing 
my amendment. By this week's action, I welcome them on board; 
and I have no doubt that if this amendment would be up on the 
floor today it would not squeeze by with a vote of 216 to 212 
but we would get well over 400 affirmative votes.
    Secretary of State Powell has affirmed the administration's 
commitment to eradicate terrorism root and branch, a worthy and 
necessary goal the American people passionately and seriously 
support, but in the framing of this struggle, it is critical 
that we focus on the forest, not just some of the trees. Osama 
bin Laden must go, but so must all the terrorists in the Middle 
East, in Colombia, in Indonesia and elsewhere who share the 
evil goals and operational methods of terrorists.
    I thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Lantos.
    [The prepared statement of Hon. Tom Lantos follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.005
    
    [GRAPHIC] [TIFF OMITTED] T7229.006
    
    Mr. Burton. Let me say to my colleagues, because we have an 
important schedule here with Mr. Netanyahu, and he ought to be 
here in about half an hour, I would like to have our Members 
limit their comments to 5 minutes, if it is possible.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    In defense of terrorism, it is not simply weapons. It is 
language, knowledge, writing and getting within the psychology 
of particular languages and particular people.
    Back in the 1980's, when Caspar Weinberger was Secretary of 
Defense, he made a real point that America is way behind in 
terms of educating our students. We do a good job with the 
military academies but not so much with the civilian side. And 
the people in great areas of the world, be it Indonesia, be it 
Russia, be it the Middle East, Latin America, so forth, and 
Weinberger said we have got to invest money in educating these 
people in the secondary schools, even the elementary schools, 
and we ought to, frankly, start in kindergarten and first grade 
in some of these languages, because at that point it is sort of 
fun, but when you do it later, the brain says, gee, I can't do 
that. Well, we can do it, and we ought to put more emphasis on 
that in the United States.
    When this chaos of the last week started, all four networks 
talked about an Arabic newspaper in London where columns were 
in Arabic, and they wondered why wasn't somebody looking at 
that. I have asked the question of a number of people that 
should have known, and they say, oh, well, we just don't have 
the Arabic skills that we ought to have.
    So that is part of our problem. We do very well with the 
Voice of America, but we don't do very well in some of our 
basic intelligence agencies, and we could do a lot better. The 
Department of Defense has a marvelous language school at 
Monterrey, CA. They do teach people how to read, write, speak 
in very complicated languages; and I think, Mr. Chairman, that 
we ought to get from--all of these agencies into this committee 
and see just where we are in doing those things. It is a little 
late now, but maybe it won't be late again.
    Thank you.
    Mr. Burton. Thank you, Mr. Horn; and we will be talking 
with various agencies about making sure the coordination is 
there.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    The events of the past week have had a profound effect on 
this Nation and the world. We all saw the events unfold before 
our eyes on national television. Our cities, the Nation's 
transportation infrastructure, including subways and airports, 
nuclear power plants, national monuments and landmarks became 
and still are vulnerable.
    With weapons of mass destruction and biological weaponry, 
it has become very clear that there is an increased need to 
protect not only the citizens within our borders but also those 
who defend our country against outside threats.
    With that said, I am pleased that this committee is the 
first in Congress to ask the question, how does America prepare 
for the war on terrorism?
    First, I believe we must come to an understanding of what 
terrorism means. It is defined as the systematic use of terror, 
and terror is a state of intense fear. America must work hard 
to combat this fear.
    Then we must ensure that our local firefighters, police 
departments and emergency medical personnel are properly 
trained and have the available supplies to respond in a crisis. 
As we saw in New York and at the Pentagon, these groups were 
the first to respond.
    Next, the country must prepare our public health 
infrastructure. We must assess the Nation's long-range 
capabilities to respond not only to those weapons that are 
physically visible and threatening but also biological and 
chemical weapons. Are there vaccinations and antidotes 
available if the need arises?
    Furthermore, America must continue to build coalitions with 
Nations around the world. The fight against terrorism will be a 
long and difficult one, requiring the cooperation of many 
nations.
    Finally, America must stay prepared by being alert. We must 
focus on enhancing our national security by ensuring that 
emergency plans and procedures are set. U.S. citizens and 
facilities have been targets for years and will continue to be 
targets.
    This was not just an attack on America but an attack on 
freedom and democracy. Not only were Americans affected by the 
terrorist attacks but citizens from more than 80 countries 
worked at the World Trade Center.
    During this crisis, America will be defined by how we react 
and respond to terrorism. Our response must be carefully 
balanced. On one side, we place our commitment to spare no 
effort in eradicating terrorism and punishing those responsible 
for this heinous crime. On the other hand, we balance the 
responsibility to hold true to our Nation's principles, to be 
cognizant of innocent life and to use military force only when 
necessary. This is a difficult scale to balance, but I believe 
that we have a duty to reach the appropriate equilibrium that 
justice requires.
    We are all living through this day by day and must stand 
together as Americans. I would urge all Americans not to target 
Arab-Americans or Muslims. Racial profiling and hate crimes 
cannot be tolerated. Tolerance is the glue that has held this 
diverse country together.
    This is not a war against people from different cultures or 
who practice a different religion. This is a war on terrorism. 
We cannot trade in our civil rights and liberties.
    Again, Mr. Chairman, I thank you for holding this hearing 
and yield back the balance.
    Mr. Burton. Thank you, Mr. Cummings.
    Mrs. Morella.
    Mrs. Morella. Thank you very much, Mr. Chairman. I want to 
thank you and Ranking Member Waxman for holding the hearing.
    Protecting Americans and determining who is responsible for 
the tragedy of September 11th have become the most important 
issues for every Member of this Congress. I appreciate the 
quick action by this committee in raising the issue today.
    In many of the comments uttered after the terrible assault, 
we heard people note that all of us woke up on September 11th 
to a nightmare, and that couldn't be more true. But then we 
found the nightmare became a reality. Last Tuesday's attack was 
the single most calamitous day in terms of loss of life in our 
Nation's history. And sadly, for many of us, though, the 
nightmare we spoke of has worsened. But now we realize just how 
vulnerable we are. Those who wish to do us harm are not only 
willing to sacrifice their lives but have the resources to 
wreak terrible violence upon our shores. We see violence as the 
means of violence. Therefore, it must be the focus of this 
committee, this Congress, this country to do everything 
possible to prevent another tragedy. Today is the first step.
    Among our responses, we should include coordination among 
agencies, one office to oversee terrorism in this country. 
Presently, we have the FBI, the CIA, FEMA, Department of 
Transportation, Department of Defense, all with separate 
offices to combat terrorism in different ways. We need one 
office with representatives from each of the agencies to come 
up with the cohesive strategy. So, Mr. Chairman, we have expert 
witnesses that you have assembled to detail our present 
vulnerabilities to terrorism and to describe what can be done.
    We are honored also to expect the arrival of the former 
prime minister of Israel, Benjamin Netanyahu, who has both 
written about terrorism and unfortunately experienced it.
    I look forward to the testimony of all the witnesses in 
learning how to best prepare ourselves for the new realities 
that face us. The age of innocence is lost. The age of anxiety 
is upon us.
    I yield back the balance of my time; and, again, thank you, 
Mr. Chairman.
    Mr. Burton. Thank you, Mrs. Morella.
    Mr. Owens, do you have an opening statement, sir?
    Mr. Owens. Thank you, Mr. Chairman; and I would like to 
commend you for having these hearings.
    It is another opportunity for me to thank the Members of 
Congress and the people of the United States in general for the 
way in which they have come to the aid of people of New York 
and Washington. We are all mourning together those who died.
    We also would like to together salute the bravery of the 
firemen and the policemen who went in to rescue people while 
others were coming out to safety. Firemen in my district 
suffered a tremendous loss in one of the companies, and we of 
course are struggling to deal with that in many ways.
    I would like to take advantage of this particular forum, 
however, to talk about the fact that so many of my constituents 
have emphasized to me the fact that they would like to hold me 
as a Member of Congress responsible for national security, 
regardless of what committee I serve on. I have said over and 
over again, there is a limited role I play. I am not on the 
Permanent Select Committee for Intelligence. I am not on the 
Foreign Affairs Committee. Certainly I think it is our 
responsibility, but we play a limited role. They are saying 
every Congressman and the institution as a whole must take 
greater responsibility for national security.
    There are too many comments being made about things that 
probably could have been avoided or things that are not being 
done that should have been done and should be done rapidly if 
they are not being done. People take note of the fact that our 
intelligence agencies have suffered some tremendous 
embarrassments. They tell me. I don't have to tell them. They 
read. They remember better than I do the Aldrich Ames disaster 
with the CIA when the top person in charge of 
counterintelligence with respect to the Soviet Union is on the 
payroll, the--Hoffman--the recent FBI top intelligence person, 
counterespionage person, being found to be on the payroll of 
the Soviet Union. They bring up these things and they say, 
well, why can't you tell us if they have taken steps to make 
sure this never happens again?
    The intelligence community, they know it is kind of an 
incestuous community, and they don't like to have open forums 
and discussions, and not many Members of Congress really 
discuss those things that go on there. There are some basic and 
simple questions that we can all ask without in any way 
jeopardizing the security of the Nation. If the people don't 
want to answer them and find that they are jeopardizing the 
security and the operations of the intelligence community, they 
don't have to answer it.
    But basic questions like, how many high-level people do you 
have in decisionmaking positions who have background and 
understand Islamic culture? Are there people at top places who 
are making these decisions who really understand? If they are 
there, what kind of resources do they draw on? Is there a think 
tank? Is there a resource pool that they can steadily draw on 
of people that are currently monitoring and can really monitor 
because they understand the language, they understand the 
culture, they have background?
    These are basics that surely the answer ought to be in the 
affirmative, but we don't know until we ask.
    What about the language situation? Mr. Horn has just said 
we have the school out West who teaches all kinds of languages. 
I have no doubt about their ability to do this, but what kind 
of recruits are they getting? How rapidly are they taking in 
recruits? And are we back to the basic problem of education in 
America where the pool of young people who are coming out of 
college who can tackle some of these positions--because these 
are positions that will require a great deal of training. Just 
as the terrorists show that they have a great deal of training 
and education, the people who are going to be involved in 
counterterrorism are going to have to have the same kind of 
training and education. So we have the situation where there is 
a great shortage in every profession in America. Law 
enforcement is suffering greatly, as is teaching and other 
areas in recruiting people to go into these professions.
    So we need for take a look at the long run--and this is a 
long-term battle. We all agree. The long-term needs of our 
education system in terms of making certain that the pool of 
people are always there so that you can recruit for doctors, 
lawyers and other folks. At the same time, law enforcement, 
teaching and other professions don't suffer, that we have the 
very best that can be made available.
    There was an advertisement on a station in New York a few 
days ago by the FBI. They want people who speak Farsi. I said, 
well, you know, that is great that they are doing that now. How 
much of a deficit do we have in people who speak Farsi that has 
to be made up? I am glad that it is being done now, but we 
should ask the basic questions of, how many people are there 
being recruited and what kind of process is there to guarantee 
that the system is always in place?
    I have served on this committee for a long time. At one 
point I served on the Transportation Subcommittee, and we had 
several hearings on safety. I am afraid that in the records of 
those hearings you will find recommendations about airport 
safety which included guaranteeing that the cockpit is always 
secure and that nobody can get into it, and I am sure that many 
other government reports over the last 10 years have repeated 
the need for this guarantee with respect to the cockpit. And 
yet we are now talking about, yes, this is a good idea. Well, 
why is it that these things are not done?
    The Federalization of airport safety, the security of our 
airports has been recommended on several occasions. I don't 
think that violates the private sector's rights to do certain 
kinds of things. Some form of Federalization is needed, and we 
should go forward.
    I just want to repeat what my constituents are saying to 
me. Security of the Nation, security of the airlines, all 
aspects of security is everybody's job now. They hope that the 
Congressmen, every Member, will understand it that way and that 
the institution will understand it and all America will 
understand it. It is all of our problems, and we should all not 
be afraid to take part in the dialog and deliberations to make 
things better.
    Thank you.
    Mr. Burton. Thank you, Mr. Owens.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    As President Bush has underscored, the terrorist attacks of 
September 11th were not just against the United States. They 
were against freedom and democracy, against the integrity and 
essence of our Republic. It was an attack against the free 
world and the moral precepts which guide human relations. It 
was an act of barbarism born of wanton disregard for the value 
of human life, born out of a desire to terrorize the global 
community of nations into submission.
    Those behind these terrible acts sought to change our 
American way of life. They hoped that fear would lead to a 
transformation of our character and our society. They obviously 
do not know what we are made of. Much like the attack on Pearl 
Harbor, the terrorist acts of September 11th had served as a 
catalyst, a call to action, a demand for the United States to 
exert our leadership role and to use all available means to 
confront this threat.
    The United States is being called upon, as it did during 
the cold war, to create conditions under which our free and 
democratic system can live and prosper. As we did during the 
cold war, we must take the necessary steps in terms of policy 
and resources, offensive and defensive strategies to ensure 
that this century will see the triumph of freedom and the 
vindication of our democratic principles, to ensure that the 
aftermath of this new war that we have embarked upon is global 
stability, to ensure that we may again live without fear.
    Fortunately, President Bush and his national security team 
have learned this lesson of history. They understand the 
mistakes of the past so we are not condemned to repeat them. 
They have deciphered the elements leading to our victories over 
totalitarianism and tyranny so that we may build upon them.
    While the nature or manifestation of the terrorist threats 
may differ from any we have encountered in the recent past, the 
principles of Realist political theory, the tenets outlined in 
the landmark cold war document now known as NSC-68, and the 
Reagan doctrine of peace through strength still hold true.
    The President and his advisers understand this reality. 
President Bush and his national security team understand that 
the dream and the hope of containing the cold war enemy and 
deterring attacks against U.S. interests was converted into the 
``long peace'' through the implementation of a policy firmly 
rooted in U.S. military superiority and overwhelming strength.
    The United States won the cold war and ensured peace and 
stability by stating its resolve and demonstrating its 
commitment to make good on these threats. Some would argue that 
when the United States abandoned this principle in the closing 
decade of the last century that instability and new forms of 
conflict began to grow.
    President Bush and his advisers realize this. They hear the 
echoes of the drafters of NSC-68 who underscored that, without 
superior aggregate military strength, a policy of containment 
is no more than a policy of bluff.
    Thus, the resources and funding we allocate for the war 
against terrorism must match our commitment and our resolve. We 
may not be able to deter the suicide bombers and the kamikaze 
tactics. However, the threat of unleashing American power in 
response to those terrorist attacks will have a sobering effect 
on those who harbor these terrorists, who provide them with the 
financial support and training facilities to execute these 
attacks.
    The military component of our strategy must provide for a 
flexible but comprehensive response which includes many options 
available to us in the United States.
    Further, the application of the doctrine of peace through 
strength to the war on terrorism requires the United States to 
possess an extraordinary amount of intelligence, using not just 
sophisticated technology but also expanding the human 
intelligence capabilities. We must follow every lead and use 
every method to uncover the network of individuals, groups and 
sponsors which have empowered and enabled these terrorists to 
commit such deplorable acts. In doing so, we should remember 
that Realism contends that nation states are engaged in the 
never-ending struggle to improve or preserve their relative 
power position and that in the global system force is the final 
arbiter.
    Thus, based on this premise, we must look at both emerging 
powers who seek to challenge the current global structure and 
the U.S. leadership, as well as those declining powers who seek 
to retard or halt their diminishing role. We must investigate 
whether the terrorist acts on the United States were tools 
employed by a state or regime to exert its position with its 
neighbors and of the world stage. Is the approach of the 
terrorist groups based on the same power and political 
considerations which determine the behavior of nation states? 
What are the geopolitical or strategic objectives of terrorist 
groups?
    Whatever the answers, we must not limit ourselves. As the 
attacks of September 11th clearly demonstrate, anything and 
everything is possible. For this reason, our response must 
include a defensive posture that prepares for the possibility 
that these new aggressors can obtain nuclear materials and 
weaponry.
    What if free people could live secure in the knowledge that 
their well-being did not rest exclusively upon the threat of 
U.S. retaliation? What if we could intercept and destroy these 
missiles before they reached American soil and American 
interests? It will not happen overnight, but is it not worth 
every investment necessary to free the world from this threat?
    Former President Ronald Reagan believed that it was worth 
it. President Bush knows it is worth every investment. We in 
Congress should know this as well. That is why, as part of the 
coordinated U.S. response to these attacks and to the broader 
threat of terrorism, the Congress should support the Bush 
administration's missile defense program. Ultimately, it will 
be the strength of character and the moral fiber of the 
American people and our unity of purpose which will help the 
United States and the free world triumph over evil.
    As Thomas Jefferson wrote in 1811, it is impossible to 
subdue a people acting with an undivided will. We have that 
will. The terrorists will soon know this, also.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ms. Ros-Lehtinen.
    [The prepared statement of Hon. Ileana Ros-Lehtinen 
follows:]

[GRAPHIC] [TIFF OMITTED] T7229.007

[GRAPHIC] [TIFF OMITTED] T7229.008

[GRAPHIC] [TIFF OMITTED] T7229.009

    Mr. Burton. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman; and thank you for 
conducting these hearings this morning.
    I want to start just by saying to my colleague, Mr. Owens, 
that we took to heart your words a moment ago, and it was with 
some pride that I was with 73 men and women from New England 
who were the first to respond as assistance from outside the 
city of New York. We all suffer for the loss of everybody that 
was involved in that act, and their families and their friends 
and everybody wants to do as much as they can possibly do. As I 
say, we are proud that some from New England got the 
opportunity at least to go directly there and contribute in a 
very direct manner.
    When a tragedy like this occurs, I think everyone naturally 
wants to know what it is that they can do, and that doesn't 
stop with this body. It is not a sentiment that is entirely 
alien to the Members of Congress. We feel the same way, and 
this particular committee and the Subcommittee on National 
Security, Veterans Affairs and International Realtions in 
particular has a unique role to play in making sure that our 
government works as efficiently as is possible.
    I want to take just a moment to acknowledge my colleague 
and chairman of the Subcommittee on National Security, Veterans 
Affairs and International Realtions, Chris Shays, who, as many 
of us will recall, has over the last several years conducted 19 
or 20 hearings on related issues alone. He has shown leadership 
and has identified in fact that this was a major concern of 
this country. We are proud on that subcommittee to work with 
him in a nonpartisan way over and over again to address this 
and try to focus this government and the American people's 
attention on what we thought was in fact the primary risk.
    I think there are four things we have to look at here. We 
have to look at assessing what the risks to this country are, 
prioritizing those matters, coordinating what our response is 
going to be, and then allocating the resources and executing 
our plans to deal with them.
    We have a refreshingly unified outlook of late amongst 
committee members here, amongst Congress as the whole. We are 
going to pursue our affirmative goals, and we are going to 
avoid accusations of fault. We are being called together to 
examine the system of our government and decide how to improve 
it with respect to the issues that confront us today.
    In hearings in that subcommittee in particular we have 
heard the GAO tell us that we don't have the proper focus and 
we have not prioritized the issues relating to terrorism. We 
have to evaluate all the actions and all the threats together 
and in a comprehensive way. Then we have to address our 
resources, our spending to counter those threats in a way that 
is linked to our priorities. We haven't necessarily been doing 
that.
    In 1995, President Clinton issued a Presidential Decision 
Directive No. 39, and he set forward three goals that we had: 
reduce our vulnerabilities, deter terrorist attacks before they 
occur, respond to terrorism by preparing for consequences, 
managing the crises and prosecuting offenders. Chris Shays and 
the committee are trying to focus on those three areas to see 
where we were, to see what it is we had to do and in what order 
and how we would apply our resources to it and whether or not 
we were doing an effective job.
    We have had legislation filed attempting to address the 
issue of how these roles are being coordinated across various 
agencies of government, and we continue to try and move in that 
direction. Obviously, with the events of recent days we will 
see that this is expedited. It has now come to the full 
attention of all American people the concentration that 
subcommittee has had on this issue.
    We have heard numerous witnesses. We have been to a number 
of different trials and demonstrations of how it is that we 
would respond to these particular types of situations or 
crises. We have reviewed the Rudman-Hart Commission's reports 
and heard testimony from the members of that Commission and 
others on the issue, and now we need to go to work.
    When I talk about prioritizing, let me give you an example. 
You know, over the past several administrations we have focused 
on the national missile defense as being a top priority. I, for 
one, have opposed that, as have others, based on serious 
concerns with the technical feasibility of that proposal. But 
all of us can understand certainly the fear of the rogue state 
ostensibly launching an intercontinental ballistic missile at 
one of our major cities. The effects, obviously, would be 
devastating, and we have to protect against that threat. But we 
have to make sure that the technical feasibility is there 
before we start spending money wastefully on that. There is 
some $8.3 billion next year alone being addressed not just to 
researching and trying to develop a system but to actually 
deploying a system that so far has shown that it cannot work.
    In our assessment of priority threats, none of our 
intelligence agencies lift that threat above the one of 
terrorism. So we have to ask ourselves, why is it that we are 
projecting $100 billion in that direction and, according to the 
Office of Management and Budget, across all of our various 
agencies in this government only $10.3 billion to counter all 
forms of terrorism threats combined?
    Now, I do that not because I want to start a political 
discussion here but only because I want to start a 
comprehensive discussion of policy here. Let us start to focus 
on those four things. Let's assess the threats, and then let's 
prioritize them in the order that we need to address. Let's 
coordinate and work on legislation that will allow this 
government to coordinate responses across all of those agencies 
in a comprehensive way, and then let us put together a plan of 
execution that will let us apply the resources where they need 
to be applied at a particular point in time. That will be the 
patriotism that this committee has to work for. That will be 
the patriotism that this country has to work for, the serious, 
serious look at this and the way we go about our business.
    I am looking forward to working further with Mr. Shays on 
the subcommittee. I am sure our work will be pointed in that 
direction, but, as Mr. Owens says, the entire Congress will 
have to address legislation that lets us do those four things.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Tierney.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Chairman, I just want to depart for a second from the 
regular order and take a moment to recognize the memory of one 
of our staffers, Ned Lynch. Ned worked for me and others on the 
Civil Service Subcommittee. He fought a courageous battle with 
cancer. He died during the recess, and I want to thank the 
chairman for his support. He left five children behind; and, 
Chairman Burton, I publicly thank you for what you did in 
support of that family.
    Also, I would be remiss if I didn't take a moment to 
remember Barbara Olson. I lost many friends on Tuesday, 
September 11th, as many of you have. Barbara was very special 
to me. She worked for this committee as well. Our heartfelt 
sympathies go to Ted and her family, and I must say she was a 
patriot and a dedicated American right to the very end. So we 
remember her today.
    Mr. Chairman, I also want to thank you for holding this 
hearing. It couldn't be more timely, and it certainly is within 
our purview and responsibility as the oversight committee of 
the House of Representatives.
    Obviously, the events of September 11th indicate that we 
did have a substantial failure in some of our systems, 
particularly our intelligence system. It is incredible to 
realize that our intelligence capability could not identify and 
even today we are having difficulty really gaining the true 
identity of the terrorists.
    It is also difficult that a Federalized system and under 
the control of our U.S. Embassies and consular officers would 
issue visas to the vast majority of those terrorists who 
entered our country and used our borders as almost a swinging 
door to enter, leave, and have their family come and go, almost 
at will.
    Something has gone wrong, and maybe it is our quest in this 
country for political correctness, but we have got to really 
examine what went wrong.
    There are easy scapegoats. I chair the Aviation 
Subcommittee of the House, and I have heard that the 
Federalization of the screening process is a simple answer. 
Ladies and gentlemen, the screening process did--those 
screeners did not fail. Federal regulations allowed box 
cutters, and the equipment that has been deployed was not able 
to detect the material such as plastic and knives, and that is 
partly due to our quest for political correctness. We have 
machines that have been tested and deployed and then also 
withdrawn because some said they were invasions of our civil 
liberties. So we have the technical capability to correct the 
screening process.
    The rules for screeners--this is the Gore Commission report 
which came out September 9, 1996, and some of it was a knee-
jerk reaction to TWA Flight 800, which turned out to be in fact 
a defect in the electrical system and fuel tanks aboard the 
aircraft. We spent billions of dollars to buy detection 
devices, and we went off on various tangents. If they failed, 
we failed, because we never instituted any measures until the--
Congress did not act until 2000 on some of these 
recommendations. Some of them. Again, not very prudent, but we 
did pass the Airport Security Improvement Act of 2000.
    As of the week before the incidents of September 11th, here 
are the proposed rules by FAA as a real result of this law, 
which is 4 years after this Commission report. This set of 
rules for enhancing screening still isn't in place. So talk 
about Federalization. Their folks are examples of 
Federalization having failed, starting again with intelligence, 
visa distribution and the screening process.
    What must we do? First of all, we have heard that we know 
what the recommendations are. We must penetrate the terrorist 
organizations. We must penetrate their communications. We must 
penetrate their finances. To do that, the Attorney General has 
come forth with several maybe not politically correct but 
several things we need to do, and we must adopt the Attorney 
General's recommendations.
    Additionally, you have heard, and Mr. Horn alluded to it, 
of the stunning lack of qualified linguists, the stunning lack 
of intelligence analysts. We have tons of information. We don't 
have the people who can interpret it or even understand the 
language that it has been relayed in.
    The problem has been described--and I will conclude with 
saying this--as lack of the proper response.
    Khobar Towers, I spoke at the graduation of the young man, 
Brian McVeigh, in my district. I spoke at his funeral when he 
was blown to pieces at Khobar Towers, and we still have no 
response. The U.S. Embassy attacks, no response. The USS Cole 
attack, no response. Now I should say no meaningful response. 
What we have done is retaliate and on a limited basis and not 
eliminate, and that is what our goal must be.
    So, hopefully, Mr. Chairman and my members of the committee 
and Congress will have learned from these expensive lessons and 
do a better job.
    Thank you. I yield back.
    Mr. Burton. Thank you very much, Mr. Mica.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much.
    I want to thank the Chair for holding these hearings, and I 
agree with my fellow colleagues that we need to support 
increased efforts to deal with terrorism. These hearings I 
think will be productive in doing that.
    I also know that I share with many of my colleagues concern 
over the resources that the American people have already spent 
to deal with terrorism, vast amounts of money to support 
intelligence efforts all around the world. This hearing isn't 
the forum to ask the question, but people still want to know, 
what do we get for the money, and why didn't we have better 
notification for the money that we are paying? Because if we 
are going to now advocate more resources to fight terrorism, 
wouldn't it be good to find out what the failures of the 
present system have been? Because, obviously, there have been 
failures.
    While I appreciate everyone who chooses to serve our 
country, whether they are in the uniformed service or they are 
in the service of the Central Intelligence Agency, I think that 
we are at a time when it is going to be very important to 
establish measures of accountability for those who are in the 
Central Intelligence Agency so that when they come before 
Congress and try to brief us or explain to us what the 
conditions are that we feel a certain level of comfort and a 
certain level of satisfaction in the integrity of the 
information that we are being given; and I think that every 
Member of Congress knows what I am talking about. I don't need 
to elaborate on that any further.
    But, moving on, let's look at what the World Trade Center 
represented: international cooperation, international 
communication, international finance, international spread of 
democratic values. It countenances a view of the world as an 
interconnected whole. What the World Trade Center has stood as 
the symbol of, and not just an important marker in the skyline 
of our country and of New York, is this view that the world is 
together, that we are connected, that what affects one nation 
affects us all. Indeed, we know that 60 nations lost brothers 
and sisters in this tragedy.
    The destruction of September 11th has a different message, 
too, that we are aware of today. It is a message about American 
unity, but it is also a message about world unity to combat 
terrorism. And I would say, Mr. Chairman, that what we see in 
the world uniting to address the issue of terrorism is 
basically the precondition for the end of unilateralism in the 
United States. Because the United States, while we have the 
power and the strength and certainly the courage to go it 
alone, we do not need to do so anymore. We have nations around 
the world waiting to cooperate with us in addressing the issue 
of terrorism.
    And, the truth be told, we have to have their help. We 
cannot do it alone. We need international cooperation in the 
same way that the World Trade Center symbolizes international 
cooperation. We need to have symmetry in that cooperation in 
dealing with the issue of terrorism.
    So we must prepare for a new world that has already been 
unfolding, working cooperatively with all nations for 
democratic rights and democratic values, with security 
sufficient to protect those rights. In this new world, go-it-
alone strategies are insufficient, which is why my good friend, 
Mr. Tierney, when he speaks of the inadequacies of the national 
missile defense system, his remarks are well taken.
    In the year 2000, annual spending to combat terrorism among 
various Federal agencies crept up to just over $10 billion from 
an estimated $4 billion at the start of the Clinton 
administration's term. In contrast nearly $60 billion has been 
spent on a ballistic missile system since 1983.
    Now, nonproliferation treaties have great promise. The ABM 
Treaty as a model has great promise for the future, global 
cooperation on antiterrorism efforts, great promise for the 
future because they symbolize a belief that the world while it 
can be a very dangerous place also holds out hope for 
cooperation, not just militarily, but in economics, in the 
environment, in human rights, in addressing those issues which 
give terrorists opportunities to gain a hold.
    I am confident that the United States has the resources, 
the strength, the courage and the intelligence to lead the 
world in addressing the issues of terrorism. I am hopeful that 
the United States will do everything it can to aid those 
families who have suffered as a result of terrorism, because 
this Nation certainly needs a period of healing and the healing 
is going to take a long time for those who have lost loved 
ones. But we have an opportunity to recreate the world again 
here, and not just to address terrorism as it exists, as it 
must be rooted out, but to look at what it means to have the 
world working together on a problem that vexes all free people 
but in a manner that gives us an opportunity to envision a 
world where we are working cooperatively for peace.
    Thank you very much.
    Mr. Burton. I thank the gentleman. Let me just remind the 
members that the reason we have that clock up there is it shows 
when their time is expired. I understand everybody has a great 
deal of concern about what happened, but we have Mr. Netanyahu 
coming and we don't want to keep him from coming too long or 
the other members of the panel who are going to be testifying.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I can see the clock from 
here and I will be attentive.
    In the aftermath of Tuesday's events, I want to pass my 
compliments to you and to Mr. Waxman, because what things 
really boiled down to was a measure of the leadership on both 
sides of our aisle. And the chairmen and the ranking members of 
the committees on this Hill basically had pushed on their 
shoulders a tremendous burden. It is a measure of the 
resilience of our country that the people who are in positions 
of leadership from both sides of the aisle last Tuesday and 
since were up to the task, and I want to thank both of you for 
the roles you played quietly or otherwise. I thought that it 
was an affirmation of our system to see the committee chairs 
and the committee ranking members coalesce as they did, and I 
want to thank you both for that.
    I want to associate myself with the remarks of Mr. Lantos. 
I met Shimon Perez last month and he is a gentleman with what I 
would call no illusions about the world as it lays. And I think 
Mr. Lantos' remarks this morning reflect to a great degree Mr. 
Perez' perspective.
    I also want to point out Mr. Owens spoke about 
accountability among our voters, people we represent, and he 
indicated that there was some degree of distress in his 
district. Well, there was a degree of distress in my district 
too, and I think what the voters ultimately end up looking at 
is what we do, not what we talk about but what we do. What we 
do is post votes pro or con on this or that issue. One of the 
things we post votes on is the intelligence authorization 
bills. Most often they go through on a voice vote, but on 
occasion they go through on recorded votes, and I think it will 
be interesting for someone to go back and do the research on 
who voted for or against intelligence authorization bills 3 or 
4 or 5 years ago because last Tuesday's actions were 
consequences of votes taken 3 or 4 or 5 years ago.
    Mr. Chairman, I am going to submit the balance of my 
statement for the record. I just thank you and Mr. Waxman for 
the leadership you have shown in the last week. I know you guys 
have differences. I mean I know you do. But I am just--I have 
to tell you I am extremely proud to be associated with both of 
you, particularly in the last week. So I thank you.
    Mr. Burton. Thank you, Mr. Ose.
    [The prepared statement of Hon. Doug Ose follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.010
    
    [GRAPHIC] [TIFF OMITTED] T7229.011
    
    [GRAPHIC] [TIFF OMITTED] T7229.012
    
    [GRAPHIC] [TIFF OMITTED] T7229.013
    
    [GRAPHIC] [TIFF OMITTED] T7229.014
    
    Mr. Burton. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. The horrific acts 
of September 11th have deeply affected all of us as a Nation 
and as individuals. We find ourselves taking stock of those 
things that are really important in our lives. Yesterday I was 
at the birth of my fourth grandchild William, and I want his 
world to be safe like all other grandparents and parents do. 
And now we are going to be deciding on the specific actions to 
take to guarantee our safety and security in the future, to 
help a faltering economy that has been made worse by this 
terrorist attack and to bring justice to the perpetrators.
    As we make those decisions, we must ask one question again 
and again: Will this action achieve our goals of safety, 
security and justice? We need to move cautiously and consider 
all the consequences. The might of the United States is great 
and we must use it carefully and to eliminate terrorist 
threats, making sure that those who are responsible, and only 
those, pay the price. We must allocate all necessary resources 
to restore the lost sense of security that has been such an 
important part of American life without violating the freedoms 
that make us proud to be Americans.
    Security measures at airports, on airplanes and public 
buildings may be irritating but in my view both acceptable and 
necessary. Intrusions into private communications, however, 
must be thoughtfully debated and caution taken before we expand 
the government's right to step in. This is a time for Americans 
to come together, not to turn on each other. There have been 
disturbing acts of bigotry and violence against Muslims, Arab 
Americans, Sikhs and Jews. We must all take a strong stand 
against this in our own communities. Last Sunday I sponsored a 
solidarity walk in my district that drew hundreds of people of 
all races and religions and national origins who joined hands 
and sang God Bless America. We should also move quickly to pass 
the Hate Crimes Protection Act as an expression of our 
tolerance as Americans. We need to reevaluate how easily we 
want potential criminals as well as law-abiding citizens to be 
able to access firearms, flight training and other potential 
tools that can facilitate acts of terror.
    We must ensure that those who might endanger our security 
never make it inside our borders, but we must never forget that 
this country was built by the contribution of immigrants from 
all over the world. Many of those who perished at the World 
Trade Center and the Pentagon were immigrants or the sons and 
daughters of immigrants who have come here seeking a better 
life and who made this country a better place. We must continue 
to insist on an immigration policy that welcomes people who 
make such valuable contributions to our diversity and our 
strength.
    We must make the proper investments in our public health 
system so that we can prevent and probably address the threat 
of bioterrorism.
    There are many economic consequences of this disaster. 
There are many industries and businesses that have been 
affected and may legitimately be coming to the taxpayers for 
help. But as we rethink our national funding priorities we must 
remember that senior citizens still need relief from the high 
cost of prescription drugs, children still need us to invest in 
their education. Social Security and Medicare still need to be 
protected.
    In the National Security Subcommittee under the 
chairmanship of Chris Shays, we have had many hearings in the 
last few years on antiterrorism policy. We have heard from 
scores of witnesses and members and have had numerous 
discussions about the need to do more in this country to 
prevent and respond to terrorist attacks.
    I am glad today that we have with us experts in the field 
who can help us determine appropriate policy responses to 
recent events. I want to extend a particularly warm welcome to 
Benjamin Netanyahu, the former Prime Minister of Israel, a 
country that is a great ally of the United States and one that 
has the unfortunate distinction of expertise in responding to 
terror.
    Mr. Netanyahu's expertise in this field predates his 
service as Prime Minister and we are fortunate to have him here 
with us today.
    Mr. Chairman, we will stand together in this country and 
with our allies around the world and all those who consider 
themselves civilized, and we will have justice. Thank you.
    Mr. Burton. Thank you, Ms. Schakowsky. We have a vote on 
the floor. What I would like to do is keep moving ahead with 
our opening statements. Those who want to go ahead and vote can 
do that and then come back as quickly as possible. I will 
remain here in the chair.
    Mr. Weldon, I think are you next.
    Mr. Weldon. I believe I am.
    Mr. Burton. If you want to go ahead, and I know you have 
something you want to show the panel as well.
    Mr. Weldon. Yes, Mr. Chairman. As we all know, 
commandeering a passenger jetliner and converting it into a 
weapon of mass destruction by flying it into an office building 
filled with civilians is a terrorist act that we all prior to 
September 11th would have never imagined. Nonetheless, today it 
is the new modus operandi of a network of radical Islamic 
fundamentalists who have for years been able to make the United 
States their home.
    Elements of this terrorist network, what I would call the 
evil empire of the 21st century, has been operating in the 
United States for years. I would like to use the balance of my 
time to just show some clips from a video called Jihad in 
America, and I am going to be showing or sending a copy of this 
video to all the Members of the House and the Senate for them 
to see. I don't know if the staff are able to do this, but I 
would like to go ahead and show some of the clips from this 
video.
    Mr. Burton. I hope everybody will pay particular attention 
to this video. I think it is very important.
    [Video shown.]
    Mr. Weldon. Mr. Chairman, I will just yield back. I am 
delivering this to every Member. I just want to underscore one 
important point of the enemies of these people are not only 
Israel and United States but moderate Muslims who oppose their 
agenda. I would encourage every Member and their staff to view 
this video in its entirety.
    This video is about 5 years old. But I spoke to the 
producer of this video yesterday. He told me they just had 
another meeting in July. One of the key radicals just came into 
the country in July. INS was trying to keep him out, State 
Department said go ahead and let him in. They are using our 
freedoms to put forward their agenda, which includes a desire 
to take away the freedom of speech, freedom of religion.
    [The prepared statement of Hon. Dave Weldon follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.015
    
    Mr. Burton. I will be glad to assist you in any way to make 
sure every Member gets a copy of that tape so they can look at 
it.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman. After seeing that 
tape I would caution Americans everywhere that this is not a 
war against Islam. The religion of Islam is very peaceful. 
There are, however, fanatics in every religion of the world. To 
excite the American people to react against the Islamic 
religion is a certainty for defeat for this country.
    I would like to raise some important issues with the 
committee. This weekend we had several meetings on the 
Democratic side to analyze the effects of the attack on the 
American people from the standpoint of security. We also 
discussed the possible negative effects the attack may have on 
the economy by exacerbating the slowing of economic growth that 
existed even before the attack. I urge that this committee 
exercise its jurisdiction in every way to not only facilitate 
the needs of the executive branch to provide for the security 
requirements on the airlines, the transportation field, and 
other vital industries but also to anticipate those needs. As a 
Nation, we will indeed mobilize but in a different way. It will 
not be simply calling up troops. Rather, it will include 
getting the best people to reactivate themselves and the 
various Federal services to provide the manpower necessary for 
the security and protection of the American people.
    The second area to facilitate mobilization within the 
jurisdiction of this committee is the granting of permission to 
allow retired marshals, FBI agents and other law enforcement 
officials to be reactivated without going through a long 
process that would delay their reactivation.
    Mr. Burton. Would the gentleman yield real briefly?
    Mr. Kanjorski. Yes.
    Mr. Burton. I would be happy to cosponsor any legislation 
necessary to do that because a lot of them would also lose 
retirement benefits, and so in this time of tragedy we probably 
ought to suspend some of those rules. I will be glad to work 
with you on that.
    Mr. Kanjorski. Very good, Mr. Chairman.
    Of utmost importance is the outcome of this battle. America 
will win this battle and this war. The economy, however, is 
probably the most important element to achieve this goal. As 
legislation is being prepared, those of us in Congress must be 
overly sensitive to the needs of the airline industry and be 
certain that we help. We must also consider helping other major 
important segments of the American economy to provide support 
so that they will not deteriorate further but instead, that 
they will rebound. Matched with the strong security protections 
this government can afford to provide to the American people, 
we can allow them the opportunity to display their courage and 
patriotism through consumer spending as they all indicated a 
willingness to do.
    I urge this committee to act as quickly as possible and 
exercise extraordinary jurisdictions which it has the right to 
do in such emergency situations to facilitate the best response 
to this attack. Thank you, Mr. Chairman.
    Mr. Burton. As I said, Mr. Kanjorski, I would be glad to 
work with you on any aspect of the issue you just raised. Mrs. 
Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, for calling this 
hearing and for your expressed cooperation. I also want to 
thank Mr. Netanyahu for advising us during this time of great 
need. As a New Yorker who has been to Ground Zero many times, I 
have seen the tremendous need for relief and support because of 
this tragedy. And on behalf of many, many New Yorkers I want to 
thank my colleagues and the President for responding swiftly 
and substantively with the $40 billion relief and support 
package and antiterrorist initiatives package. Today we will be 
reviewing how prepared or unprepared our government was to 
detect and deter this disaster. And more importantly, we will 
be reviewing what we need to do in the future to make sure that 
it doesn't happen again.
    I join my colleagues in calling for better intelligence, 
better security in our airports, financial support, the tools 
to track the financial movement of money for the terrorist 
organizations. In the past we have used a variety of diplomatic 
and economic tools to combat terrorism. In this instance it did 
not work. We need a broad coalition around the world, and we 
especially need the support and participation of peace loving 
Muslim countries.
    Millions of Muslims in our own country and around the world 
are appalled by the evil terrorist act of depraved extremists.
    I am especially appreciative to Pakistan, which has come 
forward with the world community to combat terrorism. Our 
enemies would like us to think that we are at war with Islam. 
Nothing could be further from the truth. We are at war against 
terrorism, against terrorists, against their organizations and 
support systems, and any country or organization that harbors 
and supports them.
    Believe me, the tragedy may have broken our hearts but our 
spirit is strong and unbroken. We are united as a country 
behind our President in whatever needs to be done to make sure 
this doesn't happen again.
    Thank you for calling the hearing.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T7229.016

[GRAPHIC] [TIFF OMITTED] T7229.017

    Mr. Burton. Thank you, Mrs. Maloney.
    Mr. Sanders.
    Mr. Sanders. Thank you, Mr. Chairman. And I don't have to 
repeat many of the important points made by my colleagues over 
the morning and I also on behalf of the people of the State of 
Vermont want to express my horror at the terrible deed 
perpetrated on September 11th and the terrible loss of life and 
offer our condolences to the loved ones of those who were 
killed.
    As you have heard this morning, Mr. Chairman, clearly I 
think we are united in saying that people who commit mass 
murder have got to be caught and they have got to be punished 
and that we have got to as a Nation working with other nations 
around the world do everything that we can to stamp out the 
horror of international terrorism. Clearly within our own 
country we have got to take a hard look at reevaluating our own 
security systems and I think make some very monumental changes 
in that.
    I think the only point I would like to add--I came a little 
bit late but I haven't heard it made earlier--is that while we 
wage the struggle against international terrorism, we have got 
to be mindful of a fact which is very, very distressing to me 
and I think to the people of this country and people all over 
the world, and that is that for a variety of reasons which we 
must understand, somebody like an Osama bin Laden is apparently 
being regarded as a hero in various parts of the world. I was 
just reading in the paper today that T-shirts with his picture 
on it and his videotapes are selling wildly in some parts of 
the world. People see him as somebody who is standing up for 
their rights. I think that as a Nation we have got to make it 
very clear to the Muslim people throughout the world, to poor 
people throughout the developing world, that international 
terrorism and gangsters and murderers do not reflect their 
interests and should not be supported by them.
    On the other hand, as a Nation, as the wealthiest and most 
powerful Nation in the world, we have got to be mindful about 
the need to address many of those terrible economic problems 
that fester in developing countries that give rise to support 
for people like bin Laden.
    There is discussion about military action in Afghanistan, 
and one of the problems is the military doesn't know what to 
bomb because this country is so poor, is so desperate that 
there is virtually nothing there. One-third of the people, 
adults can't read. People are hungry. Girls are not going to 
school, etc. So I would suggest that as part of our long-term 
strategy in dealing with international terrorism, in 
apprehending, capturing the terrorists and doing everything 
that we can to prevent other acts of terrorism in this country 
or other countries around the world, we have also got to pay 
attention to the very difficult and long-term issues of how the 
rest of the developing world sees us as their friend, somebody 
who is trying to provide decent jobs for their people, health 
care, education, housing, all the things that every human being 
and every mother and father in this world wants to see for 
their children.
    We must not allow millions and millions of people to see 
this country as their enemy and people like bin Ladin as their 
allies and their friends. So it is going to be a long hard 
struggle. It is going to have to be fought in many ways. And I 
just wanted to mention that I think that is an additional area 
that I think we are going to have to look at.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Sanders.
    Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    I appreciate you very much calling this meeting. It is too 
bad we had a vote because all my colleagues are going to miss 
these great words of wisdom to hear from a freshman. But I do 
appreciate you calling this meeting.
    There could not be a more important subject facing Congress 
in a generation or in fact for years to come. It seems more now 
than ever that the weight of what our witnesses have to say 
holds a true relationship to the direction that we as a 
committee and as a Nation must take to defend our fellow 
citizens. For a long time we have been sheltered from terrorism 
in the United States, and I want to thank the chairman for 
inviting Prime Minister Netanyahu to share with the United 
States his experience and knowledge of dealing with terrorists 
on a daily basis in Israel. Not long ago, we could only imagine 
how the Prime Minister dealt with the terrorists. 
Unfortunately, today we know too well and understand this 
ongoing struggle.
    Without question, many causes led to this tragic event of 
September 11th. While we could spend this and many other 
hearings assigning blame, this would be wasted time. Instead, 
we need to assess past policies and readiness and do what needs 
to be done to decisively fight to win this war on terrorism.
    I hope that we as a committee will discover and address the 
areas of our national security that not have received adequate 
funding. Moreover, we must encourage witnesses here today and 
in the future to speak freely about their knowledge of any 
weakness and provide recommendations on what we as Congress can 
do in aiding in combating this new war on America.
    We were told many generations ago, Mr. Chairman, that 
Americans were warned that each generation would be called upon 
to polish, sustain and then improve this great Republic. We 
were also told that these occasions would come disguised in 
many ways. The events of September 11th have delivered the 
occasion to this generation. We now have to begin anew the 
establishment of policies and enhanced collaboration between 
agencies and States and businesses and, yes, even Members of 
Congress of both parties so that together, working closely with 
our allies, we will vanquish these terrorists.
    I am hopeful through the testimony today and in the future 
that we will be able to shed light on the breakdowns learned 
from past mistakes and make sure that the appropriate changes 
and preparations are instituted into this war.
    However, Mr. Chairman, there is equal importance that must 
be given to identifying who the terrorists are. We must also 
identify who they are not. Terrorists do not share a national, 
racial, political nor religious DNA. They don't just look 
alike.
    They are as correctly defined by the testimony we will hear 
today of the author, Netanyahu, in his book Terrorism and How 
the West Can Win. In defining terrorism he said, the author, 
``Terrorism is rooted in the political ambitions and design of 
expansionist states and the groups that serve them.''
    Again, on the day of the tragedy, in an interview, Mr. 
Netanyahu identified terrorists, said they typically 
misunderstand and underappreciate the resolves of free 
societies. But amid the smoking ruins of the Twin Towers you 
could see the silhouette of the Statue of Liberty holding the 
torch of liberty very high and very proud. It is that flame of 
liberty that these people want to extinguish.
    In closing, Mr. Chairman, I would say that we Americans 
chose neither the time nor the place for these events and these 
devastating events of September 11th, but we must convince 
those soulless terrorists who have made their choice known by 
these acts that they have once again grossly underestimated the 
sterling resolve that historically visits this Nation during 
our time of need.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much, Mr. Otter.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, I appreciate how quickly you have 
called this hearing. All of us are still, I think, trying to 
absorb what war by terror means. I am not yet sure what it 
means, but I think I know what terror is. It was spelled out 
devastatingly for us on September 11th.
    I went last night to the Pentagon and asked to go close to 
the building. Members of Congress are going out, and they 
normally stand some distance away.
    I have lost many constituents. Three children were on the 
plane that crashed into the Pentagon, the three teachers with 
them. These were honor students who had won a prize from the 
National Geographic magazine.
    When I went out to the schools yesterday, there were two 
children whose father cannot bring himself to tell them that 
the mother naval officer is dead.
    I wanted to see the Pentagon. I wanted to understand what 
it means for a plane to plow into a building. We have seen from 
afar how the great towers of a great city could be taken down, 
and we know that there is no city that is a greater target than 
the Nation's Capitol. We feel enormously fortunate that there 
was no harm done to this Capitol, to the 2 million people who 
work here, to the 600,000 people who live here.
    But, Mr. Chairman, there is something of a temporary 
victory in the closing of National Airport. The hearing you 
have today is very important because the closing of National 
Airport tells us we don't even know how to keep the airport of 
the Nation's Capitol open. When you close the airport, you come 
pretty close to closing the Nation's Capitol itself.
    We have lots to learn from Israel and other countries. Mr. 
Netanyahu you have had the wisdom to invite, and others. 
Because the attack of September 11th drives home that we are 
starting at the basics. We have got to open National Airport 
but certainly not recklessly. We don't want to fling it open. 
But we have certainly got to open it. We can't let this 
monument to the terror of September 11th remain much longer.
    So I am hoping that the Congress and the administration 
will give greater priority to making National Airport perhaps a 
pilot for the rest of the country. Because if we can keep 
National Airport, so close to official buildings and monuments 
and the Congress and the White House, open, then we can protect 
any city in the United States.
    I am pleased that the Congress is now moving forthwith. 
There was an important aviation hearing. Our airlines must be 
saved. No great power can remain a great power if it is left 
with one airline or airlines in bankruptcy. I hope that bill 
will go to the floor no later than Friday or Monday.
    At 2 today I am going to another of my subcommittees to 
mark up a bill on domestic preparedness. Fortunately, the 
Transportation Committee was working on this bill. Our 
Subcommittee of Economic Development and Public Buildings was 
working on this bill.
    I have inserted an amendment to put the District of 
Columbia at the table of domestic preparedness. Because if 
there is an attack on the District of Columbia, the first 
responder is the police department of the District of Columbia, 
the fire department of the District of Columbia. And yet, they 
knew nothing. There was no communication with them when in fact 
the attack occurred last Tuesday.
    Finally, let me say, Mr. Chairman, that I appreciate what I 
believe is going on in the administration. I believe that the 
administration understands that some of the talk we are hearing 
is not the kind of talk that a great power can respond to.
    We have got to be both strong and delicate. If you have any 
doubt about that, look at what is happening in Pakistan. 
Pakistan wants to do the right thing, and its leaders have had 
the guts to stand up and say they want to do the right thing 
and to go around the country and try to indicate to their own 
people that they want to do the right thing. Yet, at the same 
time, there is the same kind of internal politics in Pakistan 
that we have here. We saw that when we refused to turn the Shah 
over and, as a result, we had hostages taken.
    People have got to deal with the domestic politics and with 
their external politics. We have got to help them deal with 
both. They have internal divisions.
    There are, of course, in Pakistan some of the very same 
people out of the very same schools that we had in Afghanistan. 
So I want to commend the administration for what I believe is a 
far more careful way of approaching this than some of the 
bombast that I heard sometimes on the House floor last week and 
that we are hearing from the American people. I believe that 
the President's talk this evening offers an important occasion 
to educate us about all of the factors that have to be taken 
into account as we do what we have to do, and we know what we 
have to do.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ms. Norton.
    Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman.
    As a member of a slightly different generation that has not 
been exposed to many of the great wars of the last century, I 
attempt to bring a little bit of a different perspective to 
this debate; and I approach this debate about war with great 
humility and respect, not having been exposed to the horrors of 
war that many of those who served in Congress have. Unlike many 
of our colleagues, not having been exposed to Pearl Harbor, not 
having been a part of that greatest generation, that World War 
II generation, not living through the tumult of the United 
States during the Vietnam era, there are many in my generation 
whose only exposure to the horrors of war was seemingly through 
the eyes of CNN in a very brief and fortunately relatively low 
casualty war in the Persian Gulf.
    As we have debated in the Shays subcommittee over the 
course of this year on terrorism, we have delved very deeply 
into the causes and the impacts and the consequences and our 
ability to be prepared and our ability to respond. And that is 
no longer an esoteric discussion buried in the subcommittee. It 
is now on the front page and in the front of the minds of all 
Americans and the world.
    So while it is with great trepidation and humility that we 
approach this debate about the war, it is an appropriate debate 
to have. Because we are now committed. The Nation is resolved 
to respond to this network of terror that is around the world 
and in our own country.
    As we approach this debate and we have these very important 
discussions about the balance of the American way of life, of 
the civil liberties, the freedoms that all of us enjoy and to 
what extent we are willing to sacrifice some of those for 
security, the debate is about our preparedness, the debate is 
about the proper use of force, the debate is about unilateral 
versus multilateral responses.
    We approach those in a very new way. There is no historical 
precedent for a war of this magnitude with an enemy that has no 
assets and nothing to lose in the traditional sense. We have to 
go back to the Indian wars of the American West for a similar 
comparison of American troops fighting rock by rock, cave by 
cave, canyon by canyon after this type of a network of an 
enemy.
    I would encourage this committee and this Congress to take 
into consideration and not squander the political and the 
popular will that is out there for us to make the necessary 
sacrifice and make the necessary commitment now and henceforth 
to eradicate these networks to the greatest extent possible. 
This is not the time to be timid. This is not the time to ask 
others permission for us to respond to what was an attack on 
American soil to American civilians. It is our mandate to 
respond to that attack in the best sense and in the best way 
for the United States of America.
    I look forward to the debate in this country and in 
particular some expertise from our good friend, the former 
Prime Minister of Israel.
    Mr. Chairman, I appreciate you calling this hearing.
    I particularly appreciate Chairman Shays of the 
subcommittee for the work, the groundbreaking work that he has 
done in Congress on the terrorist threat.
    Mr. Burton. Thank the gentleman.
    Mrs. Mink.
    Mrs. Mink. I thank you, Mr. Chairman, for calling this 
hearing and giving us a specific opportunity to sit and weigh 
in the very serious consequences with regard to what happened 
on September 11th. There is no doubt that we are faced with a 
national crisis. There is no doubt that we have to take extreme 
actions. But there is also a considerable amount of knowledge 
and information that we need to sort out and ferret out and 
come to a better understanding of why it was that our 
intelligence agencies in this country were not able to learn in 
advance these terrible things that happened to us on September 
11th.
    There is a tremendous amount of confusion and certainly a 
tremendous amount of uncertainty in the body politic. Pick up 
the morning paper and see that Waikiki Beach has nary a soul 
where it would be wall to wall people on any day during any 
year of the past decade. Suddenly, people are so overwhelmed by 
grief, by a lack of knowledge and information, about how these 
things could have occurred to so many thousands of our people; 
and I think that the tragedy has overwhelmed a very, very large 
percentage of our people.
    It is not that we are immobilized. It is not that we are 
uncertain about what we ought to do. We know what we have to 
do. But the first thing I think that this committee can 
elaborate on and help this Nation to come to an understanding 
is to engage us in a debate and discussion as to how this 
happened, what our intelligence consists of, exactly what these 
terrorist units are within this country, where they are 
located, who they are led by and also the worldwide network.
    My own situation in Hawaii, we lost eight people, some of 
whom are still missing and unreported from the World Trade 
Center. Others--I actually have no words to express the depth 
of my sympathy and condolences to those families because they 
were on flight 93 that crashed in Pennsylvania. To know of the 
heroism that must have been demonstrated on that aircraft, the 
decisions that were made undoubtedly to try to take command of 
that airplane which ultimately led to its crash--I am convinced 
that airplane was headed to the Washington, DC, area; and our 
lives were spared as a consequence of the heroism expressed and 
demonstrated by these passengers.
    So every time I think of September 11th and I think of the 
World Trade Center, I end up focusing on the sacrifice that 
these individuals made on flight 93, the end result being that 
they lost their lives and others were saved.
    And I think in debating what we must do in this kind of 
circumstance, we know it must take action, but we always have 
to think of the presence of necessary facts. Are we being told 
enough? Are we acting based upon the best knowledge that our 
government can provide us? And are we making every possible 
assurance that the basic liberties of our people are not being 
unduly hampered?
    All of us have got to endure enormous inconveniences. That 
is not what I am talking about. Inconveniences are temporary. 
What we have to safeguard are the basic personal liberties that 
have been so much a part of our Nation.
    So the burdens upon Congress, Mr. Chairman, are enormous. 
We have to understand the threat, need to understand what we 
must do and in the process save the fabric of our Nation to 
make sure that our liberties are preserved.
    I thank the chairman.
    Mr. Burton. Thank the gentlelady.
    The vice chairman of the committee, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Even in times such as these, the silliness of some of the 
media is unbelievable--and the silliness of some in academia. 
There is an article here dated September 15th by Jessica Stern 
that seems to indicate that what happened last week, 
particularly if it turns out Osama bin Laden is behind this or 
people like him, that somehow it is our fault because we didn't 
pay enough attention to the humanitarian and refugee needs in 
Afghanistan, that somehow we are responsible for this. And I 
suppose, you know, we will always have to put up with silly 
notions like that.
    Thank goodness here in this committee, Mr. Chairman, we 
have your leadership, not people like Ms. Jessica Stern. You 
understand the nature of the problem. You understand the 
complexities of it. You understand what needs to be done, as 
does subcommittee chairman Chris Shays.
    As Members of both sides of the aisle today have indicated 
and in the past week other Members have indicated, we certainly 
understand that there were intelligence failures with which we 
must contend with and resolve, but there have been no failures 
of leadership in this committee or in Mr. Shays' subcommittee.
    You have held a number of hearings focusing on key elements 
of the war against terrorism and the terrorist problem out 
there. Even though one could say, well, it is better late than 
never, certainly it is good that people are starting to focus 
on what you, Mr. Chairman, and Mr. Shays have been telling 
Americans and the rest of us in Congress for so many months.
    You also understand, Mr. Chairman, the differences between 
the conduct of foreign affairs and the conduct of our domestic 
affairs and the problems presented to us. The situation 
presented to us by the acts of war committed against us last 
week present that very clear dichotomy.
    As the gentlelady from Hawaii just indicated and others 
have also, how we deal with this problem domestically and 
internationally is very, very different. Internationally, we 
want our President to have maximum flexibility, maximum 
authority so that he does not have to worry about reading 
Miranda rights, he can read them their last rites. He can take 
care of this problem the way it needs to be taken care of 
without worrying about all of the panoply of civil liberties 
that are very important to us and which necessarily come into 
play in determining how we address this problem at home 
domestically.
    The Attorney General has put forward a number of proposals 
that we are starting to digest. There are some concerns. There 
are some concerns because we have a very carefully crafted Bill 
of Rights that we must contend with here in this country 
domestically when we address problems of terrorism or other 
heinous crimes. We have statutes and case law that have been 
very carefully crafted over 200 years that we cannot, no matter 
what foreign crisis we face, throw out the window and treat 
cavalierly.
    So I and others and I know you, Mr. Chairman, will be 
taking a very careful look at these proposals to grant the 
Federal Government what necessary powers it might need, what 
necessary changes there might need to be to domestic laws, very 
narrowly focused, very narrowly crafted and going no further 
than our Bill of Rights allows and no further than is 
absolutely essential to fill gaps in whatever legal armor there 
might be with which we can fight and defend ourselves against 
terrorism, but being very mindful of the fact that we do not 
want to engage in a wholesale unraveling of the fabric of our 
Bill of Rights. That would accomplish in a different way but 
the net result would be the same as the goal of the 
perpetrators of these terrorist acts against us.
    So I appreciate, Mr. Chairman, your balanced approach to 
this. I appreciate your previous work and the work of Mr. Shays 
in focusing attention on this and now moving us to the next 
phase. And I would ask unanimous consent to include a more 
expansive statement in the record.
    Mr. Burton. Thank you very much, Mr. Barr.
    [The prepared statement of Hon. Bob Barr follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.018
    
    [GRAPHIC] [TIFF OMITTED] T7229.019
    
    [GRAPHIC] [TIFF OMITTED] T7229.020
    
    [GRAPHIC] [TIFF OMITTED] T7229.021
    
    Mr. Burton. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman; and I join 
with other members of this committee in expressing to you our 
appreciation for the fact that you have had the insight to hold 
this hearing and to help us try and sift through, look at, and 
better understand what led to these terrorist attacks and also 
make some assessment and evaluation of where we are today and 
where do we go from here as a Nation.
    Since the attack, I have held several town hall meetings, 
and I have observed very carefully what people were saying. One 
of the things that they were saying is that, while we all 
express our grief and our anger and our feelings of despair, 
one of the things that we have to do is be cognizant of the 
fact that what we are looking for is something more than 
revenge, that we are not simply seeking to go and find the 
culprits, although they must be found and everything in our 
power must be done to make sure that we find them and that they 
are brought to justice.
    But, in addition to that, as we try and figure out how do 
we prevent these occurrences from taking place, we need to look 
seriously at our Central Intelligence Agency and all of the 
intelligence apparatuses that we have and figure if there are 
ways to make them more effective than what they currently are.
    And I agree with my colleague from Georgia that while we 
are doing that we must make sure that we carefully guard the 
civil liberties and civil protections that our country has 
become famous and known for. That is that each and every person 
must be protected in a real kind of way.
    I have never thought of myself as being any kind of expert 
on security, but it appears to me that if we were able to make 
sure in terms of transportation that those who were in control 
of vehicles were absolutely safe and could not be approached, 
that there were entry-free, entry-proof doors or access to the 
cockpits of airplanes or to other vehicles where whoever is in 
charge of directing the path could not be molested in any kind 
of way--then if we could find detection methodology that would 
detect even the ingredients that are used for the formulation 
of explosive devices. That is, if we could detect bombmaking 
material through the equipment, then we could have a certain 
level of assurance that individuals, once they had gained 
access to vehicles, were not able to assemble something that 
did not exist as they were going up or as they were entering.
    More importantly than any of that or just as importantly as 
any of that, I think we need to chart a course of diplomacy 
that at all times is focused on movement toward peace. And I 
think that comes as a result of the way in which we interact 
with others, the way in which we interact with ourselves, the 
kind of policies and programs that we develop for 
implementation.
    Whenever I think of peace I am always reminded of something 
that John Kennedy was supposed to have said at one time, and 
that is that peace is not found in treaties, covenants and 
charters but in the hearts of men. And I would imagine that if 
he was alive today he would say ``men and women.'' And we have 
to, I think, continue to move in that direction.
    We have to teach tolerance, we have to teach unity, and we 
have to teach equal justice and equal opportunity across the 
globe.
    So, Mr. Chairman, I thank you again for the opportunity for 
these hearings and trust that we will find, if not solutions, 
certainly directions that will make not only America but the 
world in which we live a safer place to be. I thank you and 
yield back the balance of my time.
    Mr. Burton. Thank the gentleman very much.
    We will take a 5-minute break. I would like for everybody 
to be back promptly at 1. At that time Mr. Netanyahu will join 
us, and we will get started with his part of the hearing.
    [Recess.]
    Mr. Burton. The committee will reconvene. We have three 
statements to conclude the opening statements, and then we'll 
go directly to Prime Minister Netanyahu.
    For years we watched the turmoil in Israel from a safe 
distance. We watched suicide bombers, snipers and car bombs. We 
saw the terror, but we didn't really feel it. It was all 
happening on the other side of the world. Even when Americans 
were targeted, most of the time it was a long way from home. 
Twelve Americans were killed when our Embassies in Africa were 
bombed. Seventeen sailors were killed on the USS Cole in Yemen. 
And those were terrible losses, but they were far from home.
    Now that's over. Today we know that no place is safe. 
Terrorists can reach us anyplace. We're now faced with the 
greatest challenge to our safety and security since the end of 
the cold war. If we're going to be successful, it's going to 
take the same kind of commitment we had then. At least during 
the cold war we knew exactly who the enemy was and where to 
find them. Our enemies today are almost invisible. They could 
be walking among us at any time. In many ways the fight against 
terrorism will be much more difficult than the fight against 
communism.
    When Ronald Reagan stood in West Berlin and said, ``Mr. 
Gorbachev, tear down this wall,'' we were on the verge of 
winning the cold war, but it didn't happen overnight. It was 
the culmination of a fight that lasted for decades. We invested 
hundreds of billions of dollars in a strong deterrent. We lost 
many lives, but we prevailed. If we're going to defeat 
terrorists like Osama bin Laden, it's going to take the same 
kind of commitment.
    One of the things that concerns me is this, and that's why 
I asked the Prime Minister to be with us today. I'm afraid the 
American people don't realize how long it might take. They 
might be thinking about a quick fix. I think people are hoping 
that we can fire a bunch of missiles into Afghanistan, kill 
Osama bin Laden, and it will be over with. We tried that 
before, and it didn't work. After our Embassies were bombed in 
1998, we fired dozens of cruise missiles into Afghanistan. 
Osama bin Laden is still there hiding in the mountains.
    Terrorists are not easy targets. They strike, and then they 
disappear into the woodwork. And even if we can get to bin 
Laden, that's not going to be the end of it. The State 
Department lists 28 major foreign terrorist organizations 
around the world. If we're going to defeat the terrorist 
threat, it's going to take years. We need to have the political 
will to strike hard even when it's not popular. We may not be 
able to do it from a distance with missiles. We have to cutoff 
their financial support. We have to punish countries that give 
them safe haven. We have to have much better intelligence than 
we've had in the past. Our intelligence agencies and law 
enforcement agencies must do a better job working together. 
Most of all, we cannot become complacent. The terrorists won't, 
and they haven't, and we can't either.
    This is going to be a fight that's not going to take 
months. It's probably going to take years. The price of freedom 
is still eternal vigilance. That's more than ever true today.
    We're relative newcomers to this fight. We have a lot to 
learn about how to fight modern terrorists. While other 
countries have lived with terrorists and terrible tragedy, we 
watch from a distance.
    No other country has been confronted by the evils of 
terrorism like the State of Israel. Today we're very fortunate 
to have with us someone who has been leading the fight against 
terrorism most of his life. Former Prime Minister Benjamin 
Netanyahu was elected Israel's ninth Prime Minister in 1996. 
Earlier in his career, he served in the Knesset. He was Deputy 
Foreign Minister, and he was Israel's Ambassador to the U.N. He 
served his country as an officer in the elite antiterror unit 
in the Israeli Defense Forces, and his brother was tragically 
killed during the raid on Entebbe.
    Mr. Netanyahu is a world-renowned expert on terrorism. He's 
written several books on the subject, and we're very happy, Mr. 
Netanyahu, to have you here with us today.
    We're also going to have a distinguished panel of experts 
assembled on our second panel, General Anthony Zinni, retired 
from the U.S. Marine Corps last fall after 39 years of service. 
His last assignment was as Commander in Chief of the U.S. 
Central Command. His command included 25 countries making up 
the Middle East and north Africa, including Afghanistan and 
Pakistan. Until his retirement, General Zinni was the 
Pentagon's top authority in that region.
    Jessica Stern is a professor of public policy at Harvard 
University. She worked on the National Security Council in the 
White House. She's the author of a book entitled, The Ultimate 
Terrorist.
    Christopher Harmon is a professor of international 
relations at the Marine Corps University. His most recent book 
is entitled, Terrorism Today.
    And finally, Dr. Bruce Hoffman is the vice president at the 
Rand Corp. He studied terrorism around the world for many 
years, and his latest book is entitled, Inside Terrorism. I 
want to thank them all for being here today.
    We're going to have many, many questions. We don't have 
many answers. I hope that during the course of our hearing 
today we can air some of these issues, and these are things 
that I think are extremely important to be answered. Mr. 
Netanyahu can help us with this.
    Are there more terrorists among us waiting to strike again? 
How do we dismantle the infrastructure of the terrorist 
organization? Do terrorist organizations have access to 
chemical and biological weapons? And do they have access to 
small nuclear devices, like those which have been missing from 
some of the arsenals in other parts of the world?
    Before I finish, I want to make one final comment, and that 
is I want to thank Mr. Shays for the hard work he's been doing 
on this issue. Many of us are focusing seriously on this issue 
for the first time. Mr. Shays has been laboring in the trenches 
in his subcommittee for years. He's held, I think, at least, 
what, 17 hearings on terrorism, Chris? Seventeen hearings on 
terrorism and counterterrorism strategy, domestic preparedness 
and medical stockpiles, all of the critical issues that we 
face. Hopefully this hearing will build on that record that 
he's established, and I look forward to working with Mr. Shays 
on this issue in the future.
    And with that, that concludes my statement.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.022
    
    [GRAPHIC] [TIFF OMITTED] T7229.023
    
    [GRAPHIC] [TIFF OMITTED] T7229.024
    
    [GRAPHIC] [TIFF OMITTED] T7229.025
    
    Mr. Burton. Mr. Waxman, do you want to make yours?
    Mr. Waxman. Thank you very much.
    Mr. Chairman, I want to commend you on your statement, and 
thank you for holding this hearing. When any of us think about 
the horror, the tragedy of last week, no words can adequately 
express how sickened we all are.
    Congress is trying to do what we can to respond. We've 
appropriated $40 billion in emergency relief, and we have given 
the President authority to find and punish those who are 
responsible for this atrocity, and the President will be 
addressing a joint session of the Congress of the United States 
tonight, and I'm looking forward to hearing what he has to say 
and to working with him to address the threat from terrorism.
    Terrorism is an incredibly difficult issue to confront. 
It's multifaceted. The perpetrators are often anonymous. Their 
victims are defenseless men, women and children in an open 
society like ours. There are a seemingly endless number of 
targets and types of threats, and fighting terrorism is nothing 
like fighting a conventional war.
    No country knows about fighting terrorism as well as 
Israel. In the last 5 years alone, Israel has faced over 100 
terrorist attacks that resulted in fatalities, and for this 
reason, I'm very pleased that you've invited former Prime 
Minister Netanyahu to testify today, and I'm very pleased that 
he has agreed to be here.
    I've known Prime Minister Netanyahu for a number of years. 
I have a very high regard for him. He is a genuine expert on 
confronting terrorism. I'm looking forward to what he has to 
say. He can tell us what he has dealt with on a practical basis 
as the Prime Minister of a country which is every day faced 
with terrorist threats, but he also has written a number of 
books on the subject of terrorism. He has spoken out about a 
network of terror that includes not just Osama bin Laden, but 
it also involves Hezbollah, Hamas, Islamic Jihad, as the 
chairman pointed out, maybe 28 other groups in this network, 
and they're sponsored by countries such as Iraq and Iran and 
Afghanistan and other Middle East regimes. They operate 
worldwide, and a lot of their funding comes from within--the 
U.S. operations.
    I'm also looking forward to hearing from the experts on our 
second panel. In assembling the hearing today, the chairman has 
chosen people who have expertise in some of these areas, and, 
after consulting with us, invited them to come and make their 
presentations to us. All of these witnesses ought to be given 
respect, even if a Member might disagree with a part of what 
they have to say or all of what they have to say. No witness 
ought to be attacked before the witness even has a chance to 
make a presentation by any Member of Congress. I think that is 
completely out of line.
    We're going to look at how our intelligence agencies handle 
issues of terrorism in this hearing today. Many experts think 
there is insufficient oversight of these agencies. Some are 
recommending that we appoint a terrorism czar to oversee all of 
the decisions across agency lines. Other experts are critical 
of our lack of a national strategy for addressing terrorism. 
The U.S. Commission on National Security, which is a bipartisan 
group headed by former Senators Warren Rudman and Gary Hart, 
earlier this year reached the conclusion, ``Most critically, no 
overarching strategic framework guides U.S. national security 
policymaking or resource allocation.''
    Experts sponsored by RAND and headed by Governor James 
Gilmore reached a similar finding last December, stating, ``The 
United States has no coherent, functional national strategy for 
combating terrorism.'' Other experts were absolutely appalled 
that our intelligence agencies last week seemed not to have any 
warning of the attacks that we suffered. Senator Richard 
Shelby, who chaired the Senate Intelligence Committee, for 
example, said that we experienced a, ``massive intelligence 
failure.''
    Well, now is not the time just to bemoan the past. It's 
also time to look forward to the future. In a time of crisis, 
Congress has learned from our experiences and moved forward, 
but we're also going to be asked to deal quickly with many 
issues, and we need to respond to these issues, but we also 
need to make sure that we are not stampeded in decisions 
without careful, thoughtful analysis. And this role of giving 
an opportunity for airing issues and different points of view 
is an area where our committee can play a unique role as the 
main oversight committee in the Congress.
    For example, Congress is considering providing immediate 
relief to the airline industry. I'm sympathetic to the 
airlines' plight, and I'm prepared to support providing 
assistance to this important part of our economy, but we should 
be sure that what we're doing is appropriate and effective. 
News accounts say that the airline industry may be facing 
losses of up to $7 billion this year, $2 billion of which 
occurred before last week's attack. But last Friday on the 
floor of the House, a relief package of $15 billion, far above 
the amount of the reported losses, was presented.
    As the committee with primary jurisdiction over the GAO, we 
should ask the Comptroller General of the United States, David 
Walker, to analyze the airline industry and provide us with 
independent advice about what is the appropriate Federal 
response. We can also make an important contribution if we 
carefully evaluate the merits of other proposals, such as those 
to stimulate our economy. Some are suggesting doing it by tax 
cuts. Some are suggesting other means.
    I'm pleased that Chairman Greenspan has urged that we go 
slow in this effort. I think we need sometimes to go slow, 
sometimes to move quickly, but at all times to do whatever 
we're going to do with the most careful and thoughtful 
analysis. Now is the time for considered bipartisan 
decisionmaking and national unity. We need to come together on 
a bipartisan basis to confront the new challenges and the 
world--the new world we now face at home and abroad.
    Thank you again, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Waxman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.026
    
    [GRAPHIC] [TIFF OMITTED] T7229.027
    
    Mr. Burton. And finally, Mr. Shays, once again, thanks for 
all the hard work you've put forth on this issue. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, I'd like to first thank Adam Putnam, the vice 
chairman of our subcommittee, and Mr. Kucinich, the ranking 
member, and the members on our subcommittee, and then in 
particular to thank you for your extraordinary support to our 
committee, and to your vice chairman, Mr. Barr, and to Mr. 
Waxman for his support as well.
    The cold war is over, and the world is a more dangerous 
place. On September 11th, we were forced to view the 
unimaginable, to ponder the unthinkable and to face what some 
among us deem the inevitable, a mass casualty terrorist attack 
on American soil. This episodic, seemingly far-off threat of 
international terrorism shattered monuments to our economic and 
military strength, taking thousands of precious lives and 
burying forever any illusion that barbaric scourge could not 
strike here.
    The nature and scope of the terrorist threat have changed. 
In the post-cold war world, the rise of radical nationalists, 
apocalyptic sects and religious extremists merged with the 
increasing availability of the technologies of terror: toxic 
chemicals, biological agents, nuclear material and computer 
viruses. Loosely organized but firmly guided by fanatic 
ideology, terrorism today eschews predictable political goals 
in favor of random, increasingly deadly acts of violence 
against vulnerable civilians.
    In this new war, our first task is to define the enemy, to 
pierce the distortions and shadowy obscurity that camouflage 
terrorism. As the President has indicated, our foe is not just 
Osama bin Laden or any terrorist organization, but includes the 
states that sponsor terrorists and tolerate the inhumane 
ideology that animates them.
    We can no longer indulge the tidy, familiar mechanics of 
solving the crime and punishing individuals when the crime 
offends humanity and the individuals are actually eager to be 
martyred. That approach has been compared to battling malaria 
by swatting at mosquitoes. To stop the disease of modern 
terrorism, the swamp of explicit and tacit state sponsorship 
must be drained and disinfected. The threat must be confronted 
with the same focus, intensity and vigilance with which the 
terrorists pursue their malignant cause.
    In the course of our subcommittee hearings on terrorism and 
domestic preparedness issues, we heard the General Accounting 
Office and other experts call for more frequent, more dynamic 
and more broadly based national threat and risk assessments 
upon which to base counterterrorism policy. A naive or blurred 
perception of the threat fragments our defenses and leaves us 
vulnerable to the deadly plans we must now assume are being 
implemented as we speak. Our national security demands a clear-
eyed view of the threat, a strategic vision to address the 
threat and a restructured, reformed Federal Government effort 
to combat terrorism in all forms.
    Our witnesses this afternoon understand the motives and 
dimensions of the terrorist threat that plagues the world and 
changed our Nation that Tuesday morning in September. So we 
join with the President in forging an effective Federal effort 
to combat terrorism and be prepared to respond to terrorist 
acts.
    All those testifying today bring impressive experience and 
credentials to our discussion, but none more than former 
Israeli Prime Minister Benjamin Netanyahu. We are grateful for 
his time and patience, and we value his unique perspective. And 
we thank all our witnesses for their participation as well.
    Mr. Burton. Thank you again, Chris, for all the work you've 
done on this.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.028
    
    [GRAPHIC] [TIFF OMITTED] T7229.029
    
    Mr. Burton. Mr. Netanyahu, first of all, I want to publicly 
apologize for calling you in the middle of the night and waking 
you up when you were asleep and asking you to come over here. I 
forgot about the time difference, and I think I woke him up at 
3 a.m., but he was very kind, and he realized the gravity of 
the situation, and he consented to come over. And I also want 
to apologize for the mix-up at the airport today, but thank 
goodness you're here, and we're all very anxious to hear your 
testimony. So, Mr. Netanyahu, proceed.

   STATEMENT OF BENJAMIN NETANYAHU, FORMER PRIME MINISTER OF 
                             ISRAEL

    Mr. Netanyahu. Well, thank you.
    Chairman Burton, distinguished Representatives, I want to 
thank you for inviting me to appear here today. I feel a 
profound responsibility addressing you in this hour of peril in 
the capital of liberty. What is at stake today is nothing less 
than the survival of our civilization. Now, it might have been 
some who would have thought a week ago that to talk in these 
apocalyptic terms about the battle against international 
terrorism was to engage in reckless exaggeration or wild 
hyperbole. That is no longer the case. I think each one of us 
today understands that we are all targets, that our cities are 
vulnerable and that our values are hated with an unmatched 
fanaticism that seeks to destroy our societies and our way of 
life.
    I am certain that I speak today on behalf of my entire 
nation when I say, today we are all Americans, in grief and in 
defiance. In grief, because my people have faced the agonizing 
horrors of terror for many decades, and we feel an instant 
kinship, an instant sympathy with both the victims of this 
tragedy and the great Nation that mourns its fallen brothers 
and sisters. In defiance, because just as my country continues 
to fight terrorism in our battle for survival, I know that 
America will not cower before this challenge.
    I have absolute confidence that if we, the citizens of the 
free world, led by President Bush, marshal the enormous 
reserves of power at our disposal, if we harness the steely 
resolve of free peoples, and if we mobilize our collective 
will, we'll succeed at eradicating this evil from the face of 
the Earth.
    But to achieve this goal, we must first answer several 
questions. First, who is responsible for this terrorist 
onslaught? Second, why? What is the motivation behind these 
attacks? And, third and most importantly, what must be done to 
defeat these evil forces?
    The first and most crucial thing to understand is this: 
There is no international terrorism without the support of 
sovereign states. International terrorism simply cannot be 
sustained for any length of time without the regimes that aid 
and abet it, because, as you well know, terrorists are not 
suspended in midair. They train, arm, indoctrinate their 
killers from within safe havens in the territory or territories 
provided by terrorist states. Often these regimes provide the 
terrorists with money, with operational assistance, with 
intelligence, dispatching them to serve as deadly proxies to 
wage a hidden war against more powerful enemies, which are very 
often, by the way, democracies, and these regimes mount a 
worldwide propaganda campaign to legitimize terror, besmirching 
its victims, exculpating its practitioners, as we witnessed in 
this farcical spectacle in Durban the other week.
    I think that to see Iran, Libya and Syria call the United 
States and Israel racist countries that abuse human rights, I 
think even Orwell could not have imagined such a grotesque 
world.
    Take away all the state support, and the entire scaffolding 
of international terrorism will collapse into the dust. The 
international terrorist network is thus based on regimes, in 
Iraq, in Iran, in Syria, in Taliban Afghanistan, Yasser 
Arafat's Palestinian Authority, and several other Arab regimes 
such as the Sudan. These regimes are the ones that harbor the 
terrorist groups; Osama bin Laden in Afghanistan, Hezbollah and 
others in Syria-controlled Lebanon, Hamas, Islamic Jihad and 
the recently mobilized Fatah and Tanzim factions in the 
Palestinian territories, and sundry other terror organizations 
based in such capitals as Damascus, Baghdad and Khartoum.
    These terrorist states and terror organizations together 
constitute a terror network whose constituent parts support 
each other operationally as well as politically. For example, 
the Palestinian groups cooperate closely with Hezbollah, which 
in turn links them to Iran and Syria, and to bin Laden. These 
offshoots of terror also have affiliates in other sates that 
have not yet uprooted their presence, such as Egypt, Yemen, 
Saudi Arabia.
    Now, the question is, how did this come about? How did this 
terror network come into being? The growth of this terror 
network is the result of several crucial developments in the 
last two decades. Chief among them is the Khomeini revolution, 
which established a clerical Islamic state in Iran. This 
created a sovereign spiritual base for fomenting a strident 
Islamic militancy, a militancy that was often backed by terror.
    Equally important was the victory in the Afghan war of the 
international mujaheedin brotherhood. I suppose that the only 
way I can compare it is to say that the international 
mujaheedin is to Islam what the International Brigade was for 
international communism in the Spanish Civil War. It created an 
international band of zealots. In this case, the ranks include 
Osama bin Laden, who saw their victory over the Soviet Union as 
providential proof of the innate superiority of faithful 
Muslims over the weak infidel powers. They believed that even 
the superior weapons of a superpower could not withstand their 
superior will.
    To this should be added Saddam Hussein's escape from 
destruction at the end of the Gulf war, his dismissal of U.N. 
monitors, and his growing confidence that he can soon develop 
unconventional weapons to match those of the West.
    And finally, the creation of Yasser Arafat's terror enclave 
centered in Gaza gave a safe haven to militant Islamic 
terrorist groups, such as Islamic Jihad and Hamas. Like their 
mujaheedin cousins, they and their colleagues drew inspiration 
from Israel's hasty withdrawal from Lebanon, glorified as a 
great Moslem victory by the Syrian-backed Hezbollah.
    Now, under Arafat's rule, the Palestinian Islamic terrorist 
groups made repeated use of the technique of suicide bombing, 
going so far, by the way, as to organize summer camps, for 
Palestinian children, beginning in kindergarten, to teach them 
how to become suicide martyrs.
    Here is what Arafat's government-controlled newspaper--he 
controls every word that appears there. Here is what his 
newspaper, his mouthpiece, Al Hayat Al Jadida, said on 
September 11th, the very day of the suicide bombing in the Twin 
Towers and the Pentagon, ``The suicide bombers of today are the 
noble successors of the Lebanese suicide bombers, who taught 
the U.S. Marines a tough lesson in Lebanon. These suicide 
bombers are the salt of the Earth, the engines of history. They 
are the most honorable people among us.''
    Suicide bombers, so says Arafat's mouthpiece, are the salt 
of the Earth, the engines of history, the most honorable people 
among us.
    Distinguished Representatives, a simple rule prevails here. 
The success of terrorists in one part of the terror network 
emboldens terrorists throughout the network.
    This, then, is the who. Now, then, for the why. Though its 
separate constituent parts may have local objectives and take 
part in local conflicts, the main motivation driving the terror 
network is an anti-Western militancy that seeks to achieve 
nothing less than the reversal of history. It seeks to roll 
back the West and install an extreme form of Islam as the 
dominant power in the world, and it seeks to do this not by 
means of its own advancement and progress, but by destroying 
the enemy. This hatred is the product of a seething resentment 
that has simmered for centuries in a certain part of the Arab 
and Islamic world.
    Now, mind you, most Moslems in the world, including the 
vast majority of Moslems in the growing Moslem communities in 
the West, are not guided by this interpretation of history, nor 
are they moved by its call for a holy war against the West. But 
some are, and though their numbers are small compared to the 
peaceable majority, they nonetheless constitute a growing 
hinterland for this militancy.
    Militant Islamists resented the West for pushing back the 
triumphant march of Islam into the heart of Europe many 
centuries ago. Its adherents, believing in the innate 
superiority of Islam, then suffered a series of shocks when in 
the last two centuries, beginning with Napoleon's invasion in 
Egypt, by the way, that same hated, supposedly inferior West 
came back and penetrated Islamic realms in north Africa, the 
Middle East and the Persian Gulf. For them, the mission was 
clear and defined. The West had to be first pushed out of these 
areas. So pro-Western Middle Eastern regimes in Egypt and Iraq, 
these monarchies in Libya, were toppled in rapid succession, 
including in Iran. And indeed Israel, the Middle East's only 
democracy and its purest manifestation of Western progress and 
freedom, must be wiped off the face of the Earth.
    Thus, the soldiers of militant Islam do not hate the West 
because of Israel. They hate Israel because of the West, 
because they see it as an island, an alien island of Western 
democratic values in a Moslem-Arab sea; a sea of despotism, of 
course. That is why they call Israel the Little Satan, to 
distinguish it clearly from the country that has always been 
and will always be the Great Satan, the United States of 
America.
    I know that this is not part of normal discourse on TV, 
where people think that Israel is guiding Osama bin Laden. 
Well, nothing better illustrates the true order of priorities 
of the militant Islamic terror than Osama bin Laden's call for 
Jihad against the United States in 1998. He gave as his primary 
reason for this Jihad not Israel, not the Palestinians, not the 
peace process, but, rather, the very presence of the United 
States, ``occupying the land of Islam in the holiest of 
places.'' What do you think that is? Jerusalem? Temple Mount? 
No. ``The Arabian Peninsula,'' says bin Laden, where America 
is, ``plundering its riches, dictating to its rulers and 
humiliating its people.'' Israel, by the way, comes a distant 
third, after the, ``continuing aggression against the Iraqi 
people.''
    So for the bin Ladens of the world, Israel is merely a 
sideshow. America is the target. But reestablishing a resurgent 
Islam requires not just rolling back the West, it requires 
destroying its main engine, the United States. And if the 
United States cannot be destroyed just now, it can be first 
humiliated, as in the Tehran hostage crisis 20 years ago, and 
then ferociously attacked again and again until it is brought 
to its knees. But the ultimate goal remains the same: Destroy 
America, win eternity.
    Now, some of you may find it hard to believe that Islamic 
militants truly cling to this mad fantasy of destroying 
America. Make no mistake about it. They do. And unless they are 
stopped now, their attacks will continue and become even more 
lethal in the future.
    The only way I can explain the true dangers of Islamic 
militancy is to compare it to another ideology bent on world 
domination: communism. Both movements pursued irrational goals, 
but the Communists at least pursued theirs in a rational way. 
Any time they had to choose between ideology and their own 
survival, as in Cuba or in Berlin, they always backed off and 
chose survival.
    Not so for the Islamic militants. They pursue an irrational 
ideology irrationally with no apparent regard for human life, 
neither their own lives nor the lives of their enemies. The 
Communists seldom, if ever, produced suicide bombers, while 
Islamic militancy produces hordes of them, glorifying them, 
promising them for their dastardly deeds a reward in a glorious 
afterlife.
    This highly pathological aspect--I can use no other words--
this highly pathological aspect of Islamic militancy is what 
makes it so deadly for mankind. But in 1996, I wrote in my book 
about fighting terrorism, I warned about the militant Islamic 
groups operating in the West with the support of foreign 
powers, serving as a new breed of what I called domestic 
international terrorists; that is, basing themselves in America 
to wage Jihad against America. Such groups, I wrote then, 
nullify in large measure the need to have air power or 
intercontinental missiles as delivery systems for an Islamic 
nuclear payload. They, the terrorists, will be the delivery 
system. In the worst of such scenarios, I wrote, the 
consequences could be not a car bomb, but a nuclear bomb in the 
basement of the World Trade Center.
    Well, ladies and gentlemen, they didn't use a nuclear bomb. 
They used two 150-ton, fully loaded jetliners to wipe out the 
Twin Towers. But does anyone doubt that given the chance, they 
will throw atom bombs at America and its allies; and perhaps 
long before that, they'd employ chemical and biological 
weapons?
    This is the greatest danger facing our common future. Some 
states of the terror network already possess chemical and 
biological capabilities, and some are feverishly developing 
nuclear weapons. Can one rule out the possibility that they 
will be tempted to use such weapons openly or secretly through 
their terror proxies, seemingly with impunity, or that their 
weapons might fall into the hands of the terrorist groups they 
harbor?
    We have received a wake-up call from hell. Now the question 
is simple: Do we rally to defeat this evil while there is still 
time, or do we press a collective snooze button and go back to 
business as usual? The time for action is now. Today the 
terrorists have the will to destroy us, but they do not have 
the power. There is no doubt that we have the power to crush 
them. Now we must also show that we have the will to do so, 
because once any part of the terror network acquires nuclear 
weapons, this equation will fundamentally and irrevocably 
change, and with it the course of human affairs. This is the 
historical imperative that now confronts us all.
    And now to my third point. What do we do about it? First, 
as President Bush said, we must make no distinction between the 
terrorists and the states that support them. It is not enough 
to root out the terrorists who committed this horrific act of 
war. We must dismantle the entire terrorist network. If any 
part of it remains intact, it will rebuild itself, and the 
specter of terrorism will reemerge and strike again. Bin Laden, 
for example, has shuttled over the last decades from Saudi 
Arabia to Afghanistan to the Sudan and back again. So we cannot 
leave any base of this terror network intact.
    To achieve this goal we must first have moral clarity. We 
must fight terror wherever and whenever it appears. We must 
make all states play by the same rules. We must declare 
terrorism a crime against humanity, and we must consider the 
terrorists enemies of mankind, to be given no quarter and no 
consideration for their purported grievances. If we begin to 
distinguish between acts of terror, justifying some and 
repudiating others based on sympathy with this or that cause, 
we will lose the world clarity that is so essential for 
victory. This clarity is what enabled America and Britain to 
wipe out piracy in the 19th century. This is how the allies 
rooted out Nazis in the 20th century. They didn't look for the 
root cause of piracy, nor for the root cause of nazism, because 
they knew that some acts are evil in and of themselves and do 
not deserve any consideration or any, ``understanding.'' They 
didn't ask if Hitler was right about the alleged wrong done to 
Germany at Versailles. They left that to the historians. The 
leaders of the Western Alliance said something entirely 
different. They said, nothing justifies nazism, nothing.
    Well, we must be equally clear-cut today. Nothing justifies 
terrorism, nothing. Terrorism is defined not by the identity of 
its perpetrators nor by the cause they espouse. Rather, it is 
defined by the nature of the act. Terrorism is the deliberate 
attack on innocent civilians. In this it must be distinguished 
from legitimate acts of war that target combatants and may 
unintentionally harm civilians.
    When the British Royal Air Force bombed the Gestapo 
headquarters in Copenhagen in 1944 and one of their bombs 
unintentionally struck a children's hospital nearby, that was a 
tragedy, but it was not terrorism. When Israel a few weeks ago 
fired a missile that killed two Hamas archterrorists, and two 
Palestinian children who were playing nearby were tragically 
struck down, that is not terrorism, because terrorists do not 
unintentionally harm civilians. They deliberately murder, maim 
and menace civilians, as many as possible.
    No cause, no grievance, no apology can ever justify 
terrorism. Terrorism against Americans, against Israelis, 
against Spaniards, against Britons, against Russians or anyone 
else is all part of the same evil and must be treated as such. 
It is time to establish a fixed principle for the international 
community. Any cause that uses terrorism to advance its aims 
will not be rewarded. On the contrary, it will be punished, 
severely punished, and placed beyond the pale.
    Ladies and gentlemen, armed with this moral clarity in 
defining terrorism, we must possess an equal clarity in 
fighting it. If we include Iran, Syria and the Palestinian 
Authority in the coalition to fight terror, even though they 
currently harbor, sponsor and dispatch terrorism--as we speak, 
terrorists struck innocent people, murdered a woman this 
morning, from Yasser Arafat's domain against Israel. If we 
include these terrorist regimes in the coalition, then the 
alliance against terror will be defeated from within. We might, 
perhaps, achieve a short-term objective of destroying one 
terrorist fiefdom, but it will preclude the possibility of 
overall victory. Such a coalition will necessarily melt down 
because of its own internal contradictions. We might win a 
battle, but we will certainly lose the war.
    These regimes, like all terrorist states, must be given a 
forthright demand: Stop terrorism, not temporarily for tactical 
gains, stop terrorism permanently, or you will face the wrath 
of the free world through harsh and sustained political, 
economic and military sanctions.
    Now, obviously, some of these regimes today will scramble 
in fear and issue platitudes about their opposition to terror, 
just as Arafat, Iran and Syria did, while they keep their 
terror apparatus intact. Well, we shouldn't be fooled. These 
regimes are already on the U.S. list of states supporting 
terrorism; and if they're not, they should be.
    The price of admission for any state into the coalition 
against terror must be first to completely dismantle the 
terrorist infrastructures within their realm. Iran will have to 
dismantle the worldwide network of terrorism and incitement 
based in Tehran. Syria will have to shut down Hezbollah and a 
dozen other terrorist organizations that operate freely in 
Damascus and in Lebanon. Arafat will have to crush Hamas and 
Islamic Jihad, close down their suicide factories and training 
grounds, rein in his own Fatah and Tanzim terrorists and cease 
the endless incitement of violence.
    To win this war, we have to fight on many fronts. Well, the 
most obvious one is direct military action against the 
terrorists themselves. Israel's policy of preemptively striking 
at those who seek to murder its people is, I believe, better 
understood today and requires no further elaboration.
    But there's no substitute for the key action that we must 
take: imposing the most punishing diplomatic, economic and 
military sanctions on all terrorist states. To this must be 
added these measures: Freeze financial assets in the West of 
terrorist regimes and organizations. Revise legislation, 
subject to periodic renewal, to enable better surveillance 
against organizations inciting violence. Keep convicted 
terrorists behind bars. Do not negotiate with terrorists. And 
train special forces to fight terror. And, not least important, 
impose sanctions, heavy sanctions, on suppliers of nuclear 
technology to terrorist states.
    Distinguished Representatives, I've had some experience in 
pursuing all of these courses of action in Israel's battle 
against terrorism, and I'll be glad to elaborate on any of them 
if you wish, including the sensitive questions surrounding 
intelligence. But I have to be clear: Victory over terrorism is 
not at its most fundamental level a matter either of law 
enforcement or intelligence. However important these functions 
are, they could only reduce the dangers, not eliminate them. 
The immediate objective is to end all state support for and 
complicity with terror.
    If vigorously and continuously challenged, most of these 
regimes can be deterred from sponsoring terrorism, but there is 
a possibility that some will not be deterred, and those may be 
the ones that possess weapons of mass destruction. Again, we 
cannot dismiss the possibility that a militant terrorist state 
will use its proxies to threaten or launch a nuclear attack 
with a hope of apparent immunity and impunity. Nor can we 
completely dismiss the possibility that a militant regime, like 
its terrorist proxies, will commit collective suicide for the 
sake of its fanatical ideology. In this case, we might face not 
thousands of dead, but hundreds of thousands and possibly 
millions.
    This is why the United States must do everything in its 
power to prevent regimes like Iran and Iraq from developing 
nuclear weapons and to disarm them of their weapons of mass 
destruction. This is the great mission that now stands before 
the free world. That mission must not be watered down to allow 
certain states to participate in the coalition that is now 
being organized. Rather, the coalition must be built around 
this mission.
    It may be that some will shy away from adopting such an 
uncompromising stance against terrorism. If some free states 
choose to remain on the sidelines, America must be prepared to 
march forward without them, for there is no substitute for 
moral and strategic clarity. I believe that if the United 
States stands on principle, all democracies will eventually 
join the war on terrorism. The easy route may be tempting, but 
it will not win the day.
    On September 11th, I, like everyone else, was glued to a 
television set, watching the savagery that struck America, but 
amid the smoking ruins of the Twin Towers, one could make out 
the Statue of Liberty holding high the torch of freedom. It is 
freedom's flame that the terrorists sought to extinguish, but 
it is that same torch so proudly held by the United States that 
can lead the free world to crush the forces of terror and to 
secure our tomorrow. It is within our power. Let us now make 
sure that it is within our will.
    [Applause.]
    [The prepared statement of Mr. Netanyahu follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.030
    
    [GRAPHIC] [TIFF OMITTED] T7229.031
    
    [GRAPHIC] [TIFF OMITTED] T7229.032
    
    [GRAPHIC] [TIFF OMITTED] T7229.033
    
    [GRAPHIC] [TIFF OMITTED] T7229.034
    
    [GRAPHIC] [TIFF OMITTED] T7229.035
    
    [GRAPHIC] [TIFF OMITTED] T7229.036
    
    [GRAPHIC] [TIFF OMITTED] T7229.037
    
    [GRAPHIC] [TIFF OMITTED] T7229.038
    
    [GRAPHIC] [TIFF OMITTED] T7229.039
    
    [GRAPHIC] [TIFF OMITTED] T7229.040
    
    [GRAPHIC] [TIFF OMITTED] T7229.041
    
    [GRAPHIC] [TIFF OMITTED] T7229.042
    
    Mr. Burton. I have to tell you, Mr. Prime Minister, that in 
the 5 years I've been chairman of this committee, it's the 
first time I've heard spontaneous applause for a statement by a 
person who participated in our hearings.
    I think you've covered everything very, very well, but we 
do have a few questions, and I hope you wouldn't mind answering 
them.
    You indicated in your book that there might be the 
possibility of a nuclear device put in the basement of the 
World Trade Center, and we had some hearings earlier a couple 
of years ago about some briefcase-type nuclear devices about 
this big that were produced by the Soviet Union when they were 
in existence, and by the United States, and we were told that 
some of those devices have disappeared, have evaporated. Do you 
have any information or indication that those devices may have 
found their way into the terrorist enclaves?
    Mr. Netanyahu. Not specifically about those devices, but as 
far as the general flow of nuclear technology that flows, I 
regret, primarily from Russia, there is a steady and continuous 
and unchecked flow of nuclear weapons technology from Russia to 
Iraq and to Iran, from the Russian, quote, scientific 
organizations that work semi-independently, but under the 
umbrella of the Russian Government. I have tried many times, 
including in conversations with President Clinton, to--and with 
some of you, to get a message sent to Russia to clamp down on 
this because of the dangers not only to the United States, but 
to Russia as well.
    There is also ballistic technology that goes--I shouldn't 
say technology. Technologists who are onsite in both countries. 
It's important to understand that the goals of these countries 
is to have--they already have ballistic missiles. Iran is more 
ambitious than Iraq in terms of the reach. Iraq wants a 
regional--Iraq is--Saddam Hussein is a regional bully with 
great danger if he acquires nuclear weapons, obviously, 
enormous danger, and that could happen, according to our 
defense ministers, within 3 to 5 years.
    In the case of Iran, Iran already has missiles that can 
reach--overreach Israel, can reach into Europe, but they are 
working on a plan, a 10 to 15-year plan, to develop 
intercontinental missiles that could reach the eastern seaboard 
of the United States. They want to be a global power, and Iran 
in many ways is not only the spiritual center of fomenting this 
strident militancy, it also sees itself as the physical power 
to marshal the forces to get the strategic change in historical 
terms.
    So I think it's important to understand that the terror 
network merely facilitates the ambitions of regimes, but those 
ambitions are far flung, and they definitely include, without 
any question, the acquisition of nuclear material, nuclear 
technology, ballistic technology and possibly the compression 
of these weapons into smaller devices. They certainly would be 
more able to do so, if you're talking about chemical and 
biological weapons, because the physics of it are simpler.
    We have had an instance, by the way, in another part of the 
world, in Japan, in Tokyo, of sarin gas, which is very deadly 
and could kill an untold number. It was apprehended very 
quickly in the subways, fortunately apprehended, but you could 
have had there a massive catastrophe.
    So terrorists have already used chemical weapons. This is 
not a projection into the future. We've already been warned. I 
said we've been given a wake-up call from hell. It's a 
variegated hell, and some of it has already been here and is 
here.
    Mr. Burton. Regarding the chemical and biological weapons, 
do these terrorists states and organizations have these now, or 
does the free world have some time to deal with them?
    Mr. Netanyahu. At least three regimes in the Middle East 
have chemical and biological weapons. None of them, to the best 
of my knowledge, have nuclear weapons, but they are working 
very hard to get them and very fast.
    Mr. Burton. And these chemical and biological weapons, 
they're easily transportable?
    Mr. Netanyahu. The chemical and biological weapons are a 
great deal simpler to manufacture and to transport than nuclear 
weapons.
    Mr. Burton. In these terrorist training camps, are they 
training people how to assemble and make these biological and 
chemical weapons? I mean, we think we have terrorists, a large 
number of them, possibly, in the United States. Would they be 
capable of making those?
    Mr. Netanyahu. I cannot tell you in the most recent 
intelligence, because I can only talk about things that I was 
intimate with 2 years ago when I was Prime Minister, but 
there's no question that the terrorist groups around us, bin 
Laden and others, are seeking ways to increase, by an order of 
magnitude, the destructive power of the weapons--the lethal 
power of the weapons that they seek to employ against us, and, 
therefore, I think you have to expect that they are perfectly 
aware of what happened in Japan. They're perfectly aware of 
what their supporting regimes have, and they're also perfectly 
aware that it's not that difficult--certain weapons of this 
kind are not that difficult to assemble.
    So I think we've been warned. We've been fairly warned, 
very painfully warned, but if bin Laden conceived of this idea 
of taking two airplanes, 150-ton airplanes, loaded with fuel 
and launching them into the middle of New York and a third one 
here in Washington, then you have to assume that he's aware of 
everything that we're talking about and that he's working on 
it. I don't have the specifics of it, but would any of you 
assume differently?
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Netanyahu, I, too, have never seen the kind of response 
to your statement that we just witnessed, where Members on both 
sides of the aisle and the audience gave you an ovation, which 
was well deserved. I thought your statement was an outstanding 
one. It clarified, if anyone had any doubt, what we're facing 
in the world today. As the President of the United States seeks 
to pull together a coalition to fight terrorism, all of our 
allies must keep clearly in mind what's really at stake.
    The line you gave which left a real impression on me is 
that intelligence and law enforcement surely can help reduce 
the violence, but they're not an answer unless we stop the 
terrorist network from operating and stop those countries that 
are supporting it. Israel, however, is way ahead of the United 
States in dealing on a tactical basis, on a day-to-day basis, 
with terrorism. What do you suggest to us; from your own 
experience in Israel. If terrorism is a fact of life, how do we 
deal with it on that day-to-day basis? What recommendations 
would you make to us?
    Mr. Netanyahu. Congressman Waxman, I'd say first that 
Israel has been living under bouts of terrorism, but indeed 
it's been bouts, because we've had the ability to stop 
terrorism from certain corners for specified periods. For 
example, we had state-supported terrorism from Nasser's Egypt, 
and we took very decisive action against not only merely the 
individual terrorist, but against Nasser's regime, and the 
punishing power of those military actions stopped terrorism 
from Egypt years before we had a peace process or let alone a 
peace treaty with Egypt.
    The same is true of terrorists that implanted themselves 
from Jordan in the 1970's. We struck very, very strongly 
against them, and King Hussein, who was also concerned that 
they would topple his regime, took action against them, and 
that was the end of it. So we had no terrorism from Jordan many 
years before we had a peace process with Jordan or a peace 
treaty with Jordan.
    And during my own tenure, we were able to reduce the 
terrorism not only from 100 percent to zero, but practically to 
zero. The terror rate dropped very precipitously, because I 
made it clear to Arafat that I would take very, very strong 
action under the policy of reciprocity against his regime, and 
I think he considered that his regime might be in danger of 
tottering. So the terror dropped almost to nothing. In fact, we 
had a record number of tourists and record number of growth in 
the economy and, by the way, record economic prosperity in the 
Palestinian areas, because there was no terrorism. We didn't 
close our job markets with the Palestinians, so they were 
having nightclubs in Ramallah and you name it.
    So it is perfectly possible to deter most of these regimes. 
It is important--and I add it again parenthetically, because I 
think it is not a parenthetical remark--it is not clear that 
deterrence alone will work for some of the main players in this 
terror network.
    Now, the question you asked about Israel's experience, I 
think the domestic day-to-day experience, I think the role of 
leadership is to educate the public to withstand precisely as 
Congressman Burton said, a sustained battle. This is a war. It 
is not a single skirmish, and it requires that the citizens of 
a free society in a certain sense see themselves as soldiers in 
the same war. They have to be prepared to absorb the pain, even 
the casualties. They have to have this moral outrage in them 
but not to crumble when those attacks take place. They have to 
be prepared to muster their will and resolve to see it through 
the long haul for victory, nothing short of victory.
    I must say that what I see in the United States, what I see 
in the city of New York, what I see in the leadership provided 
by President Bush and Mayor Giuliani and may I say what I see 
in this city from all of you is that kind of resolve. I think 
that is what has to be repeated again and again. This has been 
Israel's experience. No one in Israel will back off and 
surrender to terrorism. No one in America will back off and 
surrender to terrorism. I am sure of that.
    Mr. Waxman. As the President puts together this 
international coalition, we know that some of our European 
allies have been cooperative with terrorist regimes because it 
was in their economic interest to do so. We know there are 
going to be not democracies but some of the so-called modern 
Arab countries that are going to say to the United States if 
only the United States would put pressure on Israel to 
accommodate the Palestinians that would help them be part of 
the coalition.
    What would you tell the President of the United States when 
he hears these kinds of claims from our allies, or when those 
who would claim to be our allies put these conditions in their 
place?
    Mr. Netanyahu. Well, I think this is fundamentally wrong on 
every count. Yasser Arafat has been called Israel's Osama bin 
Laden. But there is a difference between the two. You see, 
Osama bin Laden wants to destroy America. Yasser Arafat is more 
modest in his goals: He just wants to destroy Israel. That is 
why he founded the PLO in 1964, the Organization for the 
Liberation of Palestine. 1964. That is 3 years before the Six 
Day War. What was the Palestine that he set out to liberate? 
Couldn't have been the West Bank, that was in Arab hands. 
Couldn't have been Gaza, that was in Arab hands, too. Couldn't 
have been East Jerusalem, that was in Arab hands. The Palestine 
that he set out to liberate was in fact Israel; that is, Tel 
Aviv, Haifa, Jerusalem and so on. And that goal has not 
changed.
    Many hoped, I think out of good will and good intentions, 
that he had changed his goals when he entered the Oslo process. 
But I think those hopes have been dashed in this city not far 
from here in the Camp David conference just a year ago when he 
was offered everything he says in the West that he wants; 
namely a West Bank state with half of Jerusalem as its capital. 
He always says that, he or his spokesmen and spokeswomen. When 
they come to the West, they say this is what we want. Of course 
when he was offered it, he chucked. He threw it out. He said 
that's not what I want. What I want is the ability to flood 
Israel with millions of Palestinians, effectively bringing 
about the end of Israel.
    So it is important to understand that what he says in 
Arabic to his people is very different from what he and his 
spokesmen say in English to America or to the Western media. He 
in Arabic tells them very clearly he is not looking for a state 
next to Israel, he is looking for a state instead of Israel. He 
is willing to back that with what he calls the armed struggle, 
which is another word for terrorism. That is what he does.
    In other words, Arafat is not an engine for peace, is not a 
partner for peace. He is in fact, I would say, pursuing the 
illegitimate goal of policide, the destruction of a state, 
using the illegitimate means of terror.
    Now in this he is not different from the others except he 
has got exceptional PR. Exceptional PR. He has got a lot of 
people bamboozled. But all you have to do is read those quotes 
just like the one I read from the organs of the press that he 
controls, glorifying suicide bombers, hatred against the West, 
his own appointed mufti, Palestinian appointed mufti. In 
Jerusalem on the Temple he said just a few weeks ago we will 
paint the White House black. And you know what he meant by 
that, he didn't mean a coat of paint. And so on. This goes on 
and on and on.
    Now, you may say, well, these are things that are said like 
the newspaper quote that I gave you. It is a free press there. 
That reminds me of a play of Tom Stoppard I once saw in which 
an Idi Amin like dictator struts across the stage and he boasts 
we have a relatively free press in my country. And someone asks 
him what's that? And he says, it's a press run freely by my 
relatives. Well, Arafat has a relatively free press, too. Every 
word, every image, every picture that he shows on that 
television on the radio he controls.
    Now, admittedly he is now scrambling to distance himself 
from this bombing. But the joyous celebration that broke out in 
Palestine, joyous, couldn't hide it in the beginning, people 
were celebrating all over the place, well, then they started 
terrorizing the news media, using terror to hide the terror.
    I have here an AP cable, APTN. ``APTN regrets that the 
clients are unable to use the 35 seconds of the Ramallah march 
showing one protester carrying a picture of Osama bin Laden. 
This material was shot by a Channel 9 Australian crew who have 
now withdrawn their permission for APTN to use it. They say 
that their decision has been taken on, quote, safety grounds. 
This is 4 days ago.
    He is terrorizing people to hide the terror. Then he goes 
on to donate blood for America. Did you see that? Donate blood 
for America. This is the father of modern terrorism. This is 
the man who invented--first, we had the bombing of airplanes. 
He did. He bombed American aircraft in the Jordanian desert. He 
murdered American diplomats in Khartoum and elsewhere. He 
hijacked people, killed people, killed innocent people. Taken 
them hostage. Murdering Americans as recently as a week ago, 2 
weeks ago in the bombings in Jerusalem, American citizens. He 
has shed an awful lot of American blood. And now he is donating 
blood to America.
    Well, I think in the long history of hypocrisy, and it is a 
very long history, this surely has to top the list. So I don't 
think anyone should be fooled. We have here a classic component 
of the terror network. Now we are waiting for a cease-fire. 
Cease-fires are very, very welcome. I hope we have them because 
people stop getting killed. But if you asked your research 
department, Mr. Chairman, to have a printout of all the cease-
fires that Arafat has violated, it would stretch all of 
Pennsylvania Avenue. And the question you really need to see is 
not a tactical cessation of terror but a complete dismantling 
of the terror infrastructure, and indeed a complete disavowal, 
a formal disavowal of all those aspects of the Palestinian 
creed that effectively calls for Israel's destruction like the 
demand for the so-called right of return, and so on.
    I say that because the assumption that some of our European 
colleagues have, that if they give Arafat and his terrorist 
regime, with the goal of destroying Israel, if they give him 
the hills above Tel Aviv, that he will stop is absurd. He not 
only will not stop, just as he has used any territory that he 
has received to continue to wage the unchanging goal, he will 
continue from there as well. What must be done is exactly the 
opposite. What must be done is to stand before Arafat and say 
enough is enough. Terror is not going to be tolerated anywhere 
for real or imaginary purposes or grievances. You are 
practicing terror, you will get no support. You will get 
sanctions. If Israel has to take action to defend itself, we 
will support it. Terror will stop in a very, very short time.
    And that is the lesson that has to be taught not only to 
Arafat but to everyone. And the battle against terrorism has to 
be universal. Terrorism is indivisible in its pernicious 
effects, and the war against terrorism has to be indivisible. 
It cannot be that the Palestinian terrorists are OK, but the 
Basque terrorists are not. It cannot be that the Kurdish 
terrorists are bad, but the terrorists that fight for them in 
another part of the world are good. Terrorism is always bad 
whether it is Palestinian or anyone else's and it must be 
treated as such. I think that is the message that the Europeans 
have to place before Arafat and the entire world. If they 
don't, terror will come back to haunt them as surely as the 
light of day.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Mr. Prime Minister, when you addressed Congress 
it was one of the most refreshing statements before Congress, 
and your statement here is extraordinary as well. I would hope 
that every Member of Congress will get to read it and everyone 
in the administration as well.
    Mr. Netanyahu. Thank you.
    Mr. Shays. When you were before Mr. Hume in an interview 
you said some of what you said today, ``The terrorists today 
have the will to destroy us, but they don't have the power. We 
have the power to eradicate them but must now show that we have 
the will. This is the test of time.''
    I want to ask you how will we know when we have destroyed 
the terrorist network? I mean, I don't know how you ever know.
    Mr. Netanyahu. Well, you know if you monitor what is 
happening inside the regimes. You know if the regimes take 
action--for example, simple test in Syria: There are a dozen, I 
think, maybe I'm wrong, maybe it is 15, but more than a dozen. 
I haven't counted them recently. They keep growing. There are 
over a dozen offices, formal offices, with addresses of terror 
organizations. They operate there.
    Mr. Shays. So when they go that is an indication?
    Mr. Netanyahu. Well, closing them down is a minimal, it is 
not the only indication. But the fact they are there operating 
with impunity, with the support of the regime, is one thing 
that you can demand to stop. You can also know through other 
means whether there is--you know, there is only a cosmetic 
action and not a real action. It is possible we know. It is not 
that we don't know. Our joint intelligence capabilities know 
very well. What we don't do is we don't call the bluff often. I 
think it is time that the U.S. Congress places everyone, 
including Arafat's terrorist groups that are carrying out 
terrorism today, the Tanzine, or the Fatah--I'm sorry--Yasser 
Arafat's own group, claimed responsibility for murdering a 
mother. Today.
    Mr. Shays. Let me ask you another question if I could while 
I still have time. The Mossad is universally recognized as one 
of the best, if not the best intelligence organization. What 
could we learn from this intelligence organization? What could 
the United States learn? Not the information in it but how they 
get their information and so on.
    Mr. Netanyahu. Congressman Shays, I am going to be 
naturally reticent about this subject, but I want to say that 
the nature of terrorism is such that even though you need to 
bolster intelligence, even though we need to bolster the 
sharing of intelligence between us, we often don't do that 
because of the concern of burning out sources. Although I think 
that the sharing between some countries, America and Britain, 
United States and Israel, and a few others, is exceptional, 
there is more certainly that we can do in the realm of 
intelligence. But the nature of terrorism is such that it is a 
war by proxy, it is a war by stealth that regimes use 
primarily.
    So you cannot anticipate every single action nor could you 
always find it. This is the nature of the beast. What you have 
to do is go back to the home base. It is like, you know, trying 
to intercept the kamikazi pilot or sinking the aircraft 
carrier. You certainly want to intercept the kamikazi pilot but 
what you really want to do is get the carriers, sink the 
carriers, and you will probably get rid of this problem.
    Mr. Shays. One of your strong messages seems to be, and 
tell me if I am hearing you right, that if we get the terrorist 
states we basically pull apart the terrorist organizations. So 
would one of the indications be that we see a major toppling of 
some terrorist states?
    Mr. Netanyahu. Well, I want to define the problem. I am not 
sure that it is appropriate here to define the exact solution. 
There is a balance, depending on effectiveness, between 
deterrence and other actions that have to be taken in case 
deterrence fails. One thing that is absolutely clear because of 
the enormous dangers inherent now in this terror network and 
its coupling with unconventional weapons, we cannot leave this 
network intact. How to make sure that it is neutralized will 
be, I would say, apportioned by the nature of the regimes and 
their response to the measures, the punishments that are meted 
out to them. But I think the important thing is to dismantle 
the regime before it dismantles us; that is, dismantle the 
network before it dismantles it. Neutralize it or dismantle it. 
I cannot tell you right now which is which because there is a 
sequence of actions that can be taking place over time. And I 
am sure there are very smart people and very concerned people 
in this city who are now thinking precisely about those 
questions.
    What I can tell you is that I would definitely not think 
that it is a one shot action. Suppose you get rid of bin Ladin, 
which you should--and, by the way, dispense with the legalisms. 
I mean dispense with the legalisms. This is an act of war. This 
guy just sent almost 2 dozen killers to wipe out thousands of 
Americans. This is not a court of law. This is an act of war. 
You don't go into the middle of a war and say let me try this--
general, let me have enough proof that this general produced 
this particular action against us and only when we have this 
judicial proof will we take action against him. Get rid of 
these legalisms. We are not talking about American citizens. We 
are not talking about action in your own country. We are 
talking about something beyond your borders.
    We in Israel make that clear distinction. When it comes to 
Israeli citizens, all the rules of law subject to our reviews 
and our laws apply. But when it comes outside of our borders, 
this is what we have governments for. This is what we have a 
Prime Minister for. This is what you have a President for, a 
Commander in Chief for. And unless you give that power, the 
terrorist will always hide behind this so-called lack of 
sufficient proof. It is not a court of law. It is a field of 
war, and it must be done.
    Mr. Shays. Thank you.
    Mr. Burton. Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. I want to commend you 
for holding this hearing, for inviting our distinguished guest. 
I want to commend you for one of the most powerful statements I 
have heard as a Member of Congress. This is not an 
inappropriate time, Mr. Prime Minister, to pay a moment's 
tribute to your brother, who is the symbol of the international 
fight against terrorism. On July 4, 1976, he gave his life in 
that struggle and he will stand as the singular example of 
human sacrifice in defense of freedom and liberty and the need 
to fight international terrorism.
    I very much hope that the speech writers who are preparing 
tonight's address of the President that he will give to a joint 
session of Congress have been listening to your comments, 
because your comments are now in the public domain, there is no 
copyright, and I hope many of these thoughts will find their 
way into the President's speech at 9 this evening.
    It has been stated many times, Prime Minister, that 
September 11 was a wakeup call. Well, I think it was a little 
more than a wakeup call. It probably provided us, all of us, 
with a moment that we can describe as a hinge of history, 
because the dialog, the focus, the attention is so different 
today than it was just 2 short weeks ago. This is as true of 
the Congress as it is of the country, as it is of many of our 
allies.
    It was also a wakeup call for our own Department of State. 
Earlier I mentioned, Mr. Prime Minister, that some months ago I 
introduced a piece of legislation calling for the Government of 
Lebanon to secure its entire border with Israel, not allowing 
Hezbollah to engage in cross border terrorist raids. The 
Department of State saw fit just a few months ago to send two 
letters to all of my colleagues urging them to oppose my 
amendment and not to vote for it. It passed by the narrowest of 
margins, 216 to 212. And I so strongly welcome the new attitude 
of the Department of State and I ask unanimous consent, Mr. 
Chairman, that yesterday's Wall Street Journal article 
entitled, ``U.S. Presses Lebanon on Suspects: Bush Seeks Action 
on Hezbollah,'' be inserted into the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.043
    
    Mr. Lantos. What we now have, Mr. Prime Minister, is the 
Department of State at long last calling on Damascus and Beirut 
to put an end to all terrorist activities, something that just 
a few months ago our own Department of State was fighting. This 
I think is an index of the seismic change that occurred a week 
ago Tuesday which I think will focus our attention for many 
coming years on this issue.
    It was not long ago that many in our government at the 
highest levels were issuing pious calls for restraints when 
Israel struck back at terrorists. I remember one specific 
instance when a terrorist chief was with surgical accuracy 
terminated by an Israeli helicopter pilot and the Department of 
State was calling piously for restraint. Just imagine what an 
American pilot would get in the form of decorations if he would 
find Osama and put an end to him in his cave someplace. He 
would get the Congressional Medal of Honor in record time.
    Now, I would like to ask you to comment on two concepts, 
Mr. Prime Minister. The first one relates to the issue of why 
the international terrorist movement hates us so much. Many 
argue that they hate us for our policies. It is my judgment 
that they don't hate us for what we do, but they hate us for 
what we are. We are open, tolerant, accepting of others, and 
this is diametrically opposed to what the fanatic terrorists 
believe in and for which they clearly are prepared to sacrifice 
their lives.
    The second issue I would like you to comment on relates to 
a statement by the President of Pakistan. I very much welcome 
the fact that Pakistan at long last has chosen to stand with 
the civilized world and not with the barbarism of the Taliban. 
I publicly want to commend the President of Pakistan for his 
action. Yet in his statement he offered a caution; namely, that 
India and Israel not be part of the coalition. And I find it so 
outrageous that a military dictator should tell the two 
democracies which in many ways have been the most severely 
subjected to international terrorism to stay away.
    Isn't it long overdue that we not only tell all the 
countries of this world that the time to choose is here, not 
just in terms of actions, but also in terms of moral and 
intellectual clarity? I think it would be outrageous if Syria 
would be invited to join the international struggle against 
international terrorism while India and Israel and perhaps 
other democracies would be excluded. I would be grateful for 
your comments.
    Mr. Netanyahu. Thank you very much, Congressman Lantos, and 
thank you, too, for your kind words about my late brother. He 
fell in the war against terrorism. But it is interesting that 
even though he devoted all of his adult life--he fell at the 
age of 30; from the age of 18, with the exception of a short 
stint in Harvard, he had been in the Army fighting terrorism--
he never viewed the problem as strictly a military one. He 
viewed it centrally as a political and moral one because of the 
confusion that existed in the democracies that allowed 
terrorist regimes and terrorist organizations to grow and 
expand their activity. And I agreed with him completely and 
devoted a good part of my adult life to making that clear. I 
know you and so many others in this committee have taken part 
in the political and moral battle against terrorism and its 
politics as in South Africa and in Durban, where the American 
delegation did the right thing.
    Why do the Islamic militant terrorists hate us so much? It 
is a collective us. I tell you it is a collective us in the 
sense if Belgium were in the Middle East or Holland were in the 
Middle East instead of Israel, the same thing would still be 
there. And if Israel, by the way, didn't exist, the same thing 
would be there. This is centuries, centuries of antipathy of a 
particular virulent strain of Islam, to distinguish from the 
vast majority that does not recognize modernity. What it 
especially rejects is the idea of plurality and individual 
choice. It is a very rigid conception of life, I think a very 
forlorn and dark one. But it cannot tolerate the idea that we 
are having this conversation right now, that we can have 
genuine disagreements, that we can have a genuine parliament. 
That is why they have these farcical parliaments in Tripoli or 
in the Sudan, but they are not real parliaments because what 
they want to have is a certain uniformity. They reject our 
respect for life, for individual rights. They reject our 
conception of personal choice in the way we dress and the way 
we educate our children and our choice of music and art--
choices I should say.
    It is a completely different world outlook, and therefore 
you are absolutely right when they say that they hate the West, 
not for what it does, but for what it is. It is a fundamentally 
opposed view of the way human life and civilization should be 
constructed. And make no mistake about it, ours is better. Ours 
is right. Theirs is wrong. That is why they use barbaric 
methods to try to stamp out ours. They cannot stand free 
competition. They cannot stand free choice on the international 
scene or in their own societies. That is why they are closed, 
because they know just given the choice--just give the choice 
to the citizens of Iran, you know what they will choose.
    I once said to the head of the CIA that the best way to 
induce a change in Iran was not standard CIA tactics but to get 
very, very strong transponders and to beam into Tehran Beverly 
Hills 90210 and Melrose Place and all that stuff because--I 
don't think it is high art, but it is its uses, because this is 
subversive stuff. What it does is it gives the young people in 
particular the ability to see a different life, that they could 
have a nice house, a nice car, nice clothes and so on. And this 
is precisely the kind of competition that these militants not 
only want to avoid but hate so much. They want their uniform 
idea based on, again, many centuries of a slithering and 
simmering hate.
    I think this has been written about perhaps most profoundly 
and cogently by Professor Bernard Lewis. There are others. 
There are Arab writers like Professor Fouad Ajami at Johns 
Hopkins and a number of other Arab professors whose books I 
have read who have written about this probably more honestly 
and more courageously than any Western writer that I can cite. 
So it is absolutely correct. They hate us for what we are in 
the first instance, not for what we do. I cannot add a single 
thing to what you said about Pakistan.
    Mr. Burton. Mr. Prime Minister, you have heard from the 
ranking member of the International Relations Committee. Now I 
recognize the former chairman of the committee, Mr. Gilman.
    Mr. Gilman. Thank you very much, Mr. Chairman, and, Mr. 
Former Prime Minister, we welcome you to our committee. Thank 
you for taking the time and the trouble to travel so far, and 
again we apologize for the State Department's inability to meet 
a leading member of another state.
    We hope that you will continue to be a leading member 
throughout the world. We hope you will have the opportunity to 
meet with our President before you go back to recite to him the 
same things you have recited to our committee.
    Mr. Netanyahu, what do you think is the most important 
initiative that our Nation should now undertake in our war 
against terrorism? What is the most significant thing we can do 
right now?
    Mr. Netanyahu. It should form a coalition of those 
democracies that are willing to take on an uncompromising 
battle against terrorism everywhere and especially against the 
terrorist regimes that make international terrorism possible. 
This coalition could consider both military and economic as 
well as diplomatic actions against these offending states. The 
nature of this action could go so far as to military engagement 
and military punishment. It can go short of that, depending on 
the response of these regimes and how quickly and how 
comprehensively they dismantle the terrorist apparatus within 
them. This is the first thing that has to be done.
    The second thing is until the scaffolding collapses to 
intercept as many of the terrorists organizations, especially 
those now that have already dispatched killers en route to our 
societies, and root them out. Root them out means to eliminate 
them, to kill them if necessary, with no consideration for 
undue legalisms if they are citizens, foreign citizens and not 
U.S. citizens.
    Mr. Gilman. You mentioned some of the countries that are 
harboring terrorism. Who do you feel are the most active 
supporters of terrorism? Who are the greatest threat to us in 
harboring terrorists?
    Mr. Netanyahu. Congressman Gilman, there is a distinction I 
think should be made between many countries in which now 
terrorist cells exist in the West. Including in the West, 
Europe has militant Islamic centers just dotted throughout the 
continent. America too. These terrorists have taken and made 
use of the freedom of democracies to work against democracies. 
But invariably they all come back to a handful of regimes in 
the Middle East from which the headquarters are launched.
    It is very difficult, very difficult to sustain a terror 
effort when you don't have this international--these bases, 
these home bases. Invariably, free societies are able to--this 
you may be happy to hear--free societies faced with terrorism 
that does not have an international base can almost always, not 
always but almost always, root out such terrorists. So, for 
example, in Germany they rooted out the Red Army, their Red 
Army. In Italy they rooted out the Brigada Rosa. In France they 
eliminated the Action Directe, and so on.
    By the way, some of that was made possible because of the 
fall of communism. So the Eastern European communist countries 
that were, basically the havens collapsed. Even though this 
action took place before they collapsed they were already weak, 
they were already exposed. Merely exposing them and putting the 
sanctions on them worked. We have the power, the enormous 
technical power of surveillance against groups that don't have 
foreign support. Eventually you can overcome them.
    Now the question is what do we do about civil liberties. 
Well, I think that the experience of Israel and Britain and 
Italy and Germany and others, all vibrant democratic societies, 
have shown that as they were fighting terrorism they were able 
to maintain their guard and vigil to protect civil liberties. 
Usually there is an oscillation. The pendulum oscillates 
between tougher measures in times of crisis to reduced measures 
in times of tranquility. And obviously the pendulum has to 
shift now. If it doesn't shift we are in trouble. But as it 
shifts, the responsibility of Congressmen, of parliamentarians 
like you, provide alongside the judiciary the necessary 
oversight on domestic actions.
    So I am very confident in the power of democracies, 
certainly the power of the American democracy, the greatest 
democracy of them all, to toughen up domestic measures against 
the groups here without endangering American democracy.
    But again it will not suffice. So you have to go back to 
the regimes. Who are the regimes? Again I listed them. They are 
very clear. They are Iran, Iraq, Taliban of Afghanistan, the 
Palestinian enclave headed by Arafat, the Sudan. This is the 
nexus. Syria of course. This is the nexus of countries that 
operate openly without even any need to disguise the basis for 
these terrorist organizations. And again there are subsidiary 
countries that themselves have simply not taken action to root 
out these pockets. They have taken some action.
    Some of them have not taken any action. Egypt has taken 
some action, but it still has a very large and very active 
offshoot of terrorism there. Saudi Arabia has been a haven for 
financing and other activities. They think they would buy them 
off. They don't buy them off. You know, they support the 
Taliban, probably not only the Taliban. OK, but they don't buy 
them off. I don't think they do it with a view that the Taliban 
would attack the United States or that bin Laden would attack 
the United States. They think they will purchase immunity, but 
they don't.
    So we have to be very clear. I think you have to take 
varying degrees of action between sanctions and deterrence and 
much tougher action depending on----
    Mr. Gilman. Just one last query.
    Mr. Shays [presiding]. May I interrupt the gentleman. I 
would extend that courtesy to you, given Mr. Lantos' long 
extension, but I have members who have said they would like us 
to keep more on time, so a quick question with a short answer 
would be appreciated.
    Mr. Netanyahu. Maybe I will give some shorter answers.
    Mr. Shays. Your answers are excellent, sir. You answer the 
way you want.
    Mr. Gilman. Should we be treating Mr. Arafat as a terrorist 
in our dealing?
    Mr. Netanyahu. He is a terrorist. Treat him as such.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you for your testimony and coming over 
today. I think we all appreciated hearing your comments on 
that. For one thing I can tell you that you have re-enforced 
what has been my understanding for some time that our greatest 
fear, if we were to take a look and assess our threats and 
prioritize, you know, them in terms of risk, that we certainly 
are more at risk for the type of event that happened on 
September 11th or, as you stated earlier, from somebody 
carrying over some sort of nuclear device and detonating it 
here than we are in spending hundreds of billions of dollars on 
a national defense system that hasn't been shown it can work 
yet on that basis.
    So I look at the programs we have, like the nonnuclear 
program, in trying to prevent nuclear materials and nuclear 
technology from coming from Russia and out. And I wonder what 
you think about that program and what else we might do to try 
to prevent that type of dissemination of technology as well as 
materials from Russia or other countries.
    Mr. Netanyahu. Well, I think that there were some 
initiatives in Congress about taking action, Congressman, 
against regimes or governments that allow the diffusion of 
nuclear and ballistic technology from their midst. I have to 
say I won't shock you when I tell you that I am not a communist 
and never was.
    Mr. Tierney. That is tomorrow's headline.
    Mr. Netanyahu. But I will say that there is one thing that 
I can say for Soviet communism, for the Soviet Union, they kept 
that technology, ballistic and nuclear technology, under wraps. 
They didn't give it to any of their allies. They always 
controlled it. They didn't let it seep anywhere. One of the 
consequences of the collapse of the Soviet Union was that this 
technology hasn't actually leaked out; I mean it flows like a 
river to these militant regimes and actually for little money. 
It is not big money. But it is flowing as we speak.
    Now, it is true, as I said, that this could end up giving 
terrorists the use of more primitive weapons of mass 
destruction. Do we really care what the extent of the yield is 
and how accurate these weapons are? No, not if they are in the 
proverbial suitcase. But it is true that they are developing at 
the same time missiles. So you know, the fact that you might 
die of cholera doesn't mean that you have to accept cancer. 
What I would suggest is that you build defenses against both 
the terrorist variety and the state terrorist variety that 
could be employed using ballistic missiles.
    You don't want to be in a position where Iran--and I 
specifically say Iran because it is the most advanced in the 
building of ballistic missiles. Iran in 10 or 12 years will 
have, according to their plans, if they are not stopped, will 
have a missile that can reach this building. Now, you can leave 
it and hope that deterrence will operate. It may, or it may 
not. And you are not going to have a hermetic defense precisely 
because as long as this terror network exists they might have 
other ways of delivering the payload. But I think we should do 
everything in our power while we have the time to do so. I 
think that is what our people, our peoples, the free peoples of 
the world, can demand of us, to do everything within our power 
while we have the time.
    And I would look at all these questions from a fresh 
perspective, and I would say there has been a hinge of fate 
here, there has been a change. There has been something that 
forces us to rise above the previous divisions that divided us. 
I say that in Israel because in Israel, for example, there was 
a sea change of opinion when Arafat was exposed as not wanting 
peace and seeking to destroy us and all of a sudden it merged 
into one great united people. I sense that after this enormous 
calamity here, enormous catastrophe, that the same is 
happening. And I would only hope that spirit animates your 
deliberations in this Capitol to forge as many defenses and all 
the defenses and all the offenses that we can have while we 
have the time. We don't have much time.
    Mr. Tierney. I thank you for that. Of course I hope we are 
all looking at defenses that will actually work and spending 
money only on those and testing them before we start building 
things that don't work, which unfortunately has been our 
history.
    Is it your opinion that individual terrorists who up to 
date have sort of worked without really acknowledging any 
particular regime and regimes that may have let them work 
within their borders without saying they are associated with 
him, do you think that is going to change? Do you think there 
is any nation that is going to overtly state they have a 
connection with these terrorists? Can you expect them to work 
without a return address and sort of stay beneath the radar?
    Mr. Netanyahu. Right now, Congressman Tierney, they will 
stay beneath the radar.
    Mr. Shays. Thank you, Mr. Tierney.
    Mrs. Morella.
    Mrs. Morella. Thank you. Mr. Netanyahu, we are honored that 
you came today to discuss a situation that we now have in 
common with Israel, and during this time of Rosh Hashana we 
certainly can feel kindred souls as we always have with Israel.
    I am curious about whether my perception of the changing 
characteristics of terrorism are accurate in your point of 
view. For instance, it seems to me that now terrorism is 
manifesting itself with these small cells, really throughout 
the world, predominantly in the countries that you have 
mentioned, where you have sometimes pockets of individuals that 
have very little in common with the major organization to which 
they say they are a member. Therefore, it makes it even more 
difficult to ascertain who they are, where they are, and what 
damage they may want to be involved in for kind of the 
credibility, the accolades, the prestige they may get from 
doing that.
    Then compounding the problem, it almost seems as though 
they don't truly have a political goal or focus as such, they 
have gone from not so much political or national but maybe a 
touch of so-called religious, which is certainly not the way we 
see religion. And it is almost like violence for the sake of 
violence, not violence really for a goal. If this in fact is 
true, then some of the techniques they would employ would be 
even far more dangerous. This could lead to the chemical, 
biological warfare. I wondered, have you seen a change in that 
regard as change for the worse in the whole concept of 
terrorism?
    Mr. Netanyahu. Well, I do see, Congresswoman Morella, a 
change for the worst because we see the terrorists have gone 
from killing, murdering isolated individuals to mowing down 
groups with machine guns to blowing up entire buildings and now 
blowing up huge structures, and the weapons grow increasingly 
more lethal and that will continue. But I do think this 
violence has a goal. If there is something I want to stress to 
you today, it is that it is a very purposeful and not in that 
sense senseless violence; it is a violence that is aimed at 
destroying our values and our civilization. It is fantasy, it 
is madness, but that is what they do. This is what they think. 
That is what they aim at achieving. It is important to read 
what they say; it would be equally instructive to read the 
inner teachings of untold number of clerics in some of these 
terrorist states.
    All hatred, certainly I can get from the history of my 
people, the Jewish people, there never was a great program, a 
great massacre of our people that was not preceded by well 
springs of hate; that is, by systematic incitement. The Jews 
were the well poisoners of the world, the Jews in the Middle 
Ages were accused of bleeding to death Christian children and 
using their blood to bake our matzos for Passover and sundry 
other hatreds, hateful lies that were part of this 
dissemination of hate.
    By the way, this began 500 years before the Christian era 
in the Hellenistic world. Always the great massacres of the 
faithful, so to speak, were preceded by campaigns of hate and 
inculcation of hate. That is much the same case in the kind of 
massacres that we are witnessing today. The only reason these 
massacres are done using the techniques of terror is that the 
sources that inspire the hate, the ideological sources 
implanted in the terrorist regimes, are simply too weak. The 
West is too strong. Otherwise it would be much more out in the 
open. It is fairly out in the open if you just examine what 
they say, what they read, what they say to their own people; 
not what they say in the West when they occasionally speak, but 
what they actually say to their own people, and you will see 
how this cauldron of hate is constantly boiling over and 
somebody is always stoking that fire.
    So understand that there is an assault on our civilization. 
It is very hard to accept it, and I know that Samuel 
Huntington's book stirred much debate. I must tell you that I 
read Francis Fukuyama's book, The End of History, with a 
chuckle. I thought it was actually--I thought it was tongue in 
cheek. Then I read a brilliant article, just a brilliant 
article, I mean brilliantly written, in a magazine that I 
occasionally read. It won't shock you either when I tell you 
that it is called Commentary Magazine, and that article said 
that--I won't mention the author, but it said Allah Fukuyama, 
that's it, history is over. Capitalism and democracy won, its 
obvious advantages to the life of mankind was proven and it's 
all over. It's all going to be now downhill. There are not 
going to be any more great conflicts and no more surges of wars 
and violence.
    I got very mad. So I called up my old friend Norman 
Podhoretz--maybe he was still editor at the time, maybe he was 
just moving out--and I said, Norman, how did you allow 
Commentary to publish this brilliant piece of nonsense? He 
said, what do you mean? I said, look, this is militant Islam. 
It is here. And now with a collapse of communism it has got 
weapons that they never dreamed they could get their hands on. 
And it is coming, those attacks. I guess it must have been 8 
years ago or something like that. He said he would have a 
revised edition. Well, I hope he does one now. This is not 
senseless violence. It is purposeful and a purposeful assault 
on our values and our civilization.
    And it is only when we understand that you can mobilize the 
greatest democracy of them all, which we are fortunate to have 
as leading the world. I think our great fortune is that in the 
second half of the 20th century the United States led the world 
against Nazism. I am quite confident if the United States had 
led the world in the first half of the 20th century things 
would have turned out very differently for mankind and for my 
own people. It so happens that it didn't. It so happens that it 
does now.
    I think because of the moral clarity and the basic firmness 
of the American people and their ability and their courage--
there is a lot of courage in this, in the citizenry of the 
United States. I was enormously impressed with the fire 
fighters. I was enormously impressed with the haunting and 
moving records of the conversations of those citizens, ordinary 
American citizens, on that aircraft headed toward Washington, 
DC. And as soon as they understood what it is that this plane 
was going to do, even though they knew in a certain sense that 
they are doomed, they did something that is very difficult to 
do. We knew in concentration camps it was very difficult for 
people to rise up and act even though they knew. Well, these 
people got up, these Americans got up, and they did something 
absolutely remarkable, and they saved a lot of lives. And they 
lost their lives. This is a brave people.
    I have no doubt that looking at the truth, seeing the 
unvarnished picture, not prettying it up, not rounding the 
edges but calling it exactly as it is, the American people, the 
American President, the American Congress will rise to the 
occasion and defeat this evil. It is a purposeful evil, and we 
must be determined to wipe it out.
    Mr. Shays. Ms. Schakowsky, you have the floor.
    Ms. Schakowsky. Thank you so much, Mr. Netanyahu, for being 
here today. Let me just say, first of all, that if one purpose 
of the despicable act of September 11th was to deter in any way 
our commitment to freedom and our support for democratic allies 
like Israel, then it failed miserably. I am just really 
gratified with your saying that today we are all Americans. I 
am hoping that it is not just Israel, but all of the civilized 
world feels that when that attack occurred that we, all 
civilizations, we are all Americans and in grief and defiance. 
I appreciate that.
    Let me ask you this as part of our coalition now against 
terrorism. If you can, what are the ways that Israel is going 
to be--what role do you see Israel playing with us?
    Mr. Netanyahu. Israel has been leading the battle against 
international terrorism for a long time because we have been on 
the front line. We have simply been on the geographic cutting 
edge, facing this militancy in geographic terms. So we have had 
to fight to stay alive. We have had to roll back the tide of 
terrorism. And I think that in this we continue to do so. We 
have been sharing our experience, our knowledge and our 
intelligence with the United States, and undoubtedly this is 
being done as we speak. That was a matter of course.
    I can tell you that in my tenure as Prime Minister there 
was never a day, I don't think a single day, in which Israel 
did not pass on to the United States intelligence of substance. 
And may I say that it worked the other way around, too. Always. 
So I think you have that. But also in times of action, Israel 
is there. We are if you will, the Western position, the 
reliable Western position in the Middle East. We cannot have 
any coups. We have, as you know, periodic changes of 
government. People actually vote in the heart of the Middle 
East and we change governments, but this doesn't change. Israel 
stands behind America, and I am quite sure and I am happy to 
hear from you, Congresswoman, that America will continue to 
stand behind Israel. I think that we have to neutralize the 
terror attack that comes from that part of the terror network 
that is directed at us. We can do so pretty much on our own, 
but we need your understanding, your understanding in the 
international scene and unfortunately until recently your 
understanding and support in such forms as the Security 
Council, which often had supporters of this very terrorism 
directed against us, seeking not to punish the terrorists but 
Israel that defends itself.
    As far as Israel's role, precise role in the international 
battle against terrorism, I believe that is something that 
should be discussed between the leaders of our two countries, 
the governments of our two countries right now, in concrete 
terms. It is not something that I think would be wise to 
discuss here except to formulate the principles that I said 
earlier; namely, that obviously all the democracies that agree 
that they must take a stand and fight against terrorism should 
be part of that coalition. Others will join later. Of that I 
have no doubt. But also that we must ensure that the terror 
sponsoring regimes that are not part of this coalition, we must 
demand that they dismantle their terrorist apparatus.
    Ms. Schakowsky. Let me ask you this: What are the limits to 
our use of force? Are there? For example, would you rule out 
the offensive use of nuclear weapons, for instance?
    Mr. Netanyahu. Congresswoman Schakowsky, I don't think that 
we are faced with as powerful an enemy as the Axis powers in 
World War II. In other words, it is equally fanatic. There is 
no difference as far as I am concerned with this militant 
Islamic terrorism and Nazism. It is, by the way, different from 
communism, as I said before. Communism didn't have an after 
life to offer the adherents, as you know. Here they not only 
have an after life but they use it in a twisted way to reward 
the most dastardly deeds. You get this paradise. I won't 
describe to you what they are offered in paradise. We will 
dispense with that but inquire on your own. It is quite 
astounding what they do to these people, and so you have here 
this mad fanaticism that like Nazism knows no bounds. But if I 
have to compare the power of Nazi Germany and Imperial Japan 
with the power of the terrorist networks it is well, well, well 
below their power today. Tomorrow it could be different if they 
acquire nuclear weapons. But today they are much weaker. And 
therefore while there has to be a global war of the democracies 
and certainly led by the United States, by the democracy, the 
largest democracy of them all, the effort that is required is, 
I would say, not as encompassing as that previous world war. It 
does not bring us to quite those levels if we act today.
    If we act today, it is within our power to use means that 
we have available and not necessarily all the means we have 
available. If we don't act today, and they acquire nuclear 
weapons, then I cannot tell you what will happen. Then the 
clock will stop. Then something that is unfathomable could 
happen. Unfathomable. When I described the bombing of the Trade 
Center a few years ago, it was seen as this, you know, rantings 
of irresponsibility. Every one of us can imagine what would 
happen, or maybe we can't imagine what would happen if a 
terrorist state or one of its proxies would drop nuclear bombs 
on New York or in Washington. It is not about to happen, it is 
not right around the corner. But inexorably it probably will 
happen. It will happen if we don't stop it now or it certainly 
could happen. We have to remove that ``could.''
    I would say this is the main message that I give you today, 
is that we could witness horrors that would make the 
heartbreaking carnage in New York and not far from here seem 
pale by comparison. And that is a sober and realistic 
assessment of where we stand today. So we don't require quite 
the effort that we needed against Nazi Germany and Imperial 
Japan. But we will require untold efforts if the enemies of 
freedom acquired nuclear weapons, and we must not let that 
happen.
    Mr. Shays. Mr. Horn, you are recognized.
    Mr. Horn. Thank you very much, Mr. Chairman. It is a 
pleasure to see you again. Sorry I haven't been in the 
questioning before. I was going to put the question to you. You 
have Arabs within the boundaries of Israel that have worked 
there over the years. There are Arabs represented in the 
Knesset.
    You go to find Hamas and Arafat, who just plain lie, and 
they get this complete misuse of children--and we saw that on 
the television of the United States when they're all saying, 
isn't it wonderful that the towers are coming down and 
thousands of people are going down? And I'm just curious, how 
are you going to handle that when you've got Arabs, which I'm 
sure some of them would like to be within Israel and might well 
have jobs and professions there, and how will you handle that 
to separate the terrorists and the people that could easily be 
swayed one way or the other?
    Mr. Netanyahu. Congressman Horn, I think that Israeli 
democracy, like American democracy, is sufficiently strong to 
strike a balance between our need for security and our respect 
for our--all our citizens, Arab and Jews alike. I think the 
danger is that when terrorism is unchecked and fanaticism is 
unchecked, it starts affecting other populations.
    We had a warning signal the other day when an Israeli Arab, 
who had been in the Palestinian Arabs--an Israeli Arab citizen 
had been in the Palestinian area, which as you know is a 
separate regime, is not--by the way, you understand that Israel 
no longer occupies, quote, any Palestinians. 100 percent--maybe 
I'm wrong--maybe it's 99.9 percent of the Palestinians are 
governed by Arafat. Israel doesn't govern Ramallah or Gaza or 
any place else. They live, for better or worse--some say for 
worse, but that is not my point right now--they live under 
Arafat. We have a dispute about territories that are empty of 
Palestinians, the disputed territories. That is, Arafat 
controls all the areas where the Palestinian population lives, 
100 percent of it.
    The areas that are contested in the normal course of 
diplomatic negotiations, for example, the ones I had in the Wye 
River Conference, are the areas which are empty of 
Palestinians, virtual uninhabited, but they are replete with 
historical significance for us as part of our homeland 
historically for thousands of years, and they're replete with 
security significance in Israel that would otherwise be 10 
miles wide, facing the likes of Syria, Iraq and the entire 
eastern militant front.
    I stress that point because that problem, as difficult as 
it is, would probably have been resolved if it had been a 
territorial one. I believe it could be solved if it's not an 
existential problem. But what we've discovered in the past few 
years, virtually all of the people of Israel, is that the 
reason the conflict with the Palestinians doesn't get solved is 
because it is not a territorial problem but an existential 
problem, that is, basic opposition to Israel's very existence 
and that is fermented from within the Palestinian areas by this 
mentality of, among other things, that prepares suicide 
bombers.
    The Israeli Arab community has been immune to this. The 
Arab citizens of Israel for very long were immune to it, but 
the other day we had an Israeli Arab who had gone and crossed 
over to the Palestinian areas, had been inculcated there, came 
back and became a suicide bomber. By the way, not a young man. 
I think 55, 56-year-old person. And that's very disturbing. And 
in fact, it is--I think it tells you something larger and 
significant for our battle against terrorism.
    Terrorism and the terrorist militancy has the unfortunate 
quality of expanding when it thinks it identifies weakness. 
And, by the way, it contracts accordingly. So one of the things 
we have to do, we in Israel, you in the United States, all of 
us together, along with the rest of the democracies, what we 
have to do, having now been faced with the awful horrors of 
today, of the present and those that can confront us in the 
future, what we have to do is, above all, show strength, show 
strength.
    If we show weakness and vacillation, if we hesitate, if we 
start--forgive me, if we start pussyfooting, if we're not clear 
about the complete, absolute rejection of terrorism everywhere 
and our absolute willingness to take very, very strong action 
against everyone who practices terrorism, then the terrorists 
will continue. If we don't take this action, then the 
terrorists and the Islamic militancy that backs them up will 
see this as weak, and if it's weak, they can do more and more 
and more.
    The thing that we can do about terrorists is to take action 
against their bases. The thing that we can do against Islamic 
militancy is to show them that this madness that America is 
weak, that western civilization is weak and will collapse the 
way the Soviet rule in Afghanistan collapsed--that is their 
model they have in mind. We have to tell them it's not true. 
America is strong. The democracies are strong. Israel is 
strong. You will never defeat us, and we will continue to forge 
a new future for the entire world.
    When they understand that, for America, for the other 
western countries, for Japan, for Israel, then you will see 
this danger recede from without and indeed from within as well.
    Mr. Shays. I recognize Mrs. Maloney, actually from the city 
of New York. Mr. Owens is here, too, from the city of New York.
    Mr. Netanyahu. Congressman Shays, I must thank you for this 
tremendous hospitality, and I'd love to take these questions, 
and I will, but I want to say that because of the somewhat 
tardy arrangement of schedules, I'm going to have to leave 
shortly. Normally, I say this in a speech. I say, you can ask 
me all the questions you have, but in 3 minutes I'm leaving. It 
is not 3 minutes, but----
    Mr. Shays. Give us your time, sir. Do you have 10 more 
minutes?
    Mr. Netanyahu. Yes, I do, and I apologize for bringing up 
the problem of the schedule.
    Mr. Shays. Well, then we're going to--Mrs. Maloney, you're 
going to start, and we'll see about--you have the floor. Let's 
get to it.
    Mrs. Maloney. Thank you so much for coming and sharing your 
unique experiences. You've certainly been at the forefront of 
studying international terrorism, and thank you for sharing 
this story of your brother Yoni who lost his life fighting 
international terrorism.
    I really am concerned about press reports that were in 
Reuters and in the L.A. Times that stated that Israeli military 
intelligence may have warned the United States 6 weeks ago of 
the possibility of a major attack and that Iraq may have 
provided support and assistance for the September 11th attack. 
And I'd like to know if you are familiar with the reports that 
the Mossad, the intelligence agency, allegedly to our FBI and 
CIA that we were, quote, large-scale targets, that Americans 
would be vulnerable. And what, in your sense, is--why our 
intelligence, the American intelligence, did not respond like 
they have been responding now to this great threat of terrorism 
in our own country and soil, and your comments and your wisdom?
    Mr. Netanyahu. Congresswoman Maloney, I'm familiar with the 
press reports, but I couldn't comment on their accuracy.
    Mrs. Maloney. You cannot comment on it?
    Mr. Netanyahu. I'm simply not in a position to know of the 
transfer of intelligence in the last few weeks. I haven't 
looked into that.
    Mrs. Maloney. Could you give us some understanding of what 
is the current threat or capability of terrorist organizations, 
including Osama bin Laden's group, to use biological and 
chemical warfare here in the United States, and how are we 
prepared to counteract this type of terrible attack?
    Mr. Netanyahu. Chemical and biological weapons are by 
several orders of magnitude easier to produce than nuclear 
weapons. They're just in a different league altogether. There's 
no requirement for very complex engineering and physical--
knowledge of physics and other things that simply are not--do 
not stand in the way of producing these weapons, some of which 
are fairly easy to assemble. So we have to assume that sooner 
or later, possibly sooner rather than later, the Osama bin 
Ladens of the world will get their hands on this, either by 
being volitionally offered such weapons by regimes that have 
them or by--and having the ingenuity to make them.
    If we learn one thing from the experience of this attack, 
it was meticulously, rigorously planned as a military act of 
war, a military operation par excellence. It was timed with a 
ghoulish perfection. It was done by a mind or minds that are 
able to overcome the difficulties--eventually are able to 
overcome, I'm sure, the difficulties of assembling much more 
potent weapons.
    Mr. Shays. Prime minister, we have four more members. 
They're going to try to accommodate you so you get out at 15 
after.
    Mr. Netanyahu. I'll try to accommodate, as I said, with 
shorter answers, yes, sir.
    Mr. Shays. Mr. Mica will be recognized, and then we're 
going to go to Mr. Davis and then Mr. Blagojevich and then Mr. 
Clay.
    Mr. Mica. I just have actually two short questions. One you 
can answer, if you recall. I was just curious as to how many 
Israelis have been killed in terrorist attacks over the last, 
say, decade.
    The other question is, you're familiar, of course, with 
your whole network of dealing with terrorism, and I understand 
it's pretty much--there's some central control and 
coordination. You're probably familiar with the United States' 
efforts, and we have some 30 agencies spread out. What would be 
your advice to us on organization and how we might improve our 
approach, based on, again, what you've operated--of course, you 
have a smaller country, been under great threat. We have a 
larger country, larger agencies but sort of a disorganized 
effort.
    Mr. Netanyahu. Well, the number roughly is about 400 since 
the Oslo process began. This was the process that was supposed 
to end all terror, and it ended up producing the greatest 
terror that we've seen. Israel is about 1/60th the population 
of the United States, so that would be equal to 24,000 
Americans dead in a country that is 6 million strong.
    It's been a very heavy price indeed, but, as you see, 
Israel stands strong, and the people are united, just as 
they're united in the United States, to ward off this evil.
    As far as the complexity of counterterrorism or 
intelligence organizations as a whole, this is an interesting 
problem. If you have one central repository of intelligence, 
which you normally should have, then you run into the risk that 
additional sources of information or the--I would say 
additional points of view will be lost by one conception.
    For example, Israel, after the Yom Kippur War, came to the 
conclusion that it had one fixed conception by the main agent 
of our intelligence, and so we actually went around to the 
other side of diversifying the intelligence and letting the 
leaders receive a lot of our intelligence. I spent at least an 
hour and a half each day, each day of the 3 years that I was 
prime minister, going over raw material of intelligence that 
came from all the various arms of intelligence just so that 
they would not be lost.
    So I think you have to strike a balance here between the 
number of gathering agencies that you have and the sifting of 
information upwards. It is a very delicate balance.
    I'm not sure I could give you a better formula than the one 
we have, but, in any case, I want to tell you that, whatever 
you do about intelligence, don't pin on it the hopes to deliver 
what it cannot. You know, if you look for a pin in a haystack, 
it's gong to be very hard. It's much better to remove the 
haystack, and there are lots of haystacks of terrorism. Get rid 
of them as best you can.
    Because looking for the pin--you know, if you play their 
game, it's going to be very hard. It is not quite true that we 
don't know who does it. We do know. Especially we know--we know 
this. We know that terrorists can hide, but we know the regimes 
cannot hide, and once they know that you know and you're 
willing to take action, you'll see how quickly the equation 
changes.
    Now, they're going to threaten you. The minute you take 
action, they will threaten you. They will even maybe take 
action against you and you'll have an inevitable exchange of 
blows and counterblows. But as they see over time--first of 
all, your blows are a lot harder, a lot. As they see over time 
that you're prepared to take out the haystack, they will stop, 
and if they don't stop, then you have to go from deterrence to 
something else.
    Mr. Shays. Mr. Netanyahu, they're in your hands. You have 
three final questioners. They will just ask a question or two, 
and then your answers will be to their questions. We have Mr. 
Davis, then Mr. Blagojevich and then Mr. Clay, all from 
Illinois and from Missouri.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Prime Minister, let me thank you for coming. I know the 
difficulty that you may have had getting here. I was actually 
in Tel-Aviv at the time the terrorists struck, and on my way to 
Dimonia, meeting with members of the Black Hebrew Israelites. 
I've always been amazed at the ability of people in the Middle 
East, both Arabs and Israelis, to cope with the level of 
terrorism, violence, constant threat of violence. We have not 
experienced that to this level in this country. We've been most 
fortunate. We've not had an actual war in a long time. None of 
us have had that experience.
    What would you say to the American people, relative to 
their ability to cope in this stressful period, as we try to 
find solutions and work our way out?
    Mr. Netanyahu. Mr. Davis, I would be as short as I can. Not 
for the sake of brevity, but because I think this is the most 
concise answer I can give you. I would read to them the book of 
Joshua, which says, be strong and of good courage, and you 
shall win the day. That is what is required today of America 
and of all free societies.
    Mr. Davis of Illinois. Well, I would certainly agree and 
thank you very much. And I must confess that Joshua is one of 
my favorites, too.
    Mr. Netanyahu. Thank you.
    Mr. Shays. Mr. Blagojevich.
    Mr. Blagojevich. I'll make this brief, Mr. Prime Minister.
    Just as you were finishing with Congressman Mica's 
question, if you remove the haystack and they still persist--
and then you were interrupted. What were you going to say?
    Mr. Netanyahu. I'm saying you have gradations of action. 
One is to deter by the application of sanctions. The second is 
to actually go in and take out terrorist bases. The third is to 
act militarily against an offending regime and act to the point 
of dismantling the regime. This is more or less the gradations 
that you have.
    You have taken that action, for example, in Yugoslavia. You 
acted, by the way, without ground force. You induced a change 
of the regime and that stopped the aggressive action and you 
induced the change of the regime.
    I'm saying that there are a variety of things that you can 
do, and whether or not you want to go the whole gamut depends 
really on what you're facing, what kind of behavior results in 
the action that you take, and you should monitor that.
    And, by the way, you have enough intelligence to monitor 
that. It's much easier to monitor a regime than to monitor one 
of the foot soldiers of that regime. It's a totally different 
issue. So our intelligence is good enough to address the home 
base always. It's good enough for that.
    Mr. Blagojevich. In your experience, when you address the 
regime that is harboring the terrorist cell and you're 
successful, by and large----
    Mr. Netanyahu. By and large, yes, by and large, yes.
    Mr. Blagojevich [continuing]. Then you find that the 
terrorist activity decreases or----
    Mr. Netanyahu. It stops.
    Mr. Blagojevich. It stops?
    Mr. Netanyahu. Yeah.
    Mr. Blagojevich. Great. Thank you.
    Mr. Netanyahu. There were many instances in which it 
stopped, but I think what has happened is that over the last 
decade--well, I'll give you one example of how it stopped, 
because this is not a one-shot deal, but all of you are 
familiar with a form of terrorism that was totally based on 
international support and state support that was eliminated. I 
had a big argument on this in the 1970's, and I would say 
happily some of the people in this city did the right policy 
and eliminated terrorism.
    Remember, we used to have airline hijackings as a matter of 
course, I mean, every day. Not suicide bombings, every day. A 
plane was hijacked here and there, would fly to Libya. It would 
fly to Algeria and so on.
    The minute you took action against the offending states and 
they knew that their citizens couldn't take off anywhere or 
they could suffer much worse actions and did, then it stopped. 
And until this last bout of suicide bombers, we had close to 20 
years of relative quiet, relative tranquility in the skies, 
simply because the home base of terrorism could not be used to 
accept the hijackers--or to launch them. See, the cost was too 
heavy, so it stopped.
    Now we're faced with a more strident militancy, again, that 
seeks to work ostensibly in the shadows. But make no mistake 
about it, if you go after the home states, if you apply the 
measures that I discussed, you might see an exchange of blows 
initially, but you will see a decline, and a rapid one.
    Mr. Blagojevich. Thank you.
    Mr. Shays. Mr. Clay is your last questioner.
    Mr. Clay. Mr. Chairman, very quickly.
    Mr. Netanyahu, in Israel it seems like terrorism is a fact 
of life. Can we expect suicide bombers here in this country, 
and is there any way to end this for Americans to fight it?
    Mr. Netanyahu. Suicide bombers are only the tip of the 
iceberg. There is a system that is manned by people, who by the 
way generally don't want to die. They want to live in order to 
kill another day. So there is a whole system that prepares the 
suicide, that takes care of its family, that arms them, that 
plots the attack.
    We in Israel, for example, see them giving them TNT, taking 
them to the target, preparing them mentally, psychologically 
for this, giving all sorts of promises, theological promises to 
them about the afterlife and so on. So there's a whole network, 
a whole system behind this, just as there is a whole system 
behind this. And that system, again, is not--at this point, at 
least--suicidal. It wants to--at least it wants to dispatch 
more and more. It wants to live to kill. So I think that--and 
it is based on the states that give shelter to the system. So 
you have to go to the base of the pyramid and not only to the 
top.
    Can you expect more suicide bombers? You have to, if you're 
logical, because it's still out there. It's still out there. 
It's not finished. Whether or not they will strike, I don't 
know, but I'm sure--this is just a guess--I'm guessing that 
whoever planned this anticipated--must have anticipated--must 
have anticipated today that the United States will respond and 
probably has in the cartridge, so to speak, more attacks.
    That is there. That we have to--you have to realistically 
assume that. Although I have no information whatsoever about 
that specifically at this time, but I can say that over time 
they cannot reload the cartridge without states. They just 
cannot do that. Now, they can shoot what they have, but they 
cannot overtime reload the magazine. And that is what really is 
expected to take away the capacity, to launch terrorists over 
time, and that can only be done if, in addition to the 
terrorist organizations, you target the states that support 
them.
    I want to thank you, Mr. Shays, and I want to thank each of 
you, Congresswomen and Congressmen, for giving me this 
opportunity to speak to you. It's a great honor, and I 
appreciate it. Thank you.
    Mr. Shays. Mr. Prime Minister, we want you to be safe, and 
there are many of us--I'm certainly one of them--who considers 
you, frankly, the Winston Churchill of our times. Thank you for 
being here.
    Mr. Netanyahu. Thank you very much.
    Mr. Shays. We'll have, like, 3 or 4 minutes just to enable 
the Prime Minister to say good-bye to people, and then we will 
call our next--so we'll have just a slight recess of 3 to 5 
minutes.
    [Recess.]
    Mr. Shays. I'd like to call the hearing to order. I'd like 
to welcome General Anthony Zinni, Dr. Christopher Harmon, Dr. 
Jessica Stern to our panel. I'm going to ask all three of you 
to stand. We do--if you're a former Prime Minister of a 
country, we probably won't swear you in, but why don't you move 
over, Dr. Stern, and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. I would note for the record that all of our 
witnesses have responded in the affirmative. And please be 
seated.
    Let me say to you that you won't have the latitude that the 
Prime Minister had, but we don't have a lot of members here, so 
that gives us a little more latitude.
    We have a 5-minute clock. We roll it over 5 minutes, but, 
after 10, we would stop you. The clock is right in front, that 
little light that will be green, and it goes to--but, at any 
rate, you have a total of 10 minutes, but 5 is the first time 
it goes through.
    All right. Welcome. General, we'll start with you.

STATEMENTS OF GENERAL ANTHONY ZINNI, U.S. MARINES, RETIRED; DR. 
 CHRISTOPHER HARMON, PROFESSOR, U.S. MARINE CORPS COMMAND AND 
    STAFF COLLEGE; AND DR. JESSICA STERN, HARVARD UNIVERSITY

    General Zinni. Well, Mr. Chairman, I will dispense with an 
opening statement. I think the questions will bring out all the 
points I'd like to bring out. So I'll defer to my colleagues.
    Mr. Shays. Dr. Harmon, we do want a testimony if you'd like 
to give it, so don't be reluctant.
    Mr. Harmon. Thank you. I'm very honored to be here with you 
today.
    I'm a professor of international relations----
    Mr. Shays. We're going to have you pull the mic a lot 
closer. Move that in front.
    Mr. Harmon. Yes. Thank you, Mr. Chairman.
    I'm a professor of international relations. I work for the 
Marines, but I think really I've been asked here, and I'm 
coming here to speak, as an individual scholar and author of a 
book on terrorism.
    I think that Americans now are very well aware of how 
varied a phenomenon terrorism is. They understand that some of 
it's been rooted here in our country. Some of it's born 
overseas and stays there. Some of it's transnational, and 
that's the main problem with September 11th.
    We do seem to be facing something like a militant Muslim 
international. It's not precisely like the Bolshevik 
international of the 1920's or 1930's, because its motivations 
are different and so is its degree of centralization. But it is 
akin, I would say, to the less formal coalition of 
international Communist groups of the 1960's and 1970's and 
1980's. That is, a coalition of front groups, terrorists, 
radical states and some powerful central governments.
    This new militant Muslim international is wide in its 
appeal and global in its operations. It seems feverish in its 
faith. It is profoundly angry at its enemies and, of course, 
those begin not with Americans but with moderate Arab regimes 
and others. And it seems well versed in ideology. It's versed 
in ideology, not mere momentary heat or inspiration. It's so 
combative that some within it defy all sense of self-
preservation, and it's well-financed, well-educated and so 
forth.
    Let me add a few words about some of those.
    Religion should be a source of enlightenment and soothing 
spirits, but, in some cases, it's been twisted into blood lust. 
If we think about the 1993 case that precedes the recent 
tragedy of September, we remember Sheik Abd al-Rahman, who 
arrived here from Egypt and the Sudan, who put together a 
multinational coalition of persons and did all the damage they 
could to the city of New York. Militarized religion was one of 
the motives there. Ramzi Yousef said himself his group that did 
that act in 1993 was an ``international movement concerned with 
affairs of the world's Islamic armed movement.''
    A second major problem is our foreign policy--not for me 
but for those who perpetrate these acts. We can read the 
charter of Hamas, which almost no one does. We can look at the 
new training manual of the bin Laden organization, which is 
called, Military Studies in the Jihad Against Tyrants, and we 
can see the way in which our foreign policy is damned by these 
groups.
    One of the 1993 New York City bombers, Nidal Ayyad, sent a 
letter explaining his motives, ``the American people are 
responsible for the actions of their government . . .'' and so, 
``Americans will be the targets of our operations.''
    A third major feature is the willingness of these groups to 
kill a large number of civilians. That's true of the Algerian 
group, Armed Islamic Group, it's true of Hamas, which means 
Islamic Resistance Movement. It's true of Osama bin Laden, who 
tells us as much in his 1998 fatwa, which explicitly threatens 
all Americans, both military and civilian. And to go back to 
the 1993 case in New York, one of the plotters there said his 
purpose was, to, ``demoralize the enemies of Allah by 
destroying and blowing up the pillars of their civilization.''
    On the operational level, these groups are remarkably 
mobile. They have very fine communications sometimes. They use 
everything from couriers with computer disks, to cell phones, 
to encrypted data on the Internet, to flight on airplanes and 
transit. Many men have been available to do bin Laden's work in 
many different places. They operate well in Europe, which is 
rich, which has many media outlets, which is generous to them 
and gentle in most of its immigration laws.
    Now, they use a cell structure which has never been better 
explained publicly than in the famous film, ``The Battle of 
Algiers,'' in which is shown the way in which a clandestine 
organization can form and operate and, while never 
impenetrable, reduce some of its counterintelligence problems.
    This front has been well funded. I admire Judith Miller's 
work in the New York Times and some of the others who have 
looked into the financing of the Muslim militant movement.
    And the last point I want to make is of sovereign states, 
so much dwelled upon by the Prime Minister. This movement is 
extremely diverse, and it does have state backers. They include 
Afghanistan and Pakistan, but they also have included Iran and 
the Sudan. Iran doesn't really like the Taliban. There may be 
some inclusion by of Iraq. Certainly there are some independent 
operators, like those who showed up in Bosnia quite 
unrequested.
    There are differences within this movement. It encompasses 
Sunni versus Shia, or Sunni and Shia. It encompasses Iran and 
Libya. It includes the Palestinians of Hamas, but also the 
Lebanese of Hezbollah. I think there is, therefore, an evident 
movement which requires our attention; and I would agree with 
what Representative Lantos said this morning, which is that if 
bin Laden goes away or is done away with, that will only be the 
beginning of the effort that's required.
    Thank you, sir.
    Mr. Shays. Thank you, Dr. Harmon.
    [The prepared statement of Mr. Harmon follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.044
    
    [GRAPHIC] [TIFF OMITTED] T7229.045
    
    [GRAPHIC] [TIFF OMITTED] T7229.046
    
    [GRAPHIC] [TIFF OMITTED] T7229.047
    
    [GRAPHIC] [TIFF OMITTED] T7229.048
    
    [GRAPHIC] [TIFF OMITTED] T7229.049
    
    [GRAPHIC] [TIFF OMITTED] T7229.050
    
    [GRAPHIC] [TIFF OMITTED] T7229.051
    
    [GRAPHIC] [TIFF OMITTED] T7229.052
    
    [GRAPHIC] [TIFF OMITTED] T7229.053
    
    [GRAPHIC] [TIFF OMITTED] T7229.054
    
    [GRAPHIC] [TIFF OMITTED] T7229.055
    
    Mr. Shays. Dr. Stern. Put it nice and close to you.
    You'll have to bring it closer than that. Thank you.
    Ms. Stern. Mr. Chairman and distinguished members of the 
committee, it is a great honor to be able to appear before you 
today to discuss this important subject. Let me begin by 
expressing my deep sorrow to the victims and families impacted 
by the tragic events of September 11th. My thoughts are with 
them.
    Mr. Chairman, a war on terrorism must be fought on many 
fronts, using every tool at government's disposal--diplomacy, 
intelligence, and when we identify the perpetrators, military 
strikes. But force is not nearly enough. Our goal should be to 
drain the swamps where extremists thrive, and that implies a 
combination of measures: stopping the flow of money to these 
groups, intelligence cooperation and military force. But most 
importantly, it implies understanding that failed and failing 
states are important sanctuaries, as well as sources of 
recruits for extremist movements. When we talk about Pearl 
Harbor, we should also be thinking of the Marshall Plan.
    Several surprising facts about bin Laden's group came to 
light during the trials of the men informed in the 1998 attack 
against U.S. Embassies in Africa, and those facts reveal how 
well-organized, sophisticated and elusive a network we're up 
against. Government officials estimate that bin Laden's 
organization has thousands of operatives who are active or 
suspected to be active in 34 countries, including in the United 
States.
    But the threat doesn't come from bin Laden's group alone. 
Many groups, such as the Egyptian Islamic Jihad, Algerian 
Islamic Group, are closely affiliated with al Qaeda. They train 
at his camps and carry out bin Laden's objectives. Bin Laden is 
probably correct that if the U.S. Government kills him, 
hundreds of Osamas are prepared to take his place. The al Qaeda 
and others like it that I've studied have wings that handle 
finance, documents, public relations and intelligence. They run 
businesses. They conduct surveillance of enemy targets. They 
cultivate journalists to ensure favorable coverage in the 
press.
    And by the way, they also cultivate me. They have 
sophisticated Web sites for both fundraising and recruiting. 
Clerics teach operatives that killing civilians is allowed.
    Like any conventional business, the group includes both 
skilled and unskilled labor and money can be an important 
component. A former Sudanese member of al Qaeda, Jamal Ahmed 
Al-Fadl, said that he was paid a monthly salary of $500, while 
Egypt's members made up to three times as much. When he asked 
bin Laden, why are the Egyptian members making so much more 
money, bin Laden responded, well, they have passports and other 
job opportunities. In other words, bin Laden is paying these 
guys the opportunity costs for their time, like a CEO.
    Like other business managers, bin Laden also needed to 
recruit unskilled labor. K.K. Mohamed, for example, received no 
monetary compensation for his efforts, which involved acquiring 
a truck and acquiring explosives; and given his role in the 
Embassy bombing in Tanzania, he'll spend the rest of his life 
in jail.
    But the group also reported undergoing training in 
engineering and to pilot planes. One talked about purchasing 
the plane with a goal of transporting equipment, including 
Stinger missiles from Peshawar to Khartoum.
    This group, and others like it that I have studied, has 
thought carefully about evading law enforcement detection. And 
if you're interested in that, I urge you to take a look at that 
manual--I won't go into details--the manual that Dr. Harmon 
just mentioned.
    The most important aspect of training militants is, 
actually, mental training. It takes relatively little time and 
effort to learn to fly a plane; many people can do that. But 
training someone mentally to carry out suicide mass casualty 
attacks is more difficult.
    The Taliban were actually born out of extremist madrassahs 
in Pakistan. These schools function as orphanages. Families 
that cannot afford to feed their children send them to these 
schools where--send them to these schools where they are 
educated, but also fed and housed. Madrassahs I have visited 
have children from Afghanistan, Bangladesh, Burma, Chechnya, 
Kuwait, Mongolia, Nepal, Russia, Tajikistan, Turkey, 
Uzbekistan, and Yemen. This helps to give us a sense of what 
we're talking about here. In a school that purportedly offered 
a broad curriculum, a teacher I questioned could not multiply 7 
times 8.
    Pakistan is prepared to assist the international coalition 
on the basis of principle. It does not expect a quid pro quo 
according to its officials. But, still, now would be a good 
time to offer assistance because it is in U.S. national 
security interests to do so. If we inadvertently turn Pakistan 
into a second Afghanistan, the results would be disastrous not 
only for India, but for the entire world.
    How can we help Pakistan? Pakistan has long been seeking 
market access for its textiles. Opening our markets would 
translate into $300 to $400 million according to the Pakistani 
Embassy, which could make a crucial difference to Pakistan's 
economy. We should also be considering debt relief.
    We need to help Pakistan especially in the areas of health 
care and education. It may even make sense to make some of 
these efforts visible. The extremists groups that I interview 
are unlikely to change their minds, but we can reduce their 
ability to mobilize others, and that is really critical.
    We need to think about how to undermine these groups' 
appeal. Islam strictly prohibits targeting innocent civilians. 
Religious scholars need to get out the message, loud and clear, 
that bin Laden's version of Islam is a grotesque distortion of 
their faith. Those scholars should be speaking out, not just in 
America, but all over the world.
    Finally, we have to learn to dictate less and listen more, 
as Joseph Nye argues in a forthcoming book on America's soft 
power. We have a stake in the welfare of other peoples and need 
to devote a much higher priority to health, education and 
economic development, or new Osamas will continue to arise.
    I have some additional material that I would like to give 
you for the record.
    Mr. Shays. Thank you very much.
    [The prepared statement of Ms. Stern follows:]

    [GRAPHIC] [TIFF OMITTED] T7229.056
    
    [GRAPHIC] [TIFF OMITTED] T7229.057
    
    [GRAPHIC] [TIFF OMITTED] T7229.058
    
    [GRAPHIC] [TIFF OMITTED] T7229.059
    
    [GRAPHIC] [TIFF OMITTED] T7229.060
    
    [GRAPHIC] [TIFF OMITTED] T7229.061
    
    [GRAPHIC] [TIFF OMITTED] T7229.062
    
    [GRAPHIC] [TIFF OMITTED] T7229.063
    
    [GRAPHIC] [TIFF OMITTED] T7229.064
    
    [GRAPHIC] [TIFF OMITTED] T7229.065
    
    [GRAPHIC] [TIFF OMITTED] T7229.066
    
    [GRAPHIC] [TIFF OMITTED] T7229.067
    
    [GRAPHIC] [TIFF OMITTED] T7229.068
    
    [GRAPHIC] [TIFF OMITTED] T7229.069
    
    [GRAPHIC] [TIFF OMITTED] T7229.070
    
    [GRAPHIC] [TIFF OMITTED] T7229.071
    
    [GRAPHIC] [TIFF OMITTED] T7229.072
    
    [GRAPHIC] [TIFF OMITTED] T7229.073
    
    [GRAPHIC] [TIFF OMITTED] T7229.074
    
    [GRAPHIC] [TIFF OMITTED] T7229.075
    
    [GRAPHIC] [TIFF OMITTED] T7229.076
    
    [GRAPHIC] [TIFF OMITTED] T7229.077
    
    [GRAPHIC] [TIFF OMITTED] T7229.078
    
    [GRAPHIC] [TIFF OMITTED] T7229.079
    
    [GRAPHIC] [TIFF OMITTED] T7229.080
    
    Mr. Shays. I'm going to recognize our chairman first, but I 
will tell you the question I'm ultimately going to ask, so if 
the others of you could think about it when the chairman is 
asking his questions, I'd like to know where you would agree 
and disagree with what you heard the Prime Minister say and 
what you would emphasize about what he said and so on.
    So I'm just looking for the extremes--where you really 
strongly agree, where you would possibly disagree and where you 
would put the emphasis on what he said, because he said a lot. 
I think you all know that. And maybe that's one reason, 
General, why you're a man of few words at this moment.
    But, Mr. Chairman, you have as much time as you'd like to 
consume.
    Mr. Burton. I'll try not to abuse the privilege, Mr. 
Chairman.
    Let me just start off by saying, as I understand it, Dr. 
Stern, you're saying that there ought to be some kind of a 
Marshall Plan up front for allies like Pakistan, so that we can 
dissuade some of the people who might be swayed by economic 
matters to joining the terrorists?
    Ms. Stern. Well, I think that we really ought to be helping 
Pakistan educate its youth. I think that those madrassahs are 
an important component of the Jihad International Inc., and 
what else we've got to be doing initially before we go forward 
is--it does seem to me that Pakistan is ready to assist us, 
and, therefore, we have to have that Marshall Plan. We would 
need to develop that Marshall Plan right now. It's not that we 
need to pour money into Pakistan instantly, but we need to be 
ready. We don't want to turn Pakistan into Afghanistan. It's a 
real danger.
    Mr. Burton. So you think we ought to start moving that 
direction right away?
    Ms. Stern. We ought to start planning it.
    Mr. Burton. OK.
    General, you worked with Pakistan, and you were with them, 
I guess, during the problems we had in Somalia. You were the 
commander in chief of CENTCOM at that time. What was your 
assessment of the Pakistanis in that conflict?
    General Zinni. Well, they were truly heroic. The Pakistanis 
suffered--I think it was 135 killed, more than any other force. 
When we were bringing in coalition partners and, of course, 
trying to give coalition partners some of the tough duty, like 
the city of Mogadishu or some of the difficult outlying areas, 
Pakistani brigade voluntarily took on the heart of the city, 
and they paid a big price for it.
    I also commanded the force that covered the withdrawal of 
the U.N. Forces, and the Pakistani brigades were the last ones 
on the beach, except for our forces. We conducted nine tactical 
maneuvers, all at night, extremely difficult, passage of lines, 
release in place; doing it with an ally that doesn't even 
operate under the same doctrine is extremely difficult. They 
were highly professional, and they're greatly appreciative of 
what we did.
    I would also say, Congressman, that after the millennium 
bombings or alleged preparations for attack were in Jordan, the 
Jordanians coughed up a number of terrorists ready to attack a 
number of civilians, and we picked up the terrorists trying to 
come through the Canadian border to LAX. I was asked, because 
of my relationship with General Musharraf, to call him and ask 
him to apprehend the leaders of this effort who were identified 
as being in Pakistan along the Afghan border. He said, Of 
course, and he immediately apprehended them all.
    I was then asked to call him again to ask if he would allow 
our lawful and other agencies to have access to them, and he 
said, of course, send them right away.
    I was then asked to call him again and see if he would give 
up computer disks and other things that were confiscated, and 
he said, Of course.
    To make a long story short, I have asked to make five calls 
and he delivered under everyone of them. He wasn't under 
pressure and he knew he wasn't going to get anything for this. 
As a matter of fact, I said, this ought to be motivation for us 
to improve our relations. He said, I don't want anything for 
this. He said, it's the right thing to do.
    So that's been the kind of individual he's been. He leans 
toward the West. I think he wants more Western influence. His 
No. 1 concern in his army is that 70 percent of his officers 
have not been outside of Pakistan. Traditionally, it's been an 
international officer corps, educated offshore in many of our 
institutions, but now cutoff from that; and he worries about an 
army that has to turn inward and the influences of extremists.
    I think he's someone that we should help, as Dr. Stern 
says, and the country, not because we get something out of it, 
because as Dr. Stern says, we can't afford a Pakistan that 
becomes another Afghanistan.
    Mr. Burton. Very good.
    Let me just ask one more question. I see the red light came 
on, and I appreciate the generosity of the chairman.
    One of the questions that has not been asked, and I'm not 
sure you'll want to answer this question in open forum, but I'd 
like to pose it to you anyhow, and that is, I think--I can't 
remember whether it was Dr. Harmon or Dr. Stern commented about 
a truckload of Stinger missiles.
    Was it you, Dr. Harmon?
    Mr. Harmon. It was Dr. Stern.
    Mr. Burton. And the concern I have is the Stinger missiles 
are shoulder-fired surface-to-air missiles that can bring down 
a plane.
    Do these terrorists have these kinds of weapons or access 
to them, and should we be concerned about that right now here 
in the United States?
    General Zinni. We have had reports that the terrorists do 
have Stinger missiles or their equivalent, Soviet model, I 
believe it's SA-7. As a matter of fact, as I mentioned, when we 
covered the withdrawal of the U.N. Forces out of Somalia, 
rumors of Stinger-like missiles caused us to have to do an all-
surface. In other words, we had to withdraw the entire force by 
sea for fear of bringing in heavy-lift air and the problems 
around Mogadishu airport.
    Obviously, during the Afghan war, the Afghans were provided 
with surface-to-air hand-held missiles, and there's been an 
attempt to account for all of those. I've never seen anything 
that absolutely confirmed, but I would strongly believe that 
they have those missiles, or have access, or could certainly 
buy them on the weapons market.
    Mr. Burton. Thank you, Mr. Chairman. I'll have some more 
questions later.
    Mr. Shays. Thank you very much.
    At this time the Chair would recognize Mr. Waxman.
    Dr. Harmon, I want you to put your mic a little closer. 
Move that, if you would, and get it a little closer.
    Mr. Waxman, you have the floor for at least 10 minutes and 
more if you need it.
    Mr. Waxman. Well, thank you very much, Mr. Chairman. I want 
to greet the three witnesses and apologize that I wasn't here 
for your testimony, but I had a conflict that I had to attend 
to.
    This is probably the most important issue before us I 
think, far above any other. There are all the other issues that 
are still pending, like what do we do with energy and 
electricity deregulation, what do we do with compensating 
health providers and things like that.
    We heard from former Prime Minister Netanyahu. I don't know 
if you were here to hear what he had to say, but he described 
the need to have a clear policy of sanctioning any state that 
allowed terrorism to operate within its borders, or gave 
support to terrorism.
    Now, he made a convincing case that terrorism, which is the 
intentional attack on innocent civilians, should not be 
acceptable under any circumstance. But how practical is such a 
policy as we now try to bring together a broad international 
coalition to deal with this problem and to strike back at those 
who attacked us last week?
    General Zinni, do you have any views on that?
    General Zinni. Well, I think there's the obvious problem of 
one man's terrorist is another man's freedom fighter. You're 
going to run into that. Certainly not in the case of Osama bin 
Laden. I think you'll find very few people who describe him as 
a freedom fighter or the kind of terrorist that we're talking 
about, that Dr. Stern, Dr. Harmon mentioned, who are directly 
informed in these sorts of activities.
    But if it becomes a blanket policy, I think it's going to 
be difficult on the fringes as we get into areas where it's 
unclear as to who is a terrorist or how we define them. I do 
think the Prime Minister's statement about terrorism as an 
attack on innocent civilians is not acceptable in any case, and 
I do think we ought to----
    Mr. Waxman. Terrorism is unacceptable, not his statement is 
unacceptable.
    Mr. Zinni. No. Terrorism is unacceptable; I'm sorry--that 
we should sanction any country that advocates or condones 
attacks on innocent civilians as a means of responding to 
whatever their political problems are.
    Mr. Waxman. Dr. Harmon, did you want to comment?
    Mr. Harmon. May I add something?
    I think that sanctioning states which harbor terrorist 
groups is quite practical for at least a couple of reasons. One 
is that all traditional law and modern international law, to 
the limited degree I understand them, bar a state from allowing 
its territory to be used as a refuge and as a base for 
operations against foreign states. Since that's a bedrock 
principle of international law and our U.S. foreign policy, I 
think we should use it and rely on it and push others to live 
up to it. And I think the Prime Minister's arguments do point 
in that direction.
    The second thing, as to this notion of just how well we can 
recognize terrorism, I was struck in 1997, December and also in 
1994, at two great summit meetings involving many dozens of 
Arab states, that they published the most extreme condemnations 
of terrorism, especially the kind committed in the name of 
Islam.
    I think Americans have heard so many commentators talk 
about the difference between real Muslim faith and Muslim 
militancy that would kill innocent people, that I think we 
understand that, and think we can rely on it. I think we can 
turn to a moderate Arab state and make every reasonable 
insistence that they help us in fighting terrorism. It's in 
their interest as much as ours.
    Hosni Mubarek went to Addis Ababa on a state visit in 1995 
and was nearly murdered by terrorists who came from the Sudan. 
It was completely reasonable that Egypt, after that, was 
infuriated by Sudanese behavior. It was reasonable that the 
United States and Egypt both joined in sponsoring sanctions in 
the U.N. against the Sudan, which I think have had some effect; 
and so I think it is practical, and I think it must be pursued.
    Mr. Waxman. We're now trying to bring together an 
international coalition to fight terrorism. I think the 
President is doing exactly the right thing, and I certainly 
support him. But prior to this time, we were resisting some 
international efforts--for example, the Biological Weapons 
Convention in 1972 which prohibits the development and 
stockpiling of biological weapons for 6 years. Negotiations 
have been ongoing to add to the treaty a protocol containing 
provisions that will allow inspectors to obtain information 
about and go to sites of expected biological weapons 
production, development or use.
    Earlier this year, the United States rejected this protocol 
and failed to offer an alternative proposal.
    In addition, the U.N. is in the process of negotiating a 
treaty to counter small arms proliferation. In these 
negotiations, the U.S. has been supporting civilian ownership 
of military weapons in trying to block proposed restrictions on 
trading arms with rebel groups.
    Do you think that we ought to change course and support the 
Biological Weapons Convention to be expanded to allow 
inspectors to proceed to get this information, and do you think 
we ought to reverse course and work within the U.N. in trying 
to negotiate a treaty to counter small arms proliferation?
    Do any of you have any comments on those two areas?
    Ms. Stern. I think what we've learned in the last week is 
that this is very much a globalized world, and there is a dark 
side to globalization, and that we need other countries to help 
us fight a variety of threats, not just terrorism, but also 
reemerging antibiotic-resistant disease. There are going to be 
certain kinds of threats that we can absolutely not fight 
alone.
    I think that certainly the Bush administration should put 
forward some kind of alternative if it can't accept the 
Biological Weapons Convention itself. I understand that there 
are some kinds of experiments, which seem to be reasonable 
experiments, ongoing in what our adversaries might have planned 
for us in the area of biological warfare, and it's 
understandable that we would want to--not to reveal exactly 
what is going on. So we need to come up with a good 
alternative.
    The bottom line, I think you're absolutely right, is that 
we cannot go it alone. In a way, we are declining, our power is 
declining. We need the world; that's become very, very clear.
    Mr. Waxman. Thank you very much. I appreciate your 
testimony and your answer to my questions, and I wanted to say 
to you, Dr. Stern--I don't know if you were here or where--one 
of our colleagues I thought was very unfair to you, and I just 
want to apologize on behalf of the overwhelming majority of 
this committee that, I'm sure, disagreed with a Member of 
Congress acting in such an unprofessional way.
    Ms. Stern. Thank you.
    Mr. Shays. Mr. Platts, you have the floor. You've been very 
patient, and you are a very valued member of our Subcommittee 
on National Security, Veterans Affairs and International 
Realtions. Thank you for staying and being here.
    Mr. Platts. Thank you, Mr. Chairman. Just one question for 
the panel.
    Given your knowledge of the broad issue of terrorism, in 
this region in particular, and how we're clearly looking to 
Pakistan to be of assistance--and we're aware of their 
assistance in the past, General, and appreciate your insights 
into that assistance. Earlier, with the Prime Minister, there 
were some questions regarding how we build the coalition 
against terrorism and the issues of Israel and India being 
included in that terrorism and how that affects the coalition, 
and our ability to stay united and go forward.
    And I'd welcome your comments on both of those nations 
being included in the coalition.
    General Zinni. I would echo what Dr. Harmon said. This 
threat affects Islamic countries as well as non-Islamic 
countries.
    If you look at the bombings in Nairobi and Dar es Salaam, 
Muslims were killed. In the case of Dar es Salaam, 11 
Tanzanians were killed. 10 were Muslim. It's obviously 
destroyed countries, made them incapable or failed states, the 
cases of Afghanistan, Somalia.
    We have countries out there that have tried to turn this 
around. Yemen is a good example. Yemen has a lot of problems, 
but Yemen asked for help. They asked for help in intelligence 
sharing, in training counterterrorism forces, in helping 
develop a coast guard, a border security force. We were 
involved, in my time there, in trying--because it was in our 
interest--to also help them secure their borders and not become 
a transit point for terrorists.
    Unfortunately, the Cole was bombed in their harbor, and it 
set us back a considerable way and even brought questions from 
Congress about why we should even do this. Well, I think now 
those questions are pretty well answered.
    I'd like to just make one statement about--most of the 
things that have been said here have to do with what I would 
call ``the first phase'' of this. The first phase is, get 
better intelligence, fuse it better, go after the money, get 
the leadership, take care of the infrastructure and take it 
down. We may need some legal help in terms of computer network 
attack and information operations, changing some of our own 
laws.
    There will be military action. It should be done in the 
appropriate way with the appropriate targets.
    All that is short-term, tactical first phase.
    You have a second phase that really, I think, gets to your 
question, Congressman. What do we do after that? We can leave a 
lot of broken china in this region, a lot of people that will 
not understand our motivations and intentions. Eventually you 
have to ask the question, how do we get at the center of 
gravity of this problem, radicalized young men who are willing 
to destroy things for this?
    How do they get there? It isn't just religious fanaticism 
that suddenly struck them. That's the rationale, and that's the 
means by which they're cultivated. But there are economic and 
political problems; there are cultural conflicts out there that 
we need to work to resolve. It's in our interest and the 
interest of those in the region.
    Those members of the coalition, beyond Israel and beyond 
India, I think basically the Islamic countries, will join us in 
this, but they want a long-term commitment and they will want 
us to help them address these issues that go beyond just the 
immediate tactical attacks or fixes that we need to do.
    Mr. Platts. Would either of the other panelists like to 
address it as well?
    Thank you, Mr. Chairman, and I appreciate all three of our 
panelists being here today and giving their time; and, 
certainly, your leadership and the full committee chairman's 
leadership on this issue.
    Mr. Shays. Thank you, Mr. Platts.
    You are all very gracious to allow one member to proceed, 
but I have a number of questions, and I consider you a 
phenomenal resource. I would like you to tell me where you 
agree the most with the Prime Minister, or where you might have 
been a little uneasy, if you were at all; and what would you 
have wanted to emphasize about what he said?
    And, General, I'll start with you.
    General Zinni. I didn't find anything in particular that I 
would disagree with.
    I understand we have a strong relationship with democracies 
around the world, and we have special relationships with 
countries, but I think it's clear to us that the coalition that 
we need to build, what we need in the international community 
to fight this, has to be broad; and we have to make sure that 
what we do includes countries that may not be democracies, 
countries that may be struggling toward democracies, even 
countries that have a lot of problems that need to be fixed and 
need to perform a lot better to measure up to our standards and 
to receive our support. Because the immediate problem is 
dealing with this.
    As I mentioned, the first phase of this problem is to 
eliminate this cancer that's out there, but then in the second 
phase to eliminate the causes.
    I don't want my son facing this. He's a second lieutenant 
in the Marine Corps, by the way. But we will create 
generational problems if we only go at the tactics of this, if 
we only view this as a war, if we only view this as attacks.
    Dr. Stern mentioned the Marshall Plan. General Marshall 
defeated Nazi Germany and then found a way to make sure we 
didn't face that again. Douglas MacArthur certainly helped in 
the defeat of Japan and then made decisions on rehabilitating 
Japan, to bring it around to where we never had to face that 
again. As distasteful as that seems now, as much as that runs 
against our emotions at this moment, when we finish the job of 
getting Osama bin Laden and breaking his network and destroying 
other terrorist networks--which I'm convinced we can do; we now 
have the will and the popular support, unfortunately through 
this tragic incident, that we hadn't had before. But we need to 
take it that step further, and we need to prevent the 
conditions that allow this to grow, from happening again. We 
are the only power left in the world that can cause this not to 
become a future problem.
    Mr. Shays. I'm going to pursue a question with you before 
we ask the others to respond to the same question.
    It seems to me that the Prime Minister was giving us a 
recipe that makes it easier for us to fight terrorism and to 
have our--and to use our military, because he's making it very 
clear we have to hold the harboring states accountable as if 
they committed the act, instead of--in that sense, we're not 
looking for the needle in the haystack. I mean, we know it's 
there. We know who the leaders are, and we hold them 
accountable.
    Tell me, though, what that means.
    General Zinni. I've been in this business for 18 years. I 
was the Marine Corps's counterterrorism officer, appointed 
after the Beirut bombs. Every time you tried to generate the 
resources or the attention to deal with this issue, you never 
really could get everything you felt you needed.
    I think we're going to find in the intelligence community, 
for example, we're woefully inadequate in the number of 
analysts, in the fusion center, in the kinds of things we need 
to bring that together.
    The comment would always be that more Americans die from 
bee stings each year than they do from terrorists. Well, that's 
not true anymore. We've crossed into a new era, and I think 
that we have now, unfortunately because of this tragedy, the 
public support and the political will to do something.
    Any nation-state that promotes, supports or condones 
terrorism, we must consider it as an act of war against us, and 
we must go after that nation-state and, I believe, remove the 
regimes that advocate this, that support it or direct it. In 
that sense, I completely agree with the Prime Minister.
    I think there are going to be nonstate entities that are 
going to require a different approach, and of course, Osama bin 
Laden is the classic case, where they do have the wherewithal, 
the financing, the network, the support structure to do things 
that only nation-states were able to do just a short time ago.
    There is going to be a third category of nations, incapable 
and failed states that are used and abused. They are not going 
to look pretty. They are going to be states where maybe in some 
cases, the government is supportive of the kinds of things we 
want to do, but there is mixed reactions from the population. 
We push the governments very hard, we could lose the state. So 
we are going to have to be very careful how we handle that 
category of state. We have to help them out of this more as in 
many ways and we have to help them come out when they make the 
hard decisions in ways that their people can see they benefited 
from making the right decision.
    So we have to look at those three categories, Mr. Chairman. 
States that fully condone it and we have to go after them as we 
would any nation that has committed an act of war upon us.
    Non state actors. This is going to be the strange new war, 
the war of computer network attack, of high degree of 
intelligence, of selected military strikes, of all the things 
you have heard testimony about.
    And then the third category, failed or incapable states 
that will need our help. I would give one caution in that third 
area, because I have lived this when I attempted to do the 
engagement in my region. We have a number of people in this 
body who honestly believe, as they should very strongly, about 
certain principles. And when they look at these nation states, 
they see a principle that isn't fully the way they would like 
it to be, be it human rights, non proliferation, 
democratization. Because of this one flaw or one fault, we 
totally become incapable or we become prohibited from engaging 
in any way.
    I conducted military to military connections with countries 
that I was turned off because their police committed a 
humanitarian or human rights violation. The military people 
that were clean told me how does this affect me. I am trying to 
do the right thing. This happened right after an incident in 
New York. How does it affect you in the military? I made the 
case back here that I often felt like someone charged to 
provide medical assistance, but the patient had to be 
completely healthy to qualify. We are going to have to change 
the rules a little bit and understand that we have a long way 
to go with some of these nations. It may not be perfect but we 
have got to help them along the road or they will degenerate 
into what Dr. Stern and Dr. Harmon have described here, 
especially in cases like Pakistan and Yemen and other places.
    Mr. Shays. Sir, you almost accomplished the impossible. 
Behind you are two Marines that haven't cracked a smile all day 
and they almost started to smile.
    General Zinni. And they haven't been ordered to, Mr. 
Chairman.
    Mr. Shays. I will have you think about it now, that is, I 
thought human intelligence required us to be in the various 
countries we are not at and I saw the conflict of our treating 
these countries as enemies, and yet we need to be good 
diplomats or military people, our businessmen and women to 
interact, to learn things. But you seem to suggest that, you 
know, we were woefully inadequate on human intelligence by not 
maybe having analysts. So I need you to come back to that to 
flesh that a little better. Dr. Harmon, Dr. Stern, one of you 
would respond to the thing you agreed most with Mr. Netanyahu 
and maybe the area have you some caution.
    Mr. Harmon. I would like to reply. Thank you. Benjamin 
Netanyahu help set the terms for debate on forcible 
counterterrorism in the mid 1980's when this was such an 
important issue. His first book appeared, and everyone in the 
building--and I had the privilege of having a small desk in a 
distant part of the building--everyone here was struck by the 
intelligence of the book, by its emphasis on clear thinking and 
good logic and its insistence that morals play a role in this 
debate, that it is not just a question of morale, but of the 
fact that in democrat societies, a moral position is part of 
morale. He did, in short, a great duty with his publications.
    And his last word today, if I recall correctly, was an 
emphasis on will. I think that as our distance from September 
11th grows, that will be something we all really need to 
remember.
    I would like to underscore General Zinni's emphasis that 
certain threats we face don't necessarily have a good home 
address, that there are failed states, there are individuals 
that need dealing with in ways that we can't only take through 
capitals, state capitals in these cases.
    Let me mention something that is sort of controversial. The 
United States strategy has included for years the matter of 
forcible rendition in the case of an individual who may be 
stateless, like Osama bin Laden's case, or a narco-trafficker 
or something who is abroad from his own country, they have used 
a combination of law and force to seize these people, bring 
them here for trial. There is no reason that this country can't 
contemplate careful and intelligent use of force in a military 
vein while also doing far more of that kind of thing, such as 
forcible rendition. All administrations, Democrat and 
Republican, have done it. Our courts uphold it. If we are 
willing particularly to use lethal force, if need be, when the 
case demands it, this is a very practical thing we can do in 
the difficult war, in the difficult world between war and peace 
that counterterrorism involves.
    And so, that is an attempt to--reasonable countries can 
deal with particular individuals of the kind that General Zinni 
was discussing in that way. Otherwise, I think that the Prime 
Minister's testimony is a good lesson for Americans and 
something well worth retaining.
    Mr. Shays. Thank you.
    Dr. Stern.
    Ms. Stern. I would just like to talk a little bit about 
what I have seen about how some of these groups raise money.
    Mr. Shays. Let me ask you this though, could you first 
respond to what you comment on Mr. Netanyahu's.
    Ms. Stern. Yeah. It is closely related because I think 
that--what I want to emphasize is that these groups don't 
really need states for--they need states, obviously they have 
to live somewhere; they are not going to live on Mars. But they 
are getting a lot of what they need from other entities than 
states. And I think it is very important to realize how they 
are doing that. They are wealthy individuals, and I want to 
talk about the Jihadi groups that I have interviewed in 
Pakistan. You will see something similar in other parts of the 
world.
    Mr. Shays. May I ask you parenthetically, if you continue 
to interview people who are potential terrorists, are you put 
in the awkward position of being able to say what you need to 
say?
    Ms. Stern. Actually, I have already published. They don't 
really like what I publish and I probably will not be able to 
continue doing this kind of research.
    Mr. Shays. I would like to have you back a few more times.
    Ms. Stern. I think my husband doesn't want me going back.
    Mr. Shays. That is a good sign. It must mean he loves you.
    Ms. Stern. Right. I don't think I am about to tell you 
anything.
    Mr. Shays. If your husband wanted you back, I think you 
need to consult someone.
    Ms. Stern. Well, I will just put----
    Mr. Shays. For the record, the two Marines smiled for the 
second time.
    Ms. Stern. I think it is very important to realize that 
there are wealthy individuals around the world that are 
supporting these movements. And governments may be able to 
control them, but we have to pressure those governments a lot 
more.
    Mr. Shays. So that implies the Swiss or whomever that don't 
harbor terrorists, if they are enabling someone to be harbored 
and they are aware of it in any way, they need to step forward.
    Ms. Stern. That is right. I think that may be a good way of 
saying this is--we should be going after terrorism enablers, 
and obviously we are not going to impose sanctions on every 
terrorism enabler.
    Mr. Shays. OK. What else would you like me to know?
    Ms. Stern. There is a lot of money. There is a lot of money 
in this world, the Jihadi world. Without going into details, 
since it obviously makes you nervous, I will say on my behalf, 
and thank you very much, I will say that one group, for 
example, told me they had so much money they didn't know what 
to do with it. They are also getting donations in kind of these 
groups are donating operatives for particular operations. So 
groups are acting together. They are loaning operatives to one 
another. That is another way--I mean, there a way that is 
another--you can think of that as a kind of support for the 
group that really has nothing to do with states.
    Mr. Shays. General, maybe you could respond to the issue of 
human intelligence. You heard the assumption I made. How would 
you respond?
    General Zinni. I think there is two issues regarding 
intelligence. I am sure more, but two issues that jump out at 
me, Mr. Chairman, one is human intelligence. I can't remember a 
testimony that I gave as a commander in chief where, when asked 
what my deficiencies were, especially in intelligence, that I 
didn't say it was the lack of human intelligence.
    Mr. Shays. The question, though, is how is that curable?
    General Zinni. It is curable but not in the short term. It 
takes a long time to buildup a network and it takes resources 
and money, and it obviously takes the authority, the legal 
basis for it in some cases, which may not be there now as a 
result of some legislation. To buildup the kind----
    Mr. Shays. So we are not speaking in tongues here, are you 
referring to legislation that says we can't deal with bad 
people?
    General Zinni. Yes.
    Mr. Shays. You would knock that out quick.
    General Zinni. I think in this case we have to. I would be 
careful. I wouldn't advocate blanket authority to do things. I 
think certainly oversight is necessary. I wouldn't want that as 
an American citizen. But I do think we have to look carefully. 
This is a new and different kind of war. How many times have we 
heard that? It is going to require tactics some times that 
require us to take measures like that in order to get the 
intelligence.
    But the intelligence problem doesn't stop there. We will 
find out in this, I am afraid that there were bits and pieces 
out there, that if somebody could have pulled it together we 
might have seen this coming. I think that in the intelligence 
world the terms that always used is fusion.
    After the Beirut bombings of the Marine barracks, we 
created a terrorist fusion center here, interagency in 
Washington. And everything regarding terrorism, any report, any 
call-in, any information we received went in there. And they 
were given the proper resources, the proper number of people 
and analysts so they could quickly turn it around and put the 
pieces of that puzzle together. I am concerned about, at least 
at first blush, what I see that the INS had a bit of 
information, the FBI may have had a bit, the CIA, whoever. How 
is this coming together? Do they have the resources in people, 
in money, to turn this around? In the intelligence area it is 
collection, it is processing and analysis and it is quick 
dissemination so you can act.
    I lived in an AOR, an area of responsibility that had Osama 
bin Laden and many other terrorists for 4 years. And we tried 
to protect our forces. 99.9 percent of the times we were 
successful. There were times when we weren't, or our State 
Department wasn't or NGO's weren't or our businessmen weren't 
or our tourists were not. The only way we can counter that to 
be better is to have the intelligence. And it is going to 
require a big investment, I think, to get us there.
    Mr. Shays. In one way, I am encouraged because I have been 
going under the assumption that we couldn't do some of this 
human intelligence because we certainly weren't there and 
didn't have the network. The sad news is maybe this information 
was available and we didn't have the people to analyze it and 
to collect it all and analyze it and make the process of 
knowing what it said, which is sad but that seems to me to be 
something we can remedy pretty quickly.
    General Zinni. I think so. And I think we need to question 
the intelligence community about what their needs are to make 
this happen. I should add one other point, and that is 
intelligence sharing. The program is very difficult in a formal 
sense because obviously we have to vet nations in their ability 
to handle the intelligence. But I do think we need to make the 
connections as soon as possible. And in some cases, we may 
actually have to waive some of the obviously important 
bureaucratic things that we put in to protect information in 
order to get access. The best information I ever received is 
when I sat down over tea with the intelligence chief of some 
nation who gave me his views of things. That was the best 
intelligence.
    Mr. Shays. But the implication is you got to be there.
    General Zinni. Yes. Absolutely.
    Mr. Shays. One of the things that I have been impressed 
with in my travels overseas for the work in any national 
security subcommittee is the amazing contacts that our military 
personnel that all branches have overseas with very powerful 
military people in those other countries. And I think I learned 
more almost from those interagencies where our military invited 
me to meet the military personnel of France, Great Britain or 
other countries than I have learned, frankly, from briefings 
that I have had in my own country.
    General Zinni. I agree, sir.
    Mr. Shays. It is very impressive. This is a book that, by 
the way, whenever I ask one witness a question, I am happy to 
give you an idea. I am going to limit myself to 10 to 15 more 
minutes because I could go on for hours, but--unless I care to 
go on longer, then I will just use that authority. So the point 
is if you have a comment to a question I asked the General, I 
am happy to have you jump in, either one of you.
    This is from the Department of Health and Human Services 
and it is fiscal year 2002 to fiscal year 2006 plan for 
combating bioterrorism. And it said, ``During the year that 
small pox was eradicated, the Soviet government embarked on an 
ambitious program to grow smallpox in large quantities and 
adapted for use in bombs in intercontinental ballistic 
missiles. The successfulness of that project has the U.S. very 
concerned about the intentional use additionally.'' Then it 
says, ``the WHO, the World Health Organization, has expressed 
concerns that smallpox might be freeze-dried to retain 
virulence for prolonged periods. The technology and 
intellectual capacity exists for a well-funded, highly 
motivated terrorist group to mount such an attack.'' That's 
just you know from our own HHS. Does that surprise any of the 
three of you?
    General Zinni. It doesn't surprise me. It is in line with 
all the intelligence reporting I saw while on active duty.
    Mr. Shays. Mr. Harmon.
    Mr. Harmon. It is my understanding that it does not take 
much sophistication to make a small biological weapon which 
could be useful in a terrorism case. There is a major new study 
of considerable interest of some of the cases in which either 
chemical or biological weapons have been tried. It is edited by 
Jonathan Tucker and done by MIT press recently. And some of the 
major cases have been studied about American groups, foreign 
groups, attempting to use and make weapons of mass production. 
The general conclusion, and then Dr. Stern, I think, 
contributed to that, so she will doubtless want to comment. I 
think the general conclusion could be two things: one is that 
they haven't come as close as people feared to success; but on 
the other hand, it is evident that they sure are trying. And I 
think all of us----
    Mr. Shays. You don't have any doubt given that they were 
willing to destroy potentially the lives of 50,000 people that 
they would be hesitant at all.
    Mr. Harmon. The kinds of groups we are discussing today 
don't, I think, hesitate on that basis. 25 years ago, Mr. 
Chairman, there was a strong argument advanced that 
particularly with nuclear weapons, that terrorists don't want 
lots of bodies, they want lots of attention. The author of that 
line of argument, and it is a fine article, has backed off a 
little bit. He did a new version of his own. He is a----
    Mr. Shays. Before Tuesday or after Tuesday.
    Mr. Harmon. This was before. About a year ago, he published 
a new examination of that issue. He said essentially I hope it 
is still true that they won't go to weapons of mass destruction 
but I am less sure than I used to be. I think Aum Shinrikyo's 
activities in Tokyo should divest us of any hope we have that 
they are unwilling to work with this kind of material to try to 
make it effective. We have been somewhat lucky, frankly, so 
far, that some of these cases have not worked out for the 
groups which----
    Mr. Shays. The terrorists developed a new smart bomb. They 
just got on a plane and they became the guiding guidance 
systems, and they were just willing to blow themselves up in 
the process. So we know if they haven't handled, how do they 
expose the general public to a biological or chemical agent 
without hurting themselves? We can learn now that they may not 
care.
    Ms. Stern. I would like to add something to here. I think 
it is very important to point out that very few groups are 
interested in mass casualty attacks, but the kind of group we 
would be worried about would be of the sort that we have now 
seen. And regarding your question about smallpox, I did 
contribute to that volume that was just referred to, actually I 
wrote a couple chapters in that MIT press book, and one of the 
individuals that I have studied extensively is a guy named 
Larry Harris, who had actually successfully acquired Yersinia 
pestis from the American Type Culture Collection. That is the 
bacterium that causes bubonic plague. With smallpox, if someone 
acquires it, we are in trouble.
    Mr. Shays. We have about 24 million doses--12 million 
doses, and I hope we are starting to make more of them. 
General, I am going to kind of see if I can end up in this 
area. It seems to me--first off, in terms of I hope we don't 
look for blame right now, because I have never known our 
country in a type of crisis when to get it right. But it seems 
to me that it is almost unfair to affix blame on anyone right 
now. Because everybody was shouting and later we are--we can 
say later that person shouted and that person shouted and that 
person shouted, but there were so many others who were warning 
things too. It would seem to me is part of our problem is 
knowing which shout to listen to. It may be that we can go back 
and say they should have known this or they should have known 
this or they should have known this. But then what was the 
environment that it came in? I mean, you know what I am trying 
to express.
    General Zinni. Yes. I couldn't agree more Mr. Chairman. You 
know, in recent years I have seen us punish good people. We 
have ended careers of fine military officers because they were 
99.9 percent perfect. And there was a moment when there was a 
vulnerability, there was a pattern set that they weren't aware 
of, an attack came at them from a direction they didn't expect. 
And we have a tendency to frankly, immediately look inward and 
find accountability becomes the main issue. I think we ought to 
think about lessons learned as the main issue.
    There is probably enough blame to go around for everyone. 
And all agencies and many people that tried their best but 
didn't quite get it 100 percent perfect. I testified before 
this body and the other body many times on terrorism and made 
the same statement. I made it in 1996 when I was first 
appointed. We are being stalked every minute of every day. 
Someone is waiting for us to make a mistake to let down our 
guard. It is hard to ask our military, for example, to be 
completely 100 percent dedicated to force protection. If they 
did, they wouldn't accomplish their mission.
    For example, I had hundreds of people in my region 
responsible to me for security assistance. They had to be out 
and about on their own in order to do their job. They had to 
expose themselves to danger. We ask commanders to carry out 
missions, like enforcing the sanctions against Iraq that are in 
positions and bases and places and have to do things that 
expose themselves.
    Sometimes the mission becomes all consuming and sometimes 
the emphasis on force protection drops just a little bit. And 
it hurt me deeply to see that we were fast to punish and fast 
to look for accountability and fast to look for blame. And I 
would emphasize that is not the important part right now. It is 
to get the lessons learned and to fix the mistakes that we 
maybe have made, or the places where we have had gaps.
    Mr. Shays. This relates to that. If your military forces 
are on alert constantly, how do we expect them to maintain 
operational capability?
    General Zinni. That is an excellent point. We have four 
threat conditions. Let me give you an example, Mr. Chairman. I 
had 25 countries for which I was responsible for American 
military involvement, influence, presence. Of those 25 
countries, 24 in my entire time as a commander in chief and 
deputy commander in chief, 4 years, 24 were in a terrorist 
threat condition all the time. The only one that wasn't was the 
Sea Shell Island. Every other one was not even just in the 
minimum threat conditions, but one of the two higher threat 
conditions.
    What that means is we ask our troops to be at this high 
state of alert when more intelligence comes in, when another 
threat comes in, one more reliable, one more specific, there is 
nothing left to ratchet up to. And the troops frankly can be 
worn down by that. There is no place to go. It is easy to cover 
yourself by constantly keeping them in that state of alert. If 
you do, you punish the troops. Many times I granted waivers or 
I made exceptions or I took the risk as the commander to ease 
it down because I knew my troops needed it. You can't keep them 
at that highest state of alert full time.
    Mr. Shays. I had an opportunity, in my capacity as 
chairman, to land on the Theodore Roosevelt and stay there for 
a night. I was astounded at this. I mean it is a city with an 
airport on top of it. Basically run average age, 19-year-olds. 
And I was in awe. I even get teary eyed just thinking about it. 
I was in awe of what each of them did. But these are very young 
people as well. And the description of all the various 
countries that we may have to hold accountable and the 
implications of that are quite mind boggling, frankly.
    I will end with this area, Dr. Harmon. And maybe Dr. Stern, 
and maybe General as well. We can't eliminate the fact that the 
media will become a platform for terrorists, especially after 
an attack. What should we do to make the media less of an 
unaware participant?
    Mr. Harmon. I think it is a superb question, Mr. Chairman. 
The other day one of the newspapers in the midst of a story 
about our current difficulties referred to the political 
offensive against terrorism by saying that the diplomatic 
effort includes reaching out to such countries as Cuba and 
Sudan with which the United States has had adversarial 
relationships.
    What a simple little line which hides so much. The story of 
the 1990's was a story of amazing involvement by Sudan in 
terrorism worldwide and bin Ladin himself was there for about 5 
years as his base. So that statement, which seems so objective 
and so simple, in fact, covers over many truths. And I think 
that the skill, therefore, of the reporters who are really 
good, who try to dig seriously and report honestly is even more 
impressive. Because that kind of blandishment leaves the 
typical reader, who doesn't know the Sudan well, with a sense 
that jeez, bilateral relations are tough between Khartoum and 
Washington. That just doesn't begin to tell the story. I guess 
one reason I mentioned Judith Miller of the New York Times, or 
I could mention Tim Weiner of the same paper or Steve Emerson, 
who help produce the film, some of which was shown here 
earlier--these are journalists who really do first-rate work, 
and they are out there. And so mention of them is helpful.
    And I think that the U.S. Government's published position 
carefully put together by the State Department year after year 
and published in April, deserves good attention. I think our 
media should not assume that what one angry sheik says is the 
equal of what State puts together in this town with a great 
deal of honest work, with a great deal of weighing of 
intelligence after a great deal of deliberation about the 
verbiage.
    And so the challenge I think for the people, for the 
citizens who don't--who are not experts in these areas, is to 
understand the truth. Because it takes us back to this issue of 
will. Sudan deserved strong measures during the 1990's when the 
Al-Turabi regime was in charge. You would never know that from 
some of the newspaper coverage of the Sudan.
    Ms. Stern. I would also like to say a few words. I think we 
need to be very aware that our rhetoric can actually make a big 
difference. Words like ``crusade'' imply a war against Islam 
and make Muslims everywhere feel threatened. We need to 
remember that after the victims and their families, the other 
victims most hard hit by these attacks are peace-loving Muslims 
around the world. I think that you can do a public service by 
making clear that this is not a war against Islam. This is not 
a crusade, that Muslims are critically important Americans and 
that attacking them at a time like this is not only a violation 
of law, a violation of ethics, but also counterproductive. So 
you can use the media.
    Mr. Shays. Those of us who have been here for 14 years 
remember legislation we had to vote on dealing with the 
incarceration of our Japanese citizens and we were all ashamed 
of that. So hopefully we will remember that in terms of our own 
real life experience and practice what we preached.
    Is there any question that you would have liked me to ask 
that you would have liked to answer?
    General Zinni. If I could, Mr. Chairman, I would like to 
address one issue. It is sort of related to your last question. 
Last night there was a TV show that implied that justification 
for this act was based on the missile strikes in 1998. And I go 
back now to the point about the media. And I think it is 
important that we understand and we don't let the American 
people believe that was the case. In February 1998 Osama bin 
Laden put out his fatwa, his religious edict that says American 
citizens, civilians should be killed not just military, not 
just diplomats, but all Americans. It followed up about a month 
later where his council ratified that and put it out as a 
declaration and we were following this.
    Immediately after that, in 1998, about a month later, he 
made a statement about acquiring, ``an Islamic nuclear bomb,'' 
that it was, it should be their principal effort. They had a 
right to it and they should use it. He then attacked the 
Embassies in Nairobi and Dar es Salaam. He killed over 200 
innocent Kenyans and Tanzanians, most of them Muslims. He 
killed 12 Americans. He killed three of my people at central 
command. We had intelligence reports that he was planning other 
attacks, very specific very reliable intelligence reports. As 
we will find in this business, there aren't good targets. There 
isn't the infrastructure you have in a nation state. There 
isn't a military force. There isn't a capital. It is hard to 
find things to attack. We had some intelligence.
    We knew of some camps, a terrorist camp doesn't offer you 
much. It is remote. There are many facilities. We had to make a 
choice. There was a possibility that you could take the shot 
and get something. There was a possibility that even Osama bin 
Laden and his leadership might be there. But we couldn't bank 
on it. Or not take the shot and let it pass and suffer another 
attack. The best we could hope for is that we at least send a 
message that we can reach you behind those hills. We took the 
shot.
    And I concurred in it. I mean, I was the commander in chief 
that launched the missiles. When directed, I felt it was the 
right thing to do. I had no illusions that we were going to 
score a great victory or hit anything. But to believe that this 
was the cause of this incident where these people were in place 
well before that ready to do this or we had no right to take 
that shot, based on the event that had happened just months 
before I think is erroneous. But we had media people that 
allowed that one-sided version to come out. I have no doubt 
that the American people certainly would not be deceived by 
that. But that may give rationalization and a sense of 
justification to those that are on the edge out there that 
suddenly are horrified what happened, and maybe are going to 
rethink their sympathies. That is why I think sometimes the 
sensationalism is out of order.
    Having said that, I don't believe we should police the 
press. I think the first amendment is one of our strengths. 
Truth hurts these evildoers more than anything else. We just 
have to ask them to be responsible in their reporting.
    Mr. Shays. I think that is a very nice way to end up. And I 
thank all of you. Just hold on 1 second. Before I ask unanimous 
consent, that the prepared statement of Dr. Bruce Hoffman of 
the Rand Corp. and a September 9th article from the Wall Street 
Journal entitled, ``U.S. Presses Lebanon On Suspects'' that Mr. 
Lantos wanted to be inserted into the hearing record, that both 
be inserted into the record. And obviously without objection so 
ordered.
    I would just say that to the three of you, you were very 
patient in waiting. It is important that you testify before 
this committee. It is important that my staff and other staff 
hear what you had to say as well as members. And I consider all 
three of you having made a valuable contribution to the work of 
our committee. I thank you very deeply. This hearing is 
adjourned.
    [Whereupon, at 4:40 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T7229.091

[GRAPHIC] [TIFF OMITTED] T7229.081

[GRAPHIC] [TIFF OMITTED] T7229.082

[GRAPHIC] [TIFF OMITTED] T7229.083

[GRAPHIC] [TIFF OMITTED] T7229.084

[GRAPHIC] [TIFF OMITTED] T7229.085

[GRAPHIC] [TIFF OMITTED] T7229.086

[GRAPHIC] [TIFF OMITTED] T7229.087

[GRAPHIC] [TIFF OMITTED] T7229.088

[GRAPHIC] [TIFF OMITTED] T7229.089

[GRAPHIC] [TIFF OMITTED] T7229.090


</pre></body></html>
